Federal Trade
Commission
Performance and
Accountability Report
Fiscal Year 2009




                        The woRk oF The FedeRAl

                        TRAde Commission is

                        CRiTiCAl To PRoTeCTing And

                        sTRengThening FRee And

                        oPen mARkeTs And PRomoTing

                        inFoRmed ConsumeR ChoiCe,

                        boTh in The uniTed sTATes And

                        ARound The woRld.
                                        About This Report




                                                                                                                                                          introduction
                                        T
                                                he Federal Trade Commission’s (FTC)              The performance and financial information contained
                                                FY 2009 (FY) Performance and Accountability      in this report is summarized in a “Summary of
                                                Report (PAR) provides the results of the         Financial and Performance Information” report
                                        agency’s program and financial performance and           available at www.ftc.gov/par by February 2010.
                                        demonstrates to the Congress, the President, and
                                        the public the FTC’s commitment to its mission
                                        and accountability over the resources entrusted to it.
                                        This report, available at www.ftc.gov/par, includes
                                        information that satisfies the reporting requirements
                                        contained in the following legislation:
                                         •	 Federal Managers’ Financial Integrity Act of 1982
                                         •	 Government Performance and Results Act of 1993
                                         •	 Government Management Reform Act of 1994
                                         •	 Reports Consolidation Act of 2000
                                         •	 Accountability of Tax Dollars Act of 2002
                                         •	 Improper Payments Information Act of 2002




                                            Certificate of Excellence




                                             The FTC received the Association of Government Accountants’ Certificate of Excellence
Federal Trade Commission
Performance and Accountability Report
                                             in Accountability Reporting for its FY 2008 PAR.                                               Fiscal Year
                                                                                                                                              2009
                                                                                                                                                              i
About This Report




                                                                                                                  introduction
T
        he Federal Trade commission’s (FTc)              The performance and financial information contained
        FY 2009 (FY) Performance and accountability      in this report is summarized in a “summary of
        report (Par) provides the results of the         Financial and Performance information” report
agency’s program and financial performance and           available at www.ftc.gov/par by February 2010.
demonstrates to the congress, the President, and
the public the FTc’s commitment to its mission
and accountability over the resources entrusted to it.
This report, available at www.ftc.gov/par, includes
information that satisfies the reporting requirements
contained in the following legislation:
 • Federal Managers’ Financial integrity act of 1982
 • Government Performance and results act of 1993
 • Government Management reform act of 1994
 • reports consolidation act of 2000
 • accountability of Tax Dollars act of 2002
 • improper Payments information act of 2002




    Certificate of Excellence




     The FTc received the association of Government accountants’ Certificate of Excellence
     in Accountability Reporting for its FY 2008 Par.                                               Fiscal Year
                                                                                                      2009
                                                                                                                      i
               How This Report Is Organized
introduction



               This report includes four major sections plus supplemental information.


                                                       1. Management’s Discussion and Analysis
                                                         The Management’s Discussion and analysis (MD&a) provides an overview
                                                         of the FTc’s mission and organization, a key performance measures overview,
                                                         mission challenges, financial highlights, and management assurances on
                                                         internal controls, financial systems, and compliance with laws and regulations.




                                                       2. Performance Section
                                                         The Performance section explains the FTc’s performance relative to its strategic
                                                         goals and objectives, and includes an overview of how the performance data are
                                                         verified and validated.




                                                       3. Financial Section
                                                         The Financial section provides financial details, including the independent
                                                         auditor’s report and audited financial statements.




                                                       4. Other Accompanying Information
                                                         The other accompanying information provides management and
                                                         performance challenges identified by the inspector General, along with
                                                         the chairman’s response and a summary of financial statement audit and
                                                         management assurances.



                                                       5. Appendices
                                                         appendix a is a list of acronyms used throughout this report,
                                                         and appendix B contains contact information and acknowledgements.




   ii          Federal Trade Commission
               Performance and Accountability Report
The FTC




                                                                                                                   introduction
At-A-Glance                                             Federal Trade commission act, Telemarketing sales
                                                        rule, identity Theft act, Fair credit reporting act,
History                                                 and clayton act.
The federal government created the Bureau of            Profile
corporations in 1903. in 1914, President Woodrow
                                                         • The agency is headquartered in Washington, Dc,
Wilson signed the Federal Trade commission act into
                                                           and operates with seven regions across the
law, and the Bureau of corporations became the FTc.
                                                           United states.
Laws Enforced                                            • The agency had over 1,100 full-time equivalent
The FTc is a law enforcement agency with both              employees at the end of FY 2009.
consumer protection and competition jurisdiction in
                                                         • Total new budget authority for FY 2009
broad sectors of the economy. The agency administers
                                                           was $259 million.
a wide variety of laws and regulations, such as the


    Did You Know?


     • consumers are affected every day by the FTc’s activities. For example,
       consumers receive fewer telemarketing calls, obtain free credit reports, receive
       less spam, receive identity theft victim assistance, access truthful information
       about health and weight-loss products, pay lower prescription drug prices
       thanks to the availability of generic drugs, and enjoy competitive prices for
       goods as a result of merger reviews and actions taken by the FTc.

     • The agency manages the national Do not call (Dnc) registry, which
       gives consumers the opportunity to limit telemarketing calls. at the end
       of the fiscal year, there were more than 191 million active registrations on
       the Dnc registry.

     • over the past three years, the FTc has saved consumers over $1.4 billion in
       economic injury by stopping illegal practices. The FTc’s jurisdiction ranges
       from misleading health claims and deceptive lending practices to weight-loss
       schemes and business opportunity fraud.

     • in FY 2009, the FTc took action against mergers likely to harm competition
       in markets with a total of $22.3 billion in sales. The agency’s efforts to
       maintain aggressive competition among sellers benefit consumers through
       lower prices, higher quality products and services, additional choice, and
       greater innovation.

     • The FTc shares the more than 12.1 million fraud, identity theft, financial,
       and Dnc registry complaints it has collected during the past five years with
       more than 1,700 other law enforcement agencies across the United states,
                                                                                                     Fiscal Year
                                                                                                       2009
                                                                                                                    iii
       canada, and australia via the secure consumer sentinel network website.
               Message From                                                                                    Jon leibowitz
introduction


                                                                                                               chairman

               the Chairman


               i
                   t is my pleasure to present the Federal Trade          in the consumer protection area, the FTc has taken a
                   commission’s Performance and accountability            number of actions to address the economic meltdown’s
                   report for Fiscal Year 2009. This report presents      impact on consumers. We have warned consumers
               the results of the agency’s strong program performance     about economic stimulus scams and initiated a
               and sound financial management over the past               crackdown on frauds fueled by the recession, including
               year, and affords us the opportunity to show the           numerous foreclosure rescue schemes. We have joined
               american taxpayers how the FTc benefits consumers          with our federal, state, and local law enforcement
               in broad sectors of the economy. Having served as a        partners to coordinate law enforcement and outreach
               commissioner since 2004, i am honored that President       efforts for consumers in financial distress. Further, the
               obama designated me to serve as chairman of this           FTc has given priority to addressing consumer privacy,
               remarkable agency.                                         including: online behavioral advertising; technology
                                                                          abuses; identity theft and data security; and “Do not
               The FTc has two critical goals: protecting consumers
                                                                          call” violations. The FTc also has focused on deceptive
               and maintaining competition. To achieve these goals,
                                                                          marketing of health products, “green” marketing, and
               we apply four objectives and related strategies: (1)
                                                                          marketing to children.
               identify illegal practices; (2) stop illegal practices
               through law enforcement; (3) prevent consumer injury       To maintain competition, the FTc has continued
               through education of consumers and businesses;             to actively enforce the antitrust laws in a range
               and (4) enhance consumer welfare through research,         of industries of critical importance to american
               reports, advocacy, and international cooperation and       consumers, including: healthcare and pharmaceuticals,
               exchange. These objectives set the course for us to        technology, energy, real estate, and retail. For example,
               accomplish our mission effectively. although our core      in an effort to control health care costs, one priority is
               goals and objectives remain steady, our agency also        attacking collusive “pay-for-delay” settlements in the
               works to respond nimbly as we navigate the dynamic         pharmaceutical industry that delay the introduction of
               marketplace, rapidly changing technology, and              generic drugs and cost consumers and the government
               increasing globalization.                                  billions of dollars each year. The agency also
                                                                          continues to pursue law enforcement actions against
               This year, the nation’s financial crisis has required
                                                                          anticompetitive mergers and business conduct.
               the agency to shift resources and priorities to meet the
                                                                          We vigorously monitor and enforce compliance with
               challenges of the economic downturn. in these
                                                                          consent orders as well as with the reporting obligations
               difficult times, protecting consumers and promoting
                                                                          under the Hart-scott-rodino (Hsr) act. in addition, the
               competition are more important than ever. Through
                                                                          FTc engages in an active program of workshops, reports,
               the efforts of our dedicated staff, the FTc has
                                                                          and advocacy letters to educate stakeholders about the
               responded expeditiously to the changing needs
                                                                          importance of competition to consumers.
               of american consumers.




 iv            Federal Trade Commission
               Performance and Accountability Report
“in these difficult times, protecting consumers and
 promoting competition are more important than ever.




                                                                                                                         introduction
 Through the efforts of our dedicated staff, the FTc
 has responded expeditiously to the changing needs of
 american consumers.
                                          ”
To help achieve our mission, we reach out to our
stakeholders—consumers, business representatives, and
                                                            weaknesses, significant deficiencies, or instances of
                                                            non-compliance with laws and regulations. in the
law enforcement partners—to help identify marketplace       Management assurances section (see p. 22), i provide
trends and challenges. We provide toll-free phone           my assurances that FTc has no material weaknesses
numbers and online complaint forms for the public to        to report. i am also pleased to report that the FTc
alert us to illegal practices. We invite stakeholders to    financial and performance data presented in this report
workshops and hearings to discuss current issues and        are complete, reliable, and accurate in keeping with the
industry developments. our law enforcement partners,        guidance from the office of Management and Budget.
both domestic and foreign, help us ensure robust
                                                            in accordance with the reports consolidation act
enforcement of consumer protection and antitrust laws,
                                                            of 2000, the inspector General (iG) identified key
such as blocking mergers that could reduce competition.
                                                            management and performance challenges facing the
The FTc maximizes its law enforcement and deterrent
                                                            agency, and he assessed our progress in addressing them.
impact through good press relations and an extensive
                                                            agency management concurs that the issues identified
consumer and business education program. To prevent
                                                            by the iG are critical challenges, and with his assessment
further consumer injury we issue alerts to warn the
                                                            of our progress. Those challenges and our responses
public of emerging schemes, we post web pages,
                                                            are discussed further in the other accompanying
we publish brochures, and we use other innovative
                                                            information (see p. 105). Moving forward, we will
approaches to reach the public. The agency’s extensive
                                                            continue our efforts to tackle these matters proactively.
education materials are available online in english at
www.ftc.gov and in spanish at www.ftc.gov/ojo.              i look forward to working with my fellow
                                                            commissioners to maintain the culture of collegiality,
a critical component of our success is the FTc’s
                                                            consensus-building, and collective problem solving that
investment in retaining and training our employees. The
                                                            uniquely characterizes the FTc. Together, we will work
FTc is fortunate to have a dedicated and knowledgeable
                                                            with the FTc’s talented and dedicated staff and our law
staff of attorneys, economists, and other professionals
                                                            enforcement partners as we pursue our critical consumer
who possess strong technical skills and experience. Their
                                                            protection and competition missions in the face of the
tireless work enables our small agency to leverage our
                                                            challenges brought by today’s tumultuous economy.
resources and handle a growing workload.
Furthermore, essential to FTc’s success in gaining
organizational excellence is sound financial
management. The FY 2009 independent financial audit
resulted in the FTc’s 13th consecutive unqualified          Jon leibowitz
opinion, the highest audit opinion available. The           november 13, 2009
independent auditors did not identify any material




                                                                                                          Fiscal Year
                                                                                                             2009
                                                                                                                           v
               Table of Contents
introduction



               inTroDUcTion
               about This report .......................................................................................................................................... i
               How This report is organized ..................................................................................................................... ii
               The FTc at-a-Glance ................................................................................................................................. iii
               Message from the chairman ........................................................................................................................ iv


               ManaGeMenT’s DiscUssion anD analYsis ................................................................................ 1
               Mission and organization ............................................................................................................................. 2
                           The FTc: our Purpose and History ................................................................................................ 3
                           our organization ............................................................................................................................ 4
                           our People ....................................................................................................................................... 6
               Performance overview .................................................................................................................................. 7
                           strategic and Performance Planning Framework .............................................................................. 7
                           Key Performance Measures overview .............................................................................................. 8
                           Performance Measures summary ................................................................................................... 14
               agency Mission challenges ..........................................................................................................................15
               Management assurances .............................................................................................................................. 22
                           implementation of the Federal Managers’ Financial integrity act (FMFia) at the FTc ................ 22
                           chairman’s FMFia statement of assurance .................................................................................. 23
               Financial Highlights .................................................................................................................................... 25


               PerForMance secTion .................................................................................................................... 31
               introduction to Performance ........................................................................................................................ 32
                           relationship of outputs to outcomes ............................................................................................ 32
                           verification and validation of Performance Data ........................................................................... 33
                           Performance Measure summary Table ........................................................................................... 35
               strategic Goal #1: Protect consumers .......................................................................................................... 38
               strategic Goal #2: Maintain competition.................................................................................................... 54




 vi            Federal Trade Commission
               Performance and Accountability Report
                                                                                                                                                                         introduction
Financial secTion ............................................................................................................................ 75
Message from the chief Financial officer .................................................................................................... 76
inspector General’s Transmittal letter for audit report .............................................................................. 77
independent auditor’s report ...................................................................................................................... 79
Principal Financial statements ..................................................................................................................... 82
notes to the Financial statements ................................................................................................................ 87


oTHer accoMPanYinG inForMaTion .................................................................................... 105
inspector General-identified Management and Performance challenges ................................................... 106
chairman’s response to iG challenges ...................................................................................................... 111
summary of Financial statement audit and Management assurancs .........................................................113
improper Payments information act .......................................................................................................... 114


aPPenDices ........................................................................................................................................... 115
acronyms .................................................................................................................................................... 116
contact information and acknowledgements ............................................................................................118




                                                                                                                                                           Fiscal Year
                                                                                                                                                              2009
                                                                                                                                                                         vii
management’s discussion and analysis




viii                                   Federal Trade Commission
                                       Performance and Accountability Report
Management’s
Discussion and
Analysis




                 1
                                       Mission and
management’s discussion and analysis



                                       Organization
                                       T
                                                he work of the Federal Trade commission          FTC’s Mission
                                                (FTc) is critical to protecting and              To prevent business practices that are anticompetitive or
                                                strengthening free and open markets and          deceptive or unfair to consumers; to enhance informed
                                       promoting informed consumer choice, both in the           consumer choice and public understanding of the
                                       United states and around the world. The FTc               competitive process; and to accomplish these missions
                                       performs its mission through the use of a variety of      without unduly burdening legitimate business activity.
                                       tools, including law enforcement, rulemaking, research,
                                       studies on marketplace trends and legal developments,
                                       and consumer and business education.
                                       FTC’s Vision
                                       a U.s. economy characterized by vigorous competition
                                       among producers and consumer access to accurate
                                       information, yielding high-quality products at low
                                       prices and encouraging efficiency, innovation, and
                                       consumer choice.




        2                              Federal Trade Commission
                                       Performance and Accountability Report
                                                                                                                       management’s discussion and analysis
The FTC: Our Purpose and History

c
         onsumers and businesses are likely to be more      of new ideas and innovative products and services.
         familiar with the work of the FTc than they        Many of the laws governing competition also are
         think. in the consumer protection area, the        administered by the FTc.
care labels in clothes, product warranties, or stickers
                                                            The FTc has a long tradition of maintaining a
showing the energy costs of home appliances illustrate
                                                            competitive marketplace for both consumers and
information that is required by the FTc. likewise,
                                                            businesses. When the FTc was created in 1914, its
businesses must be familiar with the laws requiring
                                                            purpose was to prevent unfair methods of competition
truthful advertising and protecting consumers’
                                                            in commerce as part of the battle to “bust the trusts.”
personally identifiable information and sensitive health
                                                            over the years, the congress passed additional laws
information. These laws are administered by the FTc.
                                                            giving the agency greater authority over anticompetitive
each year, more people around the globe have come to        practices. in 1938, the congress passed a broad
understand that the competition among independent           prohibition against “unfair and deceptive acts or
businesses is good for consumers, the businesses            practices.” since then, the FTc also has been directed
themselves, and the economy. competitive markets            to administer a wide variety of other consumer
yield lower prices and better quality goods and             protection laws and regulations, including the
services, and a vigorous marketplace provides the           Telemarketing sales rule, the identity Theft act,
incentive and opportunity for the development               and the equal credit opportunity act.




    FTC History and Laws


                                                  The FTc had its genesis in the supreme
                                                  court’s 1911 decision in the standard
                                                  oil case (standard oil co. v. U.s., 221
                                                  U.s. 1 (1911)). in the aftermath of that
                                                  decision, congress determined to create
                                                  an administrative agency that would be
                                                  directed to prevent “unfair methods of
                                                  competition;” to give definition to that
                                                  general prohibition; and to use a number
                                                  of quasi-judicial powers to enforce that
                                                  prohibition. The FTc act was later
                                                  amended to prohibit unfair or deceptive
                                                  acts or practices. since its creation in
                                                  1914, congress has substantially increased
      the FTc’s enforcement responsibilities with respect to both of its goals, protecting
      consumers and maintaining competition. The FTc currently has enforcement and
      administrative responsibilities under 46 laws. For a description and further information
      on each law see http://www.ftc.gov/ogc/stats.shtm.

                                                                                                         Fiscal Year
                                                                                                           2009              3
                                       Our Organization
management’s discussion and analysis




                                       T
                                                he FTc is an independent agency that reports        term. The President chooses one commissioner to
                                                to the congress on its actions. These actions       act as chairman. no more than three commissioners
                                                include pursuing vigorous and effective law         can be from the same political party. Jon leibowitz
                                       enforcement; advancing consumers’ interests by sharing       was designated to serve as chairman of the FTc
                                       its expertise with federal and state legislatures and U.s.   on March 2, 2009, by President Barack H. obama.
                                       and international government agencies; developing            leibowitz was previously sworn in as a commissioner
                                       policy and research tools through hearings, workshops,       on september 3, 2004, following his nomination by the
                                       and conferences; and creating practical and plain-           President and confirmation by the U.s. senate. at the
                                       language educational programs for consumers and              end of the fiscal year, the commissioners were Pamela
                                       businesses in a global marketplace with constantly           Jones Harbour, William e. Kovacic, and J. Thomas
                                       changing technologies.                                       rosch. The fifth commissioner position was vacant.
                                       The FTc is headed by a commission composed of
                                       five commissioners, nominated by the President and
                                       confirmed by the senate, each serving a seven-year




                                       The FTc commission: (left to right) Pamela Jones Harbour, commissioner; Jon leibowitz, chairman;
                                       William e. Kovacic, commissioner; J. Thomas rosch, commissioner




        4                              Federal Trade Commission
                                       Performance and Accountability Report
                                                                                                                                   management’s discussion and analysis
The FTc’s mission is carried out by three bureaus:              counsel, the office of inspector General, the office
the Bureau of consumer Protection, the Bureau of                of international affairs, the office of the executive
competition, and the Bureau of economics. Work                  Director, and seven regions.
is aided by offices, including the office of General



    Federal Trade Commission Organization Chart



          Commissioner           Commissioner            Chairman           Commissioner               Commissioner
            Vacant             Pamela J. Harbour       Jon Leibowitz       William E. Kovacic         J. Thomas Rosch
                                                          -----------
                                                       Chief of Staff
                                                       Joni Lupovitz



                               Office of
                         Congressional Relations
                            Jeanne Bumpus                                          Office of
                                                                           Administrative Law Judges
                                                                             D. Michael Chappell

                           Office of Public Affairs
                           Claudia Farrell (Acting)
                                                                                   Office of
                                                                               Inspector General
                                                                                  John Seeba
                                  Office of
                               Policy Planning
                              Susan S. DeSanti
                                                                            Office of the Secretary
                                                                               Donald S. Clark
                                 Office of
                            International Affairs
                             Randolph W. Tritell




          Office of the             Bureau of           Office of the          Bureau of                  Bureau of
         General Counsel       Consumer Protection    Executive Director      Competition                 Economics
          Willard K. Tom          David Vladeck       Charles Schneider    Richard Feinstein            Joseph Farrell




                                                          Regions




                                                                                                                     Fiscal Year
                                                                                                                         2009            5
                                       The agency is headquartered in Washington, Dc, and operates with seven regions across the United states.
management’s discussion and analysis


                                       The graphic below illustrates the locations of the FTc regions.




                                       Our People
                                       The FTc’s workforce is its greatest asset. The agency’s workforce consists of over 1,100 civil service employees
                                       dedicated to addressing the major concerns of american consumers. The graph below shows workforce composition
                                       by category.




        6                              Federal Trade Commission
                                       Performance and Accountability Report
Performance




                                                                                                                                         management’s discussion and analysis
Overview                                                         Strategic and Performance


T
         his section explains the FTc’s strategic
                                                                 Planning Framework
         and performance planning framework and                  Performance Measurement Methodology
         summarizes the key performance measures                 The FY 2009 performance planning framework originates
reported in the Performance section. The Performance             from the FTc’s Fiscal Years 2006 to 2011 strategic Plan,
section contains details of program performance results,         available at www.ftc.gov/opp/gpra/spFY06FY11.pdf and
trend data by fiscal year, resources, strategies, factors        is supported by the FTc’s Performance Plan, available at
affecting performance, and the procedures used to                www.ftc.gov/opp/gpra/2010_performance_plan.pdf.
verify and validate the performance data. The financial          in FY 2009, the agency updated its strategic Plan.
data and performance results described in this report            The effort included reassessing the agency’s overall
enable the FTc to administer its programs, gauge their           performance framework and evaluating performance
success, and make adjustments necessary to improve               measures to ensure they provide the most relevant
program quality for the public. The steps the FTc has            and meaningful information on strategic goals and
taken to ensure the performance information it reports           objectives. The strategic Plan for Fiscal Years 2009
is complete, accurate, and consistent are described in the       to 2014 becomes effective in FY 2010.
Performance section: verification and validation
                                                                 The FTc’s work is structured around two strategic
of Performance Data.
                                                                 goals and eight objectives. Performance measures for
                                                                 the eight objectives are used to gauge the FTc’s success
                                                                 for each objective.




                                          statements of long-term aims outlined in the strategic Plan, which define how the agency
 strategic Goals                          carries out its mission.


 objectives                               statements of how the FTc plans to achieve the strategic goals.



 Performance Measures                     indicators used to gauge success in reaching strategic objectives.


                                          Measures that best indicate whether agency activities are achieving the desired outcome
 Key Measures                             associated with the related objective.

                                          expressions of desired performance levels or specific desired results targeted for a given
 Targets                                  fiscal year. Targets are expressed in quantifiable terms.




                                                                                                                           Fiscal Year
                                                                                                                              2009             7
management’s discussion and analysis


                                        strategic Goals                                      objectives

                                                                                             Identify fraud, deception, and unfair practices that cause the greatest consumer injury.
                                        Protect consumers
                                        Prevent fraud, deception, and unfair business        Stop fraud, deception, unfairness, and other unlawful practices through
                                        practices in the marketplace                         law enforcement.
                                        gross costs                     $147 million
                                                                                             Prevent consumer injury through education.
                                        less: earned revenue            ($16 million)
                                        net costs                       $131 million
                                                                                             Enhance consumer welfare through research, reports, advocacy, and international
                                                                                             cooperation and exchange.


                                        Maintain competition                                 Identify anticompetitive mergers and practices that cause the greatest consumer injury.

                                        Prevent anticompetitive mergers and
                                        other anticompetitive business practices             Stop anticompetitive mergers and business practices through law enforcement.
                                        in the marketplace

                                        gross costs                     $110 million         Prevent consumer injury through education.
                                        less: earned revenue            ($42 million)
                                        net costs                       $68 million          Enhance consumer welfare through research, reports, advocacy, and international
                                                                                             cooperation and exchange.




                                       Key Performance Measures Overview
                                       The FTc has established various measures for assessing                    The following table summarizes actual
                                       program performance against strategic goals and                           performance during FY 2009 against established
                                       objectives. of the 33 measures, 11 are considered                         targets for all of the FTc’s key performance
                                       “key” measures because they best indicate whether                         measures and provides a synopsis of related
                                       agency activities are achieving the desired outcome                       highlights. The table also includes actual results
                                       associated with the related objective.                                    from the past two fiscal years. The FTc met or
                                                                                                                 exceeded nine of the 11 key performance measures.
                                       For each measure, the FTc has established a
                                       performance target. This report presents actual
                                       results in comparison to established targets for
                                       the past three fiscal years.

                                        legend for Upcoming Performance section Tables

                                        a	signifies that the target is met or exceeded or that the FTc is on track to meet the five-year target.

                                        r		 signifies that the target is not met or that the FTc is not on track to meet the five-year target.


                                        n/a signifies that the performance measure does not have a five-year target.




        8                              Federal Trade Commission
                                       Performance and Accountability Report
sTraTeGic Goal 1: ProTecT consUMers




                                                                                                                                               management’s discussion and analysis
objective 1.1 identify Fraud, Deception, and Unfair Practices That cause the Greatest
consumer injury
                                                 FY 2007            FY 2008            FY 2009            FY 2009             5-Year
Key Measure
                                                  actual             actual             Target             actual             Target
1.1.2 The percentage of the agency’s
consumer protection law enforcement actions
                                                    76%                71%                65%                 79% a             n/a
that are responsive to consumer complaint
information gathered by the agency.


PerFormance HigHligHts

in July 2009, the FTc announced a law enforcement crackdown, responsive to the consumer complaint information gathered by the
agency, on scammers trying to take advantage of the economic downturn to bilk vulnerable consumers through a variety of schemes.
Dubbed “operation short change,” the sweep included 15 FTc cases, 44 law enforcement actions by the Department of Justice, and
actions by at least 13 states and the District of columbia. in eight of the cases announced, the FTc alleged that the practices of John
Beck/Mentoring of america, Wagner ramos Borges, Grants For You now, cash Grant institute, Mutual consolidated savings, Google
Money Tree, Penbrook Productions, and classic closeouts were unfair or deceptive. in some of the cases, the agency also charged the
defendants with making illegal electronic funds transfers or violating the Telemarketing sales rule.




objective 1.2 stop Fraud, Deception, Unfairness, and other Unlawful Practices
Through law enforcement
                                                 FY 2007            FY 2008            FY 2009            FY 2009             5-Year
Key Measure
                                                  actual             actual             Target             actual             Target
1.2.1 save consumers money each year            $519 million       $474 million       $400 million           $505 a           $2 billion   a
through law enforcement.                                                                                    million


PerFormance HigHligHts

in FY 2009, the FTc continued to combat the deceptive marketing of health products, particularly products making disease prevention
or weight loss claims. in January 2009, the agency charged the Xacta 3000, inc., marketers of Kinoki Foot Pads, with deceptive
advertising, including claims that use of the foot pads would remove toxins from the body; treat high blood pressure, depression, and a
host of other medical conditions. in March 2009, roex, inc., a marketer of dietary supplements and health-related devices, agreed to settle
FTc charges that they deceptively claimed their products treated, reduced the risk of, or prevented a wide variety of serious diseases and
medical conditions, including cancer, Hiv/aiDs, diabetes, strokes and heart attacks, alzheimer’s disease, Parkinson’s disease, arthritis,
multiple sclerosis and other autoimmune diseases, ulcers, herpes, asthma, and glaucoma. in april 2009, the FTc charged nutraceuticals
international, llc and stella labs, llc, the suppliers of supposed Hoodia gordonii with deceptive advertising for claiming that
using their product would lead to weight loss and appetite suppression. in these three cases alone, the FTc saved consumers an
estimated $46.5 million.




                                                                                                                               Fiscal Year
                                                                                                                                  2009               9
management’s discussion and analysis


                                        sTraTeGic Goal 1: ProTecT cUsToMers (continued)


                                        objective 1.3 Prevent consumer injury Through education

                                                                                         FY 2007             FY 2008            FY 2009            FY 2009              5-Year
                                        Key Measure
                                                                                          actual              actual             Target             actual              Target

                                        1.3.4 Track (a) the number of times print      (a) 3,066          (a) 3,100           (a) 2,750          (a) 2,484        r
                                        media publish articles that refer to the       articles           articles            articles           articles
                                        FTc consumer protection activities and                                                                                            n/a
                                        (B) the circulation of media that publish      (B) circulation    (B) circulation     (B) circulation    (B) circulationr
                                        those articles.                                of 863 million     of 791 million      of 750 million     of 702 million



                                        PerFormance HigHligHts

                                        in september 2009, the FTc announced two new law enforcement actions in a continuing crackdown on mortgage foreclosure rescue
                                        and loan modification scams, bringing to 22 the number of these cases the agency has filed since the housing crisis began. Many news
                                        outlets ran stories on the FTc’s efforts, including The New York Times, The Washington Post, Chicago Sun-Times, and cBs news.

                                        in FY 2009, the FTc accomplished 90 percent of its target of 2,750 articles, and 94 percent of its target of a circulation of 750 million.
                                        as more people turn to television and the internet for news, print media circulation has continued to decline, and this performance
                                        measure was removed in the latest update of the FTc strategic Plan.




                                        objective 1.4 enhance consumer Welfare Through research, reports, advocacy, and international
                                        cooperation and exchange
                                                                                         FY 2007            FY 2008             FY 2009            FY 2009              5-Year
                                       Key Measure
                                                                                          actual             actual              Target             actual              Target
                                        1.4.1 convene or participate substantially
                                        in workshops and conferences on novel or        10 workshops       16 workshops        6 workshops         9 workshops a 30 workshopsa
                                        challenging consumer protection problems       and conferences    and conferences     and conferences          and           and
                                        or issues.                                                                                                 conferences    conferences

                                        PerFormance HigHligHts

                                        The FTc and the Technology law and Public Policy clinic at the University of Washington school of law hosted a conference in
                                        March 2009 on the use of digital rights management (DrM) technologies, a widespread practice that is expected to become increasingly
                                        prevalent in the U.s. marketplace in coming years. among other issues, the workshop addressed the need to improve disclosures to
                                        consumers about DrM limitations.




10                                     Federal Trade Commission
                                       Performance and Accountability Report
                                                                                                                                              management’s discussion and analysis
 sTraTeGic Goal 2: MainTain coMPeTiTion


 objective 2.1 identify anticompetitive Mergers and Practices That cause the Greatest consumer injury

                                                 FY 2007            FY 2008             FY 2009            FY 2009             5-Year
 Key Measure
                                                  actual             actual              Target             actual             Target
 2.1.1 achieve positive outcomes* in
 matters in which Hart-scott-rodino                 100%               100%                90%               100%                n/a
 (Hsr) act requests for additional
                                                                                                                    a
 information are issued.


 PERFORMANCE HIGHLIGHTS

 The FTc brought 13 merger enforcement actions after issuing second requests, obtaining consumer relief in matters involving crucial
 pharmaceuticals (King Pharmaceuticals/alpharma and Teva Pharmaceutical/Barr Pharmaceuticals), medical devices (Getinge aB/
 Datascope), software systems used by the auto insurance industry (ccc information services/Mitchell international), and
 industrial chemicals (BasF/ciba specialty chemicals and Dow chemical/rohn & Haas).




                                                 FY 2007            FY 2008             FY 2009            FY 2009             5-Year
 Key Measure
                                                  actual             actual              Target             actual             Target

 2.1.2 Percentage of significant
 nonmerger investigations that                      100%               100%                90%               100%   a            n/a
 result in a positive outcome.*


 PERFORMANCE HIGHLIGHTS

 in addition to issuing three consent orders prohibiting illegal price fixing and anticompetitive boycotts in the health care professional
 services industry (allcare iPa, Boulder valley iPa, and alta Bates Medical Group), the FTc reached settlements in a matter involving an
 illegal geographic market allocation agreement in the retail industry (Golf Galaxy inc./Golf Town canada, inc.) and in a matter involving
 restrictive rules of real estate Multiple listing service (Mls) organizations that impeded competition from non-traditional and discount
 real estate professionals (West Penn Mls). The FTc also obtained a significant result when it filed a complaint in federal court seeking a
 permanent injunction challenging a pay-for-delay agreement between solvay Pharmaceuticals, inc. and two generic drug manufacturers.


* see respective performance measure discussion in the Performance section for definitions of “positive outcome” and “positive result.”




                                                                                                                                Fiscal Year
                                                                                                                                   2009       11
management’s discussion and analysis


                                        sTraTeGic Goal 2: MainTain coMPeTiTion (continued)


                                        objective 2.2 stop anticompetitive Mergers and Business Practices Through law enforcement

                                                                                          FY 2007             FY 2008             FY 2009             FY 2009              5-Year
                                        Key Measure
                                                                                           actual              actual              Target              actual              Target

                                        2.2.1 Positive result* of cases brought by           100%                 96%                80%                 96%                 n/a
                                                                                                                                                                  a
                                        the FTc due to alleged violations.


                                        PERFORMANCE HIGHLIGHTS

                                        The FTc filed five cases involving proposed acquisitions in the health care, high tech, consumer goods manufacturing, and energy
                                        industries, and successfully challenged mergers that would have substantially reduced competition in the respective relevant product
                                        markets. in four of these cases, the parties abandoned the proposed transactions after the commission authorized staff to file a complaint
                                        in federal district court seeking a preliminary injunction to block the mergers, (Thoratec/HeartWare, Talecris Biotherapeutics/csl, crH
                                        plc/robert schlegel, and red sky Holdings/newpark resources), and in the fifth case, the parties abandoned the merger after the FTc
                                        secured a preliminary injunction in federal court (Mitchell international/ccc). The FTc also secured several consents orders, restoring
                                        competition to markets that otherwise would have been lost through mergers or anticompetitive conduct.

                                       * see respective performance measure discussion in the Performance section for definitions of “positive outcome” and “positive result.”




                                        objective 2.3 Prevent consumer injury Through education

                                                                                          FY 2007             FY 2008             FY 2009             FY 2009              5-Year
                                        Key Measure
                                                                                           actual              actual              Target              actual              Target
                                        2.3.2 Track (a) the number of times
                                                                                        (a) 2,982           (a) 1,858           (a) 2,500          (a) 1,569
                                        print media publish articles that refer to
                                                                                        articles            articles            articles           articles          r
                                        FTc competition activities and (B) the                                                                                               n/a
                                                                                        (B) 635 million     (B) 397 million     (B) establish      (B) circulation
                                        circulation of the media that publish
                                                                                        circulation         circulation         baseline           of 360 million
                                        those articles.

                                        PERFORMANCE HIGHLIGHTS

                                        The FTc initiated a series of competition-related education initiatives, including consumer- and business-oriented publications, to
                                        increase the awareness by the american public of what types of conduct are likely to be challenged as law violations. examples of
                                        enforcement actions that received considerable media attention range from matters with an immediate impact in localized areas, such
                                        as the FTc’s successful challenge of West Penn Multi-list’s anticompetitive conduct in the Pittsburg real estate market (The Pittsburgh
                                        Business Times reported “West Penn Multi-list opens network to More Brokers”) to cases of greater national interest, such as the
                                        FTc’s challenge in federal court to ovation Pharmaceuticals’ consummated acquisition of the drug neoProfen, which was reported by
                                        newspapers across the country (e.g., The Wall Street Journal, Chicago Sun-Times, Los Angeles Times, and Charlotte Observer).

                                        The print media that published articles covering the competition-related activities of the FTc encompasses publications with varying
                                        degrees of territorial distribution (from local to national) and with circulations ranging from less than fifty thousand to more than one
                                        million copies. it is difficult to assess the performance of the agency under this measure in light of the severe decline experienced in the
                                        newspaper industry over the last year.




12                                     Federal Trade Commission
                                       Performance and Accountability Report
                                                                                                                                                  management’s discussion and analysis
sTraTeGic Goal 2: MainTain coMPeTiTion (continued)

objective 2.4 enhance consumer Welfare Through research, reports, advocacy, and international
cooperation and exchange
                                                 FY 2007             FY 2008            FY 2009             FY 2009             5-Year
Key Measure
                                                  actual              actual             Target              actual             Target

2.4.2 issue studies, reports, and working or
issues papers on significant competition-       18 documents        7 documents        8 documents             20     a           40          a
related issues.                                                                                             documents          documents


PERFORMANCE HIGHLIGHTS

The FTc continued to devote resources to the analysis of the nation’s crucial economic sectors by producing reports addressing, for
example, critical health care issues such as “follow-on biologic drug competition,” the short-term and long-term effects of “authorized
generics” on competition in the prescription drug marketplace, and retrospectives on hospital mergers. in addition to these industry
reports, the FTc also published three working papers by staff on how best to identify anticompetitive exclusionary conduct for purposes
of antitrust enforcement under section 2 of the sherman act.




                                                 FY 2007            FY 2008             FY 2009            FY 2009              5-Year
Key Measure
                                                  actual             actual              Target             actual              Target
2.4.3 Make advocacy filings with other
federal and state government agencies,
urging them to assess the competitive             11 filings         12 filings          6 filings          10 filings   a      30 filings    a
ramifications and costs and benefits to
consumers of their policies.


PERFORMANCE HIGHLIGHTS

The majority of the FTc’s advocacy filings in FY 2009 were aimed at eliminating government-imposed impediments to a competitive
marketplace in the health care industry and at promoting competition in the electric industry. The FTc issued four advocacy comments
on health care topics addressing existing or proposed legislation dealing with health care cooperatives, the regulation of pharmacy benefit
managers, and the provision of dental care services to underserved children.




                                                                                                                                 Fiscal Year
                                                                                                                                   2009           13
management’s discussion and analysis


                                        sTraTeGic Goal 2: MainTain coMPeTiTion (continued)

                                        objective 2.4 enhance consumer Welfare Through research, reports, advocacy, and international
                                        cooperation and exchange

                                                                                       FY 2007            FY 2008            FY 2009            FY 2009            5-Year
                                        Key Measure
                                                                                        actual             actual             Target             actual            Target

                                        2.4.7 Track the number of (a) cases in       (a) 61 cases       (a) 79 cases       (a) 30 cases       (a) 87 cases   a       n/a
                                        which the FTc cooperated with a
                                        foreign competition authority, (B)           (B) 70             (B) 89             (B) 25             (B) 56
                                        consultations with or comments to            consultations or   consultations or   consultations or   consultations or
                                        foreign competition authorities, (c)         comments           comments           comments           comments      a
                                        written submissions to international fora,
                                        (D) international events attended, and (e)   (c) 19             (c) 30             (c) 7              (c) 19
                                        leadership positions held by FTc staff in    submissions        submissions        submissions        submissions    a
                                        international competition organizations.
                                                                                     (D) 48 events      (D) 68 events      (D) 8 events       (D) 125
                                                                                                                                              events         a
                                                                                     (e) 8 positions    (e) 9 positions    (e) 5 positions
                                                                                                                                              (e) 10
                                                                                                                                              positions      a


                                        PERFORMANCE HIGHLIGHTS

                                        staff cooperated with foreign competition authorities on 67 cases of mutual interest, and worked bilaterally with other agencies to
                                        promote policy convergence on particular issues, devoting significant resources to working with china and india on the implementation
                                        of their new laws and with sister agencies in key jurisdictions including the european Union, canada, Japan, Korea, and Mexico.
                                        The FTc participated in several multilateral organizations addressing competition policy and enforcement issues, submitting nineteen
                                        written papers and taking on leadership positions in these fora. notably, in the international competition network (icn), the FTc
                                        continued as a member of the icn’s steering Group, on which one of its commissioners served as a vice chair, and led unilateral
                                        conduct and merger notification and procedures project teams.




                                        Performance Measures Summary                                           baseline” targets, and eight were not met. Based on
                                                                                                               these results, the FTc has made significant progress
                                        The Performance Measure summary Table in the
                                                                                                               toward reaching its eight objectives, as fully described
                                        Performance section of this report shows actual
                                                                                                               in the Performance section.
                                        results for all performance measures. of the 33 total
                                        performance measures, 21 were exceeded, one was met,
                                        three are measures being tracked and have “establish




14                                     Federal Trade Commission
                                       Performance and Accountability Report
Agency Mission




                                                                                                                           management’s discussion and analysis
Challenges                                                   Protecting Consumers in the Financial Services
                                                             Marketplace. Financial services play an important role
The FTc stands prepared to face the challenges of            in the daily lives of virtually all americans. The FTc
today’s economy as a champion for consumers and              targets illegal practices in the financial services arena,
competition. as a law enforcement agency with a              especially schemes directed at financially distressed
broad mandate, many of the FTc’s challenges are              consumers, including: unfair, deceptive, or otherwise
defined by marketplace conditions and thus are               unlawful mortgage lending and credit offers; unlawful
constantly evolving. For example, as consumers and           practices in servicing mortgages; foreclosure “rescue”
businesses encounter difficulties with illegal practices     and loan modification scams; bogus debt relief and
involving financial services, internet privacy, identity     credit “repair” services; and unlawful debt collection.
theft, and health fraud, as well as anticompetitive          These practices can have severe consequences for
business practices in the health care, high technology,      consumers, including unanticipated high-cost mortgages
energy, and other industries, the FTc steps forward          and fees, ruined credit histories, loss of their homes, and
to protect consumers and maintain competition.               unwarranted fears of arrest and incarceration for failure
agency management has identified significant mission         to pay on time.
challenges the FTc currently faces. Management’s
                                                             The FTc will continue to respond to growing
identification was performed separately from the
                                                             challenges in the financial services arena. as consumer
inspector General’s (iG) independent assessment of
                                                             debt levels continue to rise, the FTc has received
management and performance challenges (see other
                                                             more complaints about debt collection, and the agency
accompanying information). Management concurs
                                                             is aggressively pursuing law enforcement work in
with the iG assessment; accordingly, certain aspects
                                                             this industry. Further, the FTc has initiated three
of the challenges described below are also addressed
                                                             rulemaking proceedings in this area. at the same time,
by the iG.
                                                             more consumers are targeted by credit repair, debt
significant agency mission challenges are presented          settlement, and foreclosure rescue companies, and the
below as they relate to the agency’s strategic goals.        FTc is pursuing law enforcement action involving
a reference to the most applicable strategic objectives      unfair and deceptive practices targeted at those
is also provided so that readers may refer to descriptions   consumers. (objectives 1.1, 1.2, 1.3, and 1.4)
of related performance targets and actual results listed
                                                             Protecting Consumer Privacy. The FTc will continue
by objective within the Performance section.
                                                             to take a leading role in efforts to protect consumers
Strategic Goal 1: Protect Consumers: Prevent                 from unfair, deceptive, or other illegal practices related
Fraud, Deception, and Unfair Business Practices              to their privacy. The agency will continue to bring
in the Marketplace                                           law enforcement actions against companies that have
Under the consumer Protection goal, the FTc will             misrepresented their policies about the use of personal
continue to give priority to addressing the following        information they collect from consumers or failed to
challenges: protecting consumers in the financial            take appropriate steps to protect the security of sensitive
services marketplace, protecting consumer privacy,           personal information. in addition to its enforcement
protecting vulnerable and underserved americans              efforts, the FTc will address the complex privacy and
from fraud, stopping health fraud, evaluating “green”        data security issues that may be associated with the
marketing claims, addressing issues related to marketing     use of online behavioral advertising and other media
to children, and building international partnerships.        through workshops, testimony, reports, and consumer




                                                                                                             Fiscal Year
                                                                                                               2009        15
                                       and business education. in December 2009, the FTc          Though most entities covered by the Dnc rule comply,
management’s discussion and analysis


                                       will host the first of a series of public roundtable       the FTc received more than 1.8 million consumer
                                       discussions to explore the privacy challenges posed by     Dnc registry complaints in FY 2009. (objectives 1.1,
                                       the vast array of 21st-century technology and business     1.2, 1.3, and 1.4)
                                       practices that collect and use consumer data.
                                                                                                  Protecting Vulnerable and Underserved Americans
                                       The FTc will also protect consumers from unwanted          from Fraud. Frauds causing severe economic injury,
                                       telemarketing call. The agency’s national Do not call      including financial related frauds such as advance fee
                                       (Dnc) registry makes it easier and more efficient for      credit card scams and foreclosure business opportunity
                                       consumers to stop unwanted telemarketing calls. There      scams, continue to adversely affect the public. With an
                                       are now more than 191 million active registrations on      aging population, the economic downturn and related
                                       the registry. The FTc’s challenge is to ensure             unemployment, and the healthcare crisis, the FTc will
                                       that consumers who register their numbers                  target law enforcement actions toward traditional and
                                       are protected from receiving unwanted telemarketing        novel frauds targeting people in need and underserved
                                       calls by continuing to enforce the Dnc provisions          consumers, particularly Hispanics and african-
                                       of the Telemarketing sales rule, including recent          americans. (objectives 1.1 and 1.2)
                                       amendments relating to prerecorded calls (“robo calls”).




                                          Identity Theft, Privacy, and Security Resources


                                                                               id Theft, Privacy, and security resources
                                                                               The FTc offers several websites that offer
                                                                               consumer publications on identity theft,
                                                                               privacy, and security topics.

                                                                               Fighting Back against identity Theft
                                                                               (www.ftc.gov/bcp/edu/microsites/idtheft)
                                                                               This website is a one-stop national resource to learn
                                                                               about the crime of identity theft. it provides detailed
                                                                               information to help consumers deter, detect, and
                                                                               defend against identity theft.

                                            onguard online (www.onguardonline.gov)
                                            This website provides practical tips from the federal government and the technology
                                            industry to help consumers be on guard against internet fraud, secure their computer,
                                            and protect their personal information.

                                            The children’s online Privacy Protection act (coPPa)
                                            (www.ftc.gov/privacy/privacyinitiatives/childrens.html)
                                            This website explains each component of a coPPa-compliant privacy policy, answers
                                            questions that website operators have asked, and features a compliance checklist to
                                            help website operators identify areas where their privacy policies could be improved.


16
Stopping Health Fraud. consumers are being bombarded         making deceptive representations. The FTc also works




                                                                                                                      management’s discussion and analysis
with unprecedented levels of advertising for products        with the dietary supplement industry by providing
to prevent and treat diseases and improve health and,        guidance to encourage accuracy in claims for these
each year, they spend billions of dollars purchasing         products. in addition to traditional law enforcement
health products. consumers can fall prey to fraudulent       actions, the FTc creates education materials to help
health marketing when they are desperate for help.           companies develop adequate substantiation and
The FTc will continue to respond to this challenge           information to help consumers spot deceptive claims.
by scrutinizing the marketing of health care products,       (objectives 1.1, 1.2, 1.3, and 1.4)
particularly claims about serious diseases or weight loss,
advertised through infomercials and other forms of mass
media marketing, and taking action against companies




    “Operation Short Change”—The FTC Cracks Down on Scammers Trying to
    Take Advantage of the Economic Downturn


                                                     “operation short change,” is the FTc’s law enforcement
                                                     crackdown on scammers trying to take advantage of the
                                                     economic downturn to bilk vulnerable consumers through
                                                     a variety of schemes, such as promising non-existent
                                                     jobs; promoting overhyped get-rich-quick plans, bogus
                                                     government grants, and phony debt-reduction services;
                                                     or putting unauthorized charges on consumers’ credit or
                                                     debit cards. The law enforcement sweep includes 15 FTc
                                                     cases, 44 law enforcement actions by the Department of
                                                     Justice, and actions by at least 13 states and the District of
                                                     columbia.

     “rising unemployment, shrinking credit, record-setting foreclosures, and disappearing retirement
     accounts are causing consumers tremendous anxiety about making ends meet. But to con artists, today’s
     challenging economy presents just another opportunity to play on consumers’ worry and bilk them
     out of money. Thousands of people have been swindled out of millions of dollars by scammers who are
     exploiting the economic downturn; their scams may promise job placement, access to free government
     grant money, or the chance to work at home. in fact, the scams have one thing in common—they raise
     people’s hopes and then drive them deeper into a hole.”
                                     —David vladeck, Director of the FTc’s Bureau of consumer Protection

     To help consumers understand how easy it is to be conned—and how to avoid fraud—the FTc
     produced a new consumer education video featuring a former scammer who hawked phony business
     opportunities and ultimately served prison time for deceiving investors. To view the video, go to                17
     www.ftc.gov or www.youtube.com/ftcvideos.
                                       Evaluating “Green” Marketing Claims. new “green”              Building International Partnerships. The FTc promotes
management’s discussion and analysis


                                       environmental marketing claims, such as claims for            market-oriented consumer protection and privacy
                                       carbon reduction, landfill reduction, and sustainable         policies globally, particularly in areas involving
                                       materials and packaging, recently have increased in           e-commerce and new technologies. Given the challenge
                                       popularity. These claims can be extremely useful for          of the increasingly cross-border nature of fraud such as
                                       consumers; however, the complexity of the issues              spam, spyware, and telemarketing, and the international
                                       involved creates the potential for confusing, misleading,     scope of privacy and data security issues, developing
                                       and fraudulent claims. Given this potential, the FTc          international partnerships is critical to the effective
                                       will continue to evaluate whether the “FTc Guides for         enforcement of laws to protect U.s. consumers. The
                                       the Use of environmental Marketing claims” remain             FTc uses the tools provided by the 2006 U.s. saFe
                                       current and useful. The agency is also developing             WeB act to increase the effectiveness of its cross-
                                       a consumer and business education campaign and                border cooperation and enforcement. Five key areas
                                       pursuing appropriate enforcement action involving             where the FTc has used this authority are: broadening
                                       deceptive claims in this area. (objectives 1.1, 1.2,          information sharing, expanding investigative
                                       1.3, and 1.4)                                                 cooperation, negotiating international agreements,
                                                                                                     establishing staff exchanges, and enhancing cooperation
                                       Addressing Issues Related to Marketing to Children.
                                                                                                     between the FTc and the Department of Justice (DoJ)
                                       To combat the challenges of childhood obesity,
                                                                                                     in foreign litigation. (objectives 1.2 and 1.4)
                                       underage drinking, and other problems, the FTc
                                       engages in research, policy, and law enforcement work         Strategic Goal 2: Maintain Competition:
                                       pertaining to marketing of food, alcohol, and violent         Prevent Anticompetitive Mergers and Other
                                       entertainment to children. The FTc monitors self-             Anticompetitive Business Practices in the
                                       regulation in the food, alcohol, movie, video game,           Marketplace
                                       and music recording industries. in December 2009,             Under the Maintaining competition goal, the FTc
                                       the agency will hold a one-day workshop which                 will continue to give priority to the challenges of
                                       will examine changes in industry practices since              promoting competition and preventing anticompetitive
                                       the commission’s 2008 report “Marketing Food to               activity in the health care and pharmaceutical
                                       children and adolescents: a review of industry                industries, high technology sectors, and energy
                                       expenditures, activities, and self-regulation.” in            industries. The agency will also work on promoting
                                       addition, in response to a congressional directive, the       sound competition policy at the international level
                                       FTc is coordinating an interagency working group with         and advocating for competition before the U.s. courts,
                                       the Food and Drug administration (FDa), centers for           legislatures, and government agencies.
                                       Disease control (cDc), and United states Department
                                                                                                     Promoting Competition and Preventing Anticompetitive
                                       of agriculture (UsDa) to develop nutrition standards
                                                                                                     Activity in the Health Care and Pharmaceutical Industries.
                                       for food marketing to children. Further, in FY 2010, the
                                                                                                     The rapidly rising cost of health care is a matter of
                                       FTc will launch its advertising literacy initiative with
                                                                                                     concern for consumers, employers, insurers, and the
                                       a significant marketing effort aimed at preadolescents
                                                                                                     nation as a whole. Health-related products and services
                                       and their parents and teachers. The goal of the initiative,
                                                                                                     continue to account for an increasingly significant share
                                       which will include an interactive website, in-school
                                                                                                     of gross domestic product. agreements between branded
                                       curricula, and other features, is to help kids become
                                                                                                     and generic drug manufacturers to delay generic entry
                                       smarter consumers. (objectives 1.1, 1.2, 1.3, and 1.4)




18                                     Federal Trade Commission
                                       Performance and Accountability Report
continue to pose a significant threat to competition       Promoting Competition and Preventing Anticompetitive




                                                                                                                       management’s discussion and analysis
by depriving consumers of low-cost generic drugs.          Business Practices in High Technology Sectors.
FTc economists estimate that these anticompetitive         The growing importance of technology is a crucial
deals, unless stopped, will cost consumers $35 billion     marketplace challenge that is placing greater demands
over the next ten years. When appropriate, the FTc         on antitrust enforcement. The FTc’s antitrust
investigates and challenges patent settlements between     investigations increasingly involve high-technology
brand and generic companies and supports legislation to    sectors of the economy, such as information technology
eliminate this problem. The agency also addresses rising   and pharmaceutical products. Through the review
prescription drug prices by monitoring pharmaceutical      of Hart-scott-rodino (Hsr) merger filings and non
and medical device company mergers. in addition,           reportable transactions, the FTc endeavors to take
the FTc stops anticompetitive agreements between           action against those mergers that are likely to reduce or
physicians and hospital service organizations and          eliminate competition in the high technology sector by
monitors hospital and other mergers that may raise the     increasing prices and reducing the quality and choice
cost of health care. (objective 2.2)                       of goods and services. Furthermore, issues in antitrust
                                                           matters increasingly intersect with intellectual property
                                                           concerns, raising difficult questions about how to
                                                           harmonize these two bodies of law, both of which have
                                                           a goal of promoting innovation. (objective 2.2)




   Stopping “Pay-for-Delay” Settlements Would Yield Consumer Savings


     an internal FTc analysis projects that stopping collusive “pay-for-delay” settlements between brand and
     generic pharmaceutical firms would save consumers $3.5 billion a year and also reap significant savings
     for the federal government, which pays approximately one-third of all prescription drug costs. To learn
     more, visit www.ftc.gov/opa/2009/06/capspeech.shtm.

                                                                    “…the decision about whether to restrict
                                                                    pay-for-delay settlements should be
                                                                    simple… on the one hand, you have
                                                                    savings to american consumers…and the
                                                                    prospect of helping to pay for health care
                                                                    reform as well as the ability to set a clear
                                                                    national standard to stop anticompetitive
                                                                    conduct. on the other hand, you have
                                                                    a permissive legal regime that allows
                                                                    competitors to make collusive deals on the
                                                                    backs of consumers.”
                                                                              —FTc chairman Jon leibowitz


                                                                                                                       19
                                       Promoting Competition and Preventing Anticompetitive       its Gasoline and Diesel Price Monitoring Project
management’s discussion and analysis


                                       Activity in Energy Industries. The price of gasoline and   to identify any conduct that may not reflect purely
                                       other energy sources continues to be a great concern       competitive decisions based on the forces of supply
                                       for consumers, businesses, and governments. The            and demand. in august 2009, exercising the authority
                                       agency meets this challenge by closely monitoring          provided by congress under the energy independence
                                       gasoline markets and moving quickly to address any         and security act of 2007, the commission issued a
                                       anticompetitive merger or nonmerger activity. in           Final rule that will prohibit market manipulation
                                       enforcing the antitrust laws, the FTc continuously         in the petroleum industry.
                                       examines price movements and other activity through




                                           Market Manipulation Rulemaking


                                            in august of 2009, the FTc issued a rule that prohibits market manipulation in
                                            the petroleum industry. The rule prohibits fraud or deceit in wholesale petroleum
                                            markets, and omissions of material information that are likely to distort petroleum
                                            markets and drive up prices at the pump. specific examples of such conduct include
                                            false public announcements of planned pricing or output decisions, false statistical or
                                            data reporting, and “wash sales” intended to disguise the actual liquidity of a market
                                            or the price of a particular product. The rule also prohibits material omissions from a
                                            statement that, although true, is misleading under the circumstances. To learn more,
                                            visit www.ftc.gov/mmr.

                                            “We will police the oil markets—and if we find companies that are manipulating the
                                            markets, we will go after them.”                  —FTc chairman Jon leibowitz




20
The rule will proscribe fraud or deceit in wholesale         Advocacy and Competition Policy. The FTc works




                                                                                                                         management’s discussion and analysis
petroleum markets, and omissions of material                 to meet the important challenge of eliminating
information that are likely to distort petroleum markets.    government-imposed impediments to a competitive
The FTc also uses its enforcement role to search for         marketplace by advising other government policymakers
anticompetitive nonmerger activity such as illegal           to apply sound competition principles as they make
agreements among competitors, agreements between             decisions affecting consumer welfare. among its
manufacturers and product dealers, monopolization,           activities, the FTc continues to publish reports and
and other anticompetitive activities. To prepare and         file comments on proposed government action
support agency staff in meeting this challenge, the          (legislation, regulation, and other rules) affecting
FTc devotes considerable resources to monitoring             competition across many industries, such as the
and studying energy markets—often in response                provision and advertising of legal services, real estate
to congressionally mandated requirements—thus                brokerage, the direct shipment of wine to consumers,
developing the professional expertise and body of            contractual relationships between product suppliers
knowledge needed to address emerging concerns.               and distributors, and certificate of need (con) laws.
(objective 2.2)                                              For example, in the past year, the agency issued a report
Promoting Sound Competition Policy at the                    on follow-on biologics as congress was considering the
International Level. With over 100 jurisdictions             issue. similarly, the commission has held hearings on
enforcing competition laws, the FTc’s work to                important competition policy matters such as resale
promote international convergence toward sound               price maintenance and is working on reports on issues
policies is critical to meeting the challenge to maintain    such as intellectual property law and competition.
competition. The FTc plays a leading role, bilaterally       (objective 2.4)
and through international organizations, to promote
procedural and substantive consistency of antitrust
rules and their enforcement. To avoid divergent
outcomes that can increase costs to agencies and firms
alike, the FTc works to promote cooperation with
foreign antitrust agencies on cases of mutual interest.
in addition, the FTc provides technical assistance to
foreign competition agencies, particularly in countries in
the process of developing competition laws or enforcing
newly adopted laws, to enable newer competition
agencies to apply sound competition policies. as part
of its ongoing effort to build effective relationships
and promote understanding, the FTc implemented its
international Fellows and intern program, providing
opportunities for staff from counterpart foreign agencies
to spend time at the FTc working directly with agency
staff on investigations, and developed opportunities for
staff exchanges. (objective 2.4)




                                                                                                           Fiscal Year
                                                                                                             2009        21
                                       Management
management’s discussion and analysis

                                                                                                    During FY 2009, the saT found that the
                                                                                                    FTc’s overall control environment is strong.
                                       Assurances                                                   additionally, the saT updated guidance for
                                                                                                    program managers to use in completing self-assessments
                                       (on internal controls, Financial                             of the processes and controls within their areas of
                                       systems, and compliance with                                 responsibility. senior managers throughout the agency
                                       laws and regulations)                                        completed self-assessments that disclosed no significant
                                                                                                    control weaknesses. The saT evaluated the results of
                                       Implementation of the Federal                                the managers’ assessments and concurred that no
                                       Managers’ Financial Integrity Act                            material weaknesses or nonconformances were
                                       (FMFIA) at the FTC                                           identified. The results of these evaluations and other
                                                                                                    information—such as independent audits or reviews
                                       The FTc considers internal controls to be an integral
                                                                                                    performed by the office of inspector General (oiG)
                                       part of all systems and processes that the agency utilizes
                                                                                                    and the Government accountability office (Gao)
                                       in managing its operations and carrying out activities
                                                                                                    (e.g., Federal information security Management
                                       toward achieving strategic goals and objectives. The FTc
                                                                                                    act review), independent audits of service providers’
                                       holds agency managers accountable for efficiently and
                                                                                                    operations and financial systems (e.g., reviews
                                       effectively performing their duties in compliance with
                                                                                                    conducted in accordance with statement on
                                       applicable laws and regulations and for maintaining the
                                                                                                    auditing standards [sas] 70), internal analyses,
                                       integrity of their activities through the use of controls.
                                                                                                    and other relevant evaluations and control
                                       The FTc’s senior assessment Team (saT) provides              assessments—were considered by the saT and the
                                       strategic direction and oversight over the agency’s          agency head in determining whether there are any
                                       internal control program, to promote and facilitate          management control deficiencies or nonconformances
                                       compliance with applicable guidance (e.g., office of         that must be disclosed in the annual assurance
                                       Management and Budget [oMB] circular a-123,                  statement. The chairman’s assurance statement that
                                       “Management’s responsibility for internal control”),         follows is supported by the processes and reviews
                                       and communicates the results of reviews to senior            described above, which were carried out in
                                       management and the head of the agency.                       FY 2009. Management assurances tables appear
                                       some of the functions of the saT are developing              in the other accompanying information.
                                       and documenting an internal control review plan,
                                       identifying key processes and related control
                                       activities and performing a preliminary risk
                                       assessment of such processes, reviewing and assessing
                                       the overall control environment, helping to ensure the
                                       timely implementation of any corrective actions needed
                                       to address identified weaknesses, and establishing
                                       guidance for program managers in monitoring and
                                       assessing management controls within their areas of
                                       responsibility.




22                                     Federal Trade Commission
                                       Performance and Accountability Report
Chairman’s FMFIA Statement of Assurance




                                                        management’s discussion and analysis




                                          Fiscal Year
                                            2009        23
                                       Summary of Material
management’s discussion and analysis

                                                                                                  payments were processed by electronic funds transfer
                                       Weaknesses and Nonconformances                             (eFT) in accordance with the eFT provisions of the
                                       as noted in the chairman’s statement of                    Debt collection improvement act.
                                       assurance, the FTc has no material weaknesses or
                                       nonconformances to report for FY 2009. no new              Prompt Payment Act
                                       material weaknesses or significant nonconformances         The Prompt Payment act requires federal agencies
                                       were identified for the past five years, nor were          to make timely payments to vendors, including any
                                       there any existing unresolved weaknesses requiring         interest penalties for late invoice payments. in FY 2009,
                                       corrective action.                                         the FTc processed 10,384 invoices totaling $63 million
                                                                                                  that were subject to prompt payment. of the 10,384
                                       Federal Information Security                               invoices processed, 98 percent were paid on-time.
                                       Management Act (FISMA)                                     also, during FY 2009, the FTc paid a total of $12,393
                                       The FTc continues to stay vigilant in ensuring that        in interest penalties, or .02 percent of the total dollar
                                       there are no material weaknesses in administrative         amount invoiced.
                                       controls over information systems and is always seeking
                                       methods of improving its secure configuration. in his      Agency Financial Management Systems Plans
                                       FY 2009 FTc Management challenges memo, the                a key financial management goal at the FTc is to
                                       inspector General reports that “the FTc security           provide agency decision makers and staff with accurate
                                       environment is strong and robust and continues             and timely financial data using flexible query and
                                       to evolve to expand its coverage and to address            reporting tools in a one-stop, easy-to-navigate system.
                                       changing threats and requirements.” as part of the         During FY 2009, the FTc worked with its shared
                                       agency’s effort to meet or exceed the requirements         service provider, the Department of the interior (Doi)
                                       of FisMa, 100 percent of agency systems have               national Business center (nBc), in continuing to
                                       undergone certification and accreditation, and the         enhance the functionality of the core Financial system
                                       FTc’s certification and accreditation policy conforms      (cFs) that was implemented in FY 2008. For example,
                                       with the standards established by the national             the FTc partnered to fully automate processes for
                                       institute of standards and Technology. additionally,       recording adjustments to prior year obligations and to
                                       the information Technology Management office               fine-tune related fund validation checks.
                                       and the Privacy steering committee continue to             The FTc also continued working toward integrating
                                       strengthen privacy and data security policies and will     various legacy systems with the cFs, and on enhancing
                                       raise the level of awareness among staff regarding         reporting capabilities. For example, the FTc evaluated
                                       these issues so that data protection remains a critical    a potential solution for an integrated procurement
                                       consideration for all FTc employees.                       system based on its defined functional requirements.
                                       Debt Collection Improvement Act                            The agency also launched a pilot effort to implement a
                                       The Debt collection improvement act of 1996                Business intelligence (Bi) reporting solution.
                                       prescribes standards for the administrative collection,    in addition to the Bi initiative and efforts to modernize
                                       compromise, suspension, and termination of federal         the agency’s procurement system described above,
                                       agency collection actions and referrals to the proper      the FTc endeavors to integrate functionality and
                                       agency for litigation. although the act has no material    data that currently reside in disparate systems.
                                       effect on the FTc because the agency operates with         long-term plans call for integrating project and cost
                                       minimal delinquent debt, all debts more than 180 days      accounting systems, property management, and budget
                                       old have been transferred to the U.s. Department of        formulation capabilities.
                                       the Treasury for cross-servicing. in addition, recurring




24                                     Federal Trade Commission
                                       Performance and Accountability Report
Financial Highlights




                                                                                                                     management’s discussion and analysis
Introduction
The financial highlights presented below are an          GaaP for federal agencies are the standards prescribed
analysis of the information that appears in the FTc’s    by the Federal accounting standards advisory Board
FY 2009 financial statements. The agency’s financial     (FasaB). For the 13th straight year, the FTc is proud
statements, which appear in the Financial section of     to have received an unqualified (clean) opinion on our
this report, are audited by an independent accounting    audited financial statements. The chart below presents a
firm. The FTc’s management is responsible for the fair   snapshot of the changes in key financial statement line
presentation of information contained in the principal   items that occurred during FY 2009 and is followed by
financial statements. The financial statements and       an explanation of the more significant fluctuations in
financial data presented below have been prepared from   each of FTc’s financial statements.
the agency’s accounting records in accordance with
Generally accepted accounting Principles (GaaP).



                                                                   Percentage
 condensed Balance sHeet (dollars shown in thousands)                                     2009             2008
                                                                      change
  Fund Balance with Treasury                                              -6%         $ 81,307          $ 86,792
  cash and other Monetary assets                                          73%            18,141           10,485
  investments                                                            -19%           94,848            117,514
  accounts receivable, net                                               -37%            55,705           88,030
  General Property & equipment, net                                        2%            15,473           15,098
  total assests                                                          -16%         $265,474           $317,919

  accrued redress receivables Due to claimants                           -37%          $55,496           $87,800
  redress collected not yet Disbursed                                    -18%            69,746           85,021
  Divestiture Fund Due                                                     0%           45,542            45,485
  accounts Payable and other                                             -31%           34,299            49,537
  total liabilities                                                      -23%         $205,083          $267,843

  cumulative results of operations-other Funds                            21%           60,391            50,076

  total net Position                                                      21%         $ 60,391          $ 50,076

  total liabilities and net Position                                     -16%         $265,474           $317,919


                                                                   Percentage
 cost summary                                                                             2009             2008
                                                                      change
  Gross cost                                                               5%         $256,950          $245,558
  less: earned revenue                                                   -51%           -58,256          119,394
  net Program cost                                                        57%         $198,694          $126,164




                                                                                                       Fiscal Year
                                                                                                         2009        25
                                       Financial Analysis
management’s discussion and analysis


                                       Assets. The FTc’s Balance sheet shows total assets        written off. The $15 million decrease in consumer
                                       of $265 million at the end of FY 2009, a decrease         redress funds are due to outflows for distributions
                                       of $52 million or 16 percent compared to FY 2008.         to claimants and disgorgements to the Treasury of
                                       The overall decrease is attributable to a decrease of     $84 million and for expenses of $6 million, compared
                                       $32 million in consumer redress accounts receivable,      to $75 million in collections.
                                       net, a decrease of $15 million in consumer redress
                                                                                                 The $5 million decrease in Fund Balance with
                                       funds (held as cash and investments) and a $5 million
                                                                                                 Treasury primarily reflects a $15 million transfer
                                       decrease in Fund Balance with Treasury.
                                                                                                 to the DoJ of premerger collections during FY 2009
                                       The $32 million decrease in consumer redress              that represented undisbursed funds at year-end 2008
                                       accounts receivable, net is due to the collections of     offset by the additional funds retained to pay for the
                                       $75 million and the net of bad debt expense and write-    $13 million increase in year-end FY 2009 obligations
                                       offs of $219 million, which exceeds the $262 million in   compared to FY 2008. Furthermore, unobligated
                                       new judgments and recoveries of judgments previously      balances decreased by $2 million in FY 2009.




                                          asseTs BY TYPe (Dollars shown in millions)




26                                     Federal Trade Commission
                                       Performance and Accountability Report
                                                                                                                          management’s discussion and analysis
Liabilities. The agency’s total liabilities at the          obtained or settlement agreements reached as part
end of FY 2009 were $205 million, decreasing                of consumer redress efforts. These redress-related
by $63 million, or 23 percent, from FY 2008                 liabilities accounted for 61 percent of all liabilities
total liabilities of $268 million.                          in FY 2009 versus 65 percent in FY 2008.
The decrease in total liabilities is primarily the result   The decrease in total liabilities is further related to
of a $47 million decrease in redress-related liabilities    a $15 million decrease in accounts Payable and
(accrued redress receivables Due to claimants and           other liabilities reflecting the change in amounts
redress collected but not Yet Disbursed) which is           due to the DoJ for their share of fees collected under
consistent with the decrease in redress-related cash        the Hsr act.
and other assets, investments and accounts receivable
described above under assets. These two non-entity
liabilities correspond to cash and investments held by
the FTc in a deposit fund as the result of judgments




   liaBiliTies BY TYPe (Dollars shown in millions)




                                                                                                            Fiscal Year
                                                                                                               2009       27
management’s discussion and analysis

                                       Net Position. The agency’s cumulative results of               Results of Operations. Total gross costs for the year
                                       operations comprises net Position. at the end of               ending september 30 were $257 and $246 million
                                       FY 2009, the agency’s net Position is $60 million,             for FYs 2009 and 2008, respectively. Gross costs
                                       increasing by $10 million or 20 percent over the               are inclusive of all costs involved in FTc’s ongoing
                                       FY 2008 ending net Position of $50 million.                    operations. Fees collected in relation to the Hsr act
                                                                                                      and the Dnc registry of $58 and $119 million in FY
                                       Financing sources from appropriations used
                                                                                                      2009 and 2008, respectively, offset the gross costs in
                                       during the year were $201 million and imputed
                                                                                                      determining net costs.
                                       financing sources totaled $8 million for a total
                                       of $209 million. The imputed financing sources                 FY 2009 net costs of $199 million increased by
                                       consisted of $2 million in future retirement benefits          $73 million over the FY 2008 level of $126 million
                                       and $6 million in future health and life insurance             primarily due to the decline in the total amount
                                       benefits accrued in FY 2009, which will be                     of Hsr fees collected of $61 million. This decrease
                                       paid by entities other than the FTc.                           reflects the lower number of Hsr filings in FY 2009
                                                                                                      related to the economic downturn.
                                       The financing sources of $209 million exceed the net
                                       cost of operations totaling $199 million (gross costs of
                                       $257 million less revenues from fees of $58 million),
                                       resulting in the $10 million increase in net position.




                                       FY 2009 NET COSTS BY STRATEGIC GOAL
                                                                                        strategic Goal 1                strategic Goal 2
                                                                                                                                                          Total
                                                                                     Protect consumers            Maintain competition
                                         Gross costs                                              $147,232                       $109,718             $256,950
                                         less: earned revenue                                      (15,947)                       (42,309)             (58,256)
                                         net Program costs                                        $131,285                        $67,409             $198,694




28                                     Federal Trade Commission
                                       Performance and Accountability Report
                                                           collections made during the fiscal year were transferred




                                                                                                                       management’s discussion and analysis
Budgetary Resources. The statement of Budgetary
resources (sBr) provides information on budgetary          to DoJ by september 30, however FY 2008 was an
resources made available to the agency and the status of   exception (see further explanation in financial statement
these resources at the end of the fiscal year.             note 1(g). although this balance is included in total
                                                           resources on the sBr, this amount was not available
new budgetary authority (total budgetary resources
                                                           to finance the FTc operations and may only be
excluding unobligated balances brought forward,
                                                           transferred to DoJ for its use. During FY 2009, this
prior year recoveries, and amounts previously
                                                           $15 million balance was transferred to DoJ pursuant
unavailable) was $259 million in FY 2009,
                                                           to 15 U.s.c. 18a note and recorded as an expenditure
an increase of $15 million or 6 percent over the
                                                           transfer consistent with guidance from oMB and the
$244 million in FY 2008.
                                                           Department of Treasury. This transfer resulted in a
in FY 2009, spending authority derived from offsetting     $15 million increase to obligations and outlays above
collections totaled $58 million ($42 million for Hsr       those incurred as part of the FTc’s operations.
fees and $16 million for Do not call registry) and
                                                           The sBr includes distributed offsetting receipts, which
general fund appropriations totaled $201 million,
                                                           are the non-entity and non-budgetary funds recorded
comprising 22 and 78 percent of new budget authority,
                                                           in the FTc’s Miscellaneous receipt accounts. These
respectively. This compares to offsetting collections of
                                                           receipts comprise primarily of disgorgements to the
$135 million and general fund appropriations of
                                                           Treasury from undistributed funds from the redress
$96 million, comprising 58 and 42 percent of new
                                                           program and court-appointed receivers. also included
budget authority, respectively, in FY 2008.
                                                           are other miscellaneous receipts that by law are not
The sBr includes a $15 million balance that was            retained by the FTc. Distributed offsetting receipts
reported as temporarily not available in FY 2008,          decreased by $40 million in FY 2009 primarily due to
which was brought forward in the FTc’s general fund        the unusually large amounts of redress disgorgements
(29X0100). This amount was collected by the FTc in         occurring during the prior year and the lower collections
FY 2008 on DoJ’s behalf pursuant to 15 U.s.c. 18a          of redress judgments during FY 2009 that contribute to
note. Historically all of the DoJ share of Hsr fee         reduced disgorgements.


   neW BUDGeT aUTHoriTY For FY 2009 (Dollars shown in millions)




                                                                                                         Fiscal Year
                                                                                                           2009        29
                                       Limitations of Financial Statements                                 budgetary resources, which are prepared from the same
management’s discussion and analysis


                                                                                                           books and records. These statements should be read with
                                       FTc management has prepared its FY 2009 financial
                                                                                                           the understanding that they are for a component of the
                                       statements from the books and records of the agency
                                                                                                           U.s. government, a sovereign entity. one implication is
                                       in accordance with the requirements of the office of
                                                                                                           that unfunded liabilities cannot be liquidated without
                                       Management and Budget (oMB) circular a-136,
                                                                                                           legislation that provides resources to do so.
                                       Financial reporting requirements, as amended. The
                                       financial statements represent the financial position               Financial Management Indicators
                                       and results of operations of the agency pursuant to the             The following table shows standard indicators developed
                                       requirements of chapter 31 of the U.s. code section                 by the chief Financial officers council and used by
                                       3515(b). While these statements have been prepared                  the oMB to monitor agencies’ financial management
                                       from the agency’s books in accordance with the formats              practices.
                                       prescribed by the oMB, the statements are in addition
                                       to the financial reports used to monitor and control




                                        Financial Management indicators for FY 2009
                                        Debt Management
                                        Debt Transferred to Treasury                                                 100%

                                        Funds Management
                                        Fund Balance with Treasury (identifies the difference                        100% reconciled
                                        between the fund balance reported in Treasury reports and
                                        the agency fund balance with Treasury recorded in its general
                                        ledger on a net basis)
                                        Payment Management
                                        Percentage invoices Paid on Time (per Prompt Payment act)                    98%

                                        Percentage interest Penalties Paid to Total Dollars invoiced                 0.02%

                                        Percentage of total dollars outstanding in current status*                   100%
                                        (good standing) for individually Billed Travel account
                                        holders
                                        Percentage of total dollars outstanding in current status*                   100%
                                        (good standing) for centrally Billed Travel accounts
                                        Percentage of total dollars outstanding in current status*                   100%
                                        (good standing) for Purchase cards

                                       *The office of Management and Budget threshold for delinquency is 61 days.




30                                     Federal Trade Commission
                                       Performance and Accountability Report
Performance Section




                      performance section




                      31
                      Introduction to
performance section



                      Performance                                                Relationship of Outputs
                                                                                 to Outcomes
                      The Performance section presents detailed information
                      on the performance results of the Federal Trade            The goals of the FTc are to protect consumers and
                      commission’s (FTc) programs and includes                   maintain and promote competition in the marketplace.
                      a discussion of strategies and factors affecting           The FTc has a number of desired outcomes of these
                      performance. This section also includes trend              goals, including stopping fraud and anticompetitive
                      data, and a summary of methods used to verify              mergers or conduct. This is accomplished through
                      and validate performance data. Generally, this section     (1) pursuing strategic law enforcement actions, (2)
                      also contains the results of program evaluations; the      educating consumers and businesses on their rights
                      agency did not undergo any significant program             and responsibilities; and (3) influencing policymakers,
                      evaluations in FY 2009.                                    legislators, and the judiciary to issue and interpret
                                                                                 policies and laws that are pro-consumer and pro-
                      Throughout this section, years without trend data are      competitive. However, it remains difficult, if not
                      indicated as not available (n/a) and for performance       impossible, to measure precisely the value (in
                      measures with five-year cumulative targets, the shaded     monetary terms or otherwise) of deterrence,
                      portions of the performance tables indicate those fiscal   education, and advocacy. But the agency is confident—
                      years included in the five-year targets. additionally,     taking into account the information it gains through
                      Performance Measure 1.2.2, used only in FYs 2007           its performance measures—that consumers benefit
                      and 2008, was not continued in FY 2009. as an              from the FTc’s deterring unfair or deceptive acts and
                      output measure that simply counted actions, it did not     anticompetitive mergers or conduct, providing accurate
                      adequately measure the effectiveness of the FTc’s work.    consumer information, and advocating agency positions.
                      in FY 2009, the FTc updated its strategic Plan,            The agency’s current performance measures include
                      which will be effective FY 2010. This provided the         both input/output and outcome measures; however,
                      FTc with an opportunity to better define its               the FTc is continuously reviewing its performance
                      performance framework and work toward expanding            measures with the aim of developing additional
                      outcome performance measures. Furthermore, the             outcome measures.
                      agency expects that its multiyear effort to modernize      a measurable outcome of the FTc’s goals is substantial
                      and integrate business systems will lead to the better     financial savings to consumers through law enforcement
                      determination of the cost of strategic goals and           actions to stop specific frauds and anticompetitive
                      objectives in the coming years. This will provide          conduct or mergers. The FTc has five long-term
                      another opportunity to use more efficiency measures        outcome performance measures directed at these law
                      and make further refinements to the strategic Plan         enforcement actions, as discussed below. even so, the
                      in an effort to measure the outcomes of the FTc’s          FTc continues to develop performance measures that
                      performance more precisely.                                directly reflect whether desired outcomes were achieved.
                                                                                 in FY 2010, the FTc will measure the outcome of
                                                                                 its advocacy. Under its consumer protection goal, in
                                                                                 addition to counting consumer complaints added to
                                                                                 the FTc’s database, Performance Measure 1.1.2
                                                                                 indicates the percentage of the agency’s consumer




32                    Federal Trade Commission
                      Performance and Accountability Report
                                                                                                                         performance section
protection law enforcement actions that were responsive      Verification and Validation
to the consumer complaint information gathered by
the agency. although this is another output measure,
                                                             of Performance Data
it brings the FTc closer to determining its role in the      The financial data and performance results described
ultimate desired outcome of a marketplace free of            in this report enable the FTc to administer its
fraud, deception, and unfair practices that cause            programs, gauge their success, and make adjustments
consumer injury.                                             necessary to improve program quality for the public.
                                                             The Message from the chairman on p. iv provides
The FTc has two outcome measures to its maintain             that FTc’s financial and performance data presented
competition goal. These two measures (Performance            in this report are complete, reliable, and accurate.
Measures 2.2.2 and 2.2.4) seek to measure the                The following steps outline how the agency ensured
consumer savings that result from merger and                 the performance information it reports is complete,
nonmerger enforcement. The FTc now measures                  accurate, and consistent:
its achievement of outcomes using five long-term
performance targets: (1) the five-year consumer               • Developed policy and documented the procedures
protection performance target (Performance Measure              used to ensure timely reporting of complete,
1.2.1) to save consumers approximately $2 billion               accurate, and reliable actual results relative to the
through law enforcement actions stopping consumer               key performance measures.
fraud; (2) the five-year maintain competition                 • Held program managers accountable to set
performance target (Performance Measure 2.2.3) to               meaningful and realistic targets that also challenge
take action against anticompetitive mergers in markets          the agency to leverage its resources. This includes
with a total of at least $125 billion in annual sales; (3)      ensuring ongoing monitoring of performance
the five-year maintain competition performance target           targets so they are updated to reflect changes in key
(Performance Measure 2.2.5) to take law enforcement             factors that impact the agency’s ability to achieve
action against anticompetitive nonmerger conduct                such results. Further, when appropriate, program
in markets with a total of at least $40 billion in              managers are required to explain how they will
annual sales; (4) the five-year maintain competition            improve performance when targets are not met.
performance target (Performance Measure 2.2.2) to
                                                              • Worked with the office of inspector General
achieve at least $2.5 billion in savings for consumers
                                                                to ensure an independent review of the systems
through merger enforcement; and (5) the five-year
                                                                and methodologies used for collecting performance
maintain competition performance target (Performance
                                                                data and ensured that senior economists from
Measure 2.2.4) to achieve at least $400 million in
                                                                the Bureau of economics reviewed statistical
savings for consumers through nonmerger enforcement.
                                                                data, as appropriate.
These five performance targets, in addition to annual
outcome performance measures, continue to provide             • subjected performance measurement results
valuable indicators of how the FTc is progressing               to periodic senior management and commission
toward achieving its strategic goals to protect consumers       review throughout the fiscal year. This process
and maintain competition.                                       includes substantiating that actual results
                                                                reported are indeed correct whenever those
                                                                results reveal significant discrepancies or
                                                                variances from the target.




                                                                                                           Fiscal Year
                                                                                                             2009        33
performance section


                      agency program managers also monitor and maintain                          The Financial Management office is responsible
                      automated systems and databases that collect, track, and                   for providing direction and support on data
                      store performance data, with support provided by the                       collection methodology and analysis, ensuring that
                      FTc’s information and Technology Management office.                        data quality checks are in place, and accurately
                      in addition to the general controls in place over the                      reporting performance management data. Within the
                      network that ensure only authorized staff can access key                   Performance section, the FTc has identified the data
                      systems, each application (system), such as the consumer                   sources for each performance measure.
                      sentinel network, incorporates internal validation edits
                      to ensure the accuracy of data contained therein. These
                      application edits include checks for reasonableness,
                      consistency, and accuracy. crosschecks between other
                      internal automated systems also provide assurances
                      of data reasonableness and consistency. in addition to
                      internal monitoring of each system, experts outside
                      of the business units (i.e., the Bureaus of consumer
                      Protection and competition) routinely monitor the
                      data collection. For example, senior economists from
                      the Bureau of economics review statistical data used
                      by the other bureaus to calculate performance results.
                      Finally, in addition to the items described above, with the
                      update of its strategic Plan for Fiscal Years 2009 to 2014
                      (effective FY 2010), the FTc reassessed, and will monitor,
                      the validation procedures to ensure that changes to or
                      addition of performance measures are properly recorded
                      and accurately reported.




                       legend for Upcoming Performance Measure summary Tables

                       a	signifies that the target is met or exceeded or that the FTc is on track to meet the five-year target.

                       r    signifies that the target is not met or that the FTc is not on track to meet the five-year target.

                       n/a signifies that the performance measure does not have a five-year target.




34                    Federal Trade Commission
                      Performance and Accountability Report
                                                                                                                                        performance section
Performance Measure Summary Table
The tables that follow capture FY 2009 targeted performance compared to actual results.

 strategic Goal 1: Protect consumers
                                                                                 FY 2009              FY 2009            5-Year
 Performance Measure
                                                                                  Target               actual            Target

 objective 1.1 identify Fraud, Deception, and Unfair Practices That cause the Greatest consumer injury
 1.1.1 collect and enter complaints and inquiries into the
 consumer database.
                                                                                 1.8 million          3.3 million    a     n/a


        Key Measure: 1.1.2 The percentage of the agency’s
 consumer protection law enforcement actions that are responsive to                 65%                  79%         a     n/a
 consumer complaint information gathered by the agency.

 objective 1.2 stop Fraud, Deception, Unfairness, and other Unlawful Practices Through law enforcement

        Key Measure: 1.2.1 save consumers money each year                       $400 million         $505 million a      $2 billion a
 through law enforcement.

 objective 1.3 Prevent consumer injury Through education
                                                                                 55 million          43.1 million r
 1.3.1 Track consumer protection messages accessed online or in print.                                                     n/a
                                                                                  messages            messages
 1.3.2 Track consumer protection messages related to identity theft,             10 million          10.1 million a
 accessed online or in print.                                                                                              n/a
                                                                                  messages            messages
 1.3.3 Track consumer protection messages in spanish, accessed                    3 million           1.8 million r
                                                                                                                           n/a
 online or in print.                                                              messages             messages

           Key Measure: 1.3.4 Track (a) the number of times print           (a) 2,750 articles   (a) 2,484 articles r
 media publish articles that refer to the FTc consumer protection           (B) circulation of   (B) circulation of        n/a
 activities and (B) the circulation of media that publish those articles.       750 million          702 million r

 objective 1.4 enhance consumer Welfare Through research, reports, advocacy, and international
 cooperation and exchange
         Key Measure: 1.4.1 convene or participate substantially in           6 workshops and      9 workshops and
 workshops and conferences on novel or challenging consumer                                                                 30    a
                                                                                conferences          conferences a
 protection problems or issues.
 1.4.2 issue reports on novel or challenging consumer protection
 problems or issues.                                                              8 reports            14 reports    a      40    a
 1.4.3 File public and advocacy comments with other federal and
 state government agencies.                                                     6 comments            2 comments r          30    r


 1.4.4 cooperate with foreign government agencies on enforcement                                                                  a
                                                                                 20 agencies          39 agencies    a      20
 matters with cross-border components.
 1.4.5 Provide consumer protection related policy or technical input
 to foreign government agencies or international organizations.                 20 instances          81 instances   a     100    a


                                                                                                                          Fiscal Year
                                                                                                                            2009        35
performance section


                       strategic Goal 2: Maintain competition
                                                                                                              FY 2009           FY 2009           5-Year
                       Performance Measure
                                                                                                               Target            actual           Target
                       objective 2.1 identify anticompetitive Mergers and Practices that cause the Greatest consumer
                       injury
                               Key Measure: 2.1.1 achieve positive outcomes in matters in which
                               Hsr requests for additional information are issued.1*
                                                                                                                 90%            100%       a        n/a


                                Key Measure: 2.1.2 Percentage of significant nonmerger                           90%            100%       a        n/a
                       investigations that result in a positive outcome.*
                       2.1.3 Track the number of enforcement actions for the total mission, for the                             (a) 19
                       (a) merger and (B) nonmerger actions.                                               establish Baseline                       n/a
                                                                                                                                (B) 7
                       2.1.4 report the number of (a) second requests, (B) reportable transactions
                                                                                                                                (a) 15
                       for which premerger notifications were received, (c) Hsr investigations that
                                                                                                                                (B) 684
                       resulted in enforcement action, (D) transactions in which antitrust issues
                                                                                                           establish Baseline   (c) 13              n/a
                       were resolved through voluntary abandonment or restructuring because of
                                                                                                                                (D) 1
                       FTc concerns, and (e) investigations closed because the evidence indicated
                                                                                                                                (e) 3
                       that a competitive problem was unlikely.
                       2.1.5 Track the number of significant nonmerger investigations closed each                               (a) 7
                       year, (a) with enforcement action and (B) without enforcement action.               establish Baseline                       n/a
                                                                                                                                (B) 27

                       objective 2.2 stop anticompetitive Mergers and Business Practices Through law enforcement

                                Key Measure: 2.2.1 Positive result of cases brought by the FTc due               80%              96%      a        n/a
                       to alleged violations.*
                       2.2.2 achieve savings for consumers through merger enforcement.                                            $791              $2.5
                                                                                                             $500 million                  a                 a
                                                                                                                                 million           billion
                       2.2.3 Take action against mergers likely to harm competition in markets
                                                                                                                                 $22.3              $125
                       with a total of at least $125 billion in sales over a five-year period; $25            $25 billion
                                                                                                                                 billion   r       billion   a
                       billion in sales each year.
                       2.2.4 achieve savings for consumers through nonmerger enforcement.                                         $188              $400
                                                                                                              $80 million
                                                                                                                                 million   a       million   a
                       2.2.5 Take action against anticompetitive conduct in markets with a
                                                                                                                                 $14.6              $40
                       total of at least $40 billion in annual sales over a five-year period; $8 billion       $8 billion                  a                 r
                                                                                                                                 billion           billion
                       each year.
                       2.2.6 save consumers at least six times the amount of agency resources
                                                                                                                                           a       600%
                       allocated to the merger program over a five-year period.                             600% (annual)        2,132%
                                                                                                                                                (cumulative)a
                       (efficiency Measure)
                       2.2.7 save consumers at least four times the amount of agency resources
                                                                                                                                           a       400%
                       allocated to the nonmerger enforcement program over a five-year period.              400% (annual)        1,035%
                                                                                                                                                (cumulative)a
                       (efficiency Measure)

                      *see respective performance measure discussion in the Performance section for definitions of “positive outcomes” and “positive results.”




36                    Federal Trade Commission
                      Performance and Accountability Report
                                                                                                                                   performance section
strategic Goal 2: Maintain competition (continued)
                                                                          FY 2009                FY 2009            5-Year
Performance Measure
                                                                           Target                 actual            Target

objective 2.3 Prevent consumer injury Through education
2.3.1 Quantify the number of “hits” on antitrust information on the
FTc’s website.                                                             15 million           11.9 million   r     n/a


         Key Measure: 2.3.2 Track (a) the number of times print       (a) 2,500 articles     (a) 1,569 articles r
media publish articles that refer to FTc competition activities and   (B) establish          (B) circulation of      n/a
(B) the circulation of the media that publish those articles.         Baseline               360 million

objective 2.4 enhance consumer Welfare Through research, reports, advocacy, and international
cooperation and exchange
2.4.1 convene or participate substantially in workshops,
conferences, seminars, and hearings involving significant                   4 events              8 events     a      20     a
competition-related issues.

         Key Measure: 2.4.2 issue studies, reports, and working or       8 documents           20 documents    a      40     a
issues papers on significant competition-related issues.

          Key Measure: 2.4.3 Make advocacy filings with other
federal and state government agencies urging them to assess the             6 filings             10 filings   a      30     a
competitive ramifications and costs and benefits to consumers of
their policies.
2.4.4 issue advisory opinions to persons seeking agency review
of proposed business actions.                                            2 – 3 opinions          1 opinion     r      12     r

2.4.5 File amicus briefs with courts addressing competition-
related issues.                                                           2 – 3 briefs             2 briefs    a      12     a
2.4.6 Track the volume of traffic on www.ftc.gov relating to
competition research, reports, advocacy, and international                1.1 million            1.6 million   a     n/a
cooperation and exchange.

         Key Measure: 2.4.7 Track the number of (a) cases on which    (a) 30 cases           (a) 87 cases       a
the FTc cooperated with foreign competition authorities, (B)          (B) 25 consultations   (B) 56 consultations
consultations with or comments to foreign competition authorities,    or comments            or comments        a    n/a
(c) written submissions to international fora, (D) international      (c) 7 submissions      (c) 19 submissionsa
events attended, and (e) leadership positions held by FTc staff in    (D) 8 events           (D) 125 events     a
international competition organizations.                              (e) 5 positions        (e) 10 positions a




                                                                                                                     Fiscal Year
                                                                                                                       2009        37
                      Strategic Goal 1:
performance section



                      Protect Consumers                                         Objective 1.2 Stop fraud, deception, unfairness, and other
                                                                                unlawful practices through law enforcement.
                      Prevent Fraud, Deception, and                             The FTc uses information gathered under objective 1.1
                      Unfair Business Practices in the                          to target its law enforcement efforts. its law enforcement
                      Marketplace                                               program aims to stop and deter fraud and deception,
                      I. Strategic View                                         protect consumers’ privacy, and increase compliance
                      as the nation’s premier consumer protection agency,       with its consumer protection statutes and rules.
                      the FTc strives to protect consumers by preventing        Objective 1.3 Prevent consumer injury through education.
                      fraud, deception, and unfair business practices in the    The FTc targets its education efforts to give consumers
                      marketplace. The agency applies four related objectives   the information they need to protect themselves from
                      to achieve this broad-reaching goal.                      injury and to explain to businesses how to comply with
                      Objective 1.1 Identify fraud, deception, and unfair       applicable laws.
                      practices that cause the greatest consumer injury.        Objective 1.4 Enhance consumer welfare through
                      The FTc identifies practices that cause consumer injury   research, reports, advocacy, and international
                      by analyzing the consumer complaint data collected        cooperation and exchange.
                      in its consumer sentinel network database, holding        The FTc complements its law enforcement and
                      public discussions, and monitoring the marketplace.       education efforts by gathering, analyzing, and making
                                                                                public certain information concerning the nature of
                                                                                business practices in the marketplace.




                         AnnualCreditReport.com—The ONLY Authorized Source
                         to Get a Free Annual Credit Report


                                                                                anyone can write a catchy jingle, but
                                                                                only annualcreditreport.com provides
                                                                                consumers with a truly free credit report.
                                                                                annualcreditreport.com requires no hidden
                                                                                fees or trial memberships.

                                                                                   The Fair credit reporting act guarantees
                                                                                   consumers access to a free credit report
                                                                                   from each of the three nationwide reporting
                                                                                   agencies—experian, equifax, and TransUnion—
                                                                                   every twelve months. The FTc has received
                                                                                   complaints from consumers who thought
                          they were ordering their free annual credit report, but instead paid hidden fees or agreed to
                          unwanted services.

                          The FTc urges consumers to not be fooled by Tv ads, email offers, or online search results.
38                        To learn more, visit www.ftc.gov/freereports or www.annualcreditreport.com.
                                                                                                                     performance section
II. Strategic Analysis
Objective 1.1 Identify fraud, deception,                   at www.ftc.gov; and postal mail. Partners such as
and unfair practices that cause the greatest               Better Business Bureaus, the internet crime complaint
consumer injury.                                           center (a partnership between the Federal Bureau of
identifying the practices that cause the greatest          investigation and the national White collar crime
consumer injury is the first step in preventing            center), the U.s. Postal inspection service, Phone
fraud, deception, and unfair business practices            Busters (the canadian fraud database), and the
in the marketplace.                                        national Fraud information center of the national
                                                           consumers league also share with the FTc the
Our Strategy                                               consumer complaint data they collect. The FTc
To identify consumer protection problems, the              continues to pursue new international partnerships to
FTc collects and analyzes data from many sources.          increase its collection of information from consumer
its consumer response center receives consumer             agencies in other countries. For example, through
complaints and inquiries via a toll-free number            www.econsumer.gov (a portal where consumers can
(877-FTc-HelP); an internet complaint form available       report complaints about online and related transactions
                                                           with foreign countries), the agency partners with other



    Top Consumer Complaints in Calendar Year 2008



                                                              For the ninth year in a row, identity theft is
                                                              the number one consumer complaint category,
                                                              accounting for 26 percent of the 1,223,370
                                                              total complaints received between January and
                                                              December 2008. To learn more, visit
                                                              www.ftc.gov/opa/2009/02/2008cmpts.shtm.



         RANK            CATEGORY                                          % OF TOTAL COMPLAINTS

         1               Identity theft                                                           26
         2               Debt collection (third party and creditor)                               9
         3               Shop-at-home and catalog sales                                           4
         4               Internet services                                                        4
         5               Foreign money offers and counterfeit checks                              3
         6               Credit bureaus, information furnishers, credit report users              3
         7               Prizes, sweepstakes, and lotteries                                       3
         8               Television and electronic media                                          2
         9               Banks and lenders                                                        2
         10              Telecom equipment and mobile services                                    2
         11              Computer equipment and software                                          2
         12              Business opportunities, employment agencies, work-at-home plans          2


                                                                                                                     39
performance section



                      members of the international consumer Protection           of specific types of consumer fraud cases. They also
                      enforcement network, an international group that           educate criminal law enforcement authorities about
                      identifies and shares information about worldwide          the FTc and its mission, and coordinate training of
                      consumer protection issues.                                FTc staff by criminal law enforcement authorities
                                                                                 to help staff prepare cases for referral and ensure
                      This information is entered into a database within
                                                                                 smooth progress of parallel prosecutions. The FTc, in
                      the FTc’s consumer sentinel network (csn) and is
                                                                                 partnership with the secret service and the Department
                      analyzed by FTc staff to identify current trends and
                                                                                 of Justice, continues a training program that provides
                      to target fraudulent, deceptive, and unfair business
                                                                                 local and state law enforcement officers with practical
                      practices. The agency makes the more than 12.1 million
                                                                                 tools to enhance combined efforts to combat identity
                      consumer fraud, identity theft, financial, and Do not
                                                                                 theft, including information about accessing consumer
                      call (Dnc) complaints that it has collected during the
                                                                                 complaint data. This training program provided on-
                      past five years available, through csn’s secure website,
                                                                                 site training to more than 750 officers from more than
                      to more than 1,700 law enforcement organizations in
                                                                                 220 agencies in FY 2009. To date, the FTc and its
                      the United states, canada, and australia. although the
                                                                                 partners, who now include the U.s. secret service,
                      FTc does not act on behalf of individual consumers,
                                                                                 the U.s. Postal inspection service, the Federal Motor
                      the consumer complaint database enables the FTc and
                                                                                 carrier safety administration, and the Federal Bureau
                      its law enforcement partners to quickly spot trends,
                                                                                 of investigation, have conducted a total of 37 seminars,
                      target the most serious consumer frauds reported by
                                                                                 training more than 4,850 law enforcement officers from
                      consumers, and coordinate law enforcement efforts. The
                                                                                 more than 1,570 agencies.
                      ongoing input and analysis of current complaint data
                      allows the FTc to move rapidly to stop illegal practices   Performance Results
                      before they can cause more harm to consumers.
                                                                                 The key performance measure under this objective
                      consumers can call the FTc’s identity theft toll-          measures the percentage of agency consumer protection
                      free number, 877-iD-THeFT, or view its website             law enforcement actions that are responsive to the
                      (www.consumer.gov/idtheft) to obtain information           consumer complaint information gathered by the agency
                      about, and report, identity theft. at the end of the       (Performance Measure 1.1.2). This measure was added
                      fiscal year, the csn contained nearly 1.4 million          in FY 2007 to take the agency a step beyond counting
                      identity theft complaints that the agency has collected    the number of complaints collected to examining the
                      during the past five years. The FTc uses this data to      extent to which these complaints help set the consumer
                      spot patterns that can help criminal law enforcement       protection agenda under this objective.
                      agencies prosecute identity theft and help individuals
                                                                                 Performance Measure 1.1.1 requires the FTc to collect
                      and businesses avoid the financial consequences of
                                                                                 and enter complaints and inquiries into the csn. The
                      this crime.
                                                                                 large number of consumer complaints and inquiries
                      The FTc and U.s. secret service case referral              collected provides the agency a broad view of what
                      Program jointly identify criminal cases, and strong        reporting consumers are experiencing.
                      leads are referred to regional task forces, many led by
                                                                                 The csn allows the FTc and its law enforcement
                      the secret service Financial crimes Division. The FTc
                                                                                 partners to identify and develop cases against operators
                      is a civil law enforcement agency without criminal
                                                                                 engaging in deceptive, fraudulent, and unfair practices
                      authority. The FTc’s criminal liaison Unit identifies
                                                                                 that cause the greatest consumer injury. By analyzing
                      law enforcement agencies and case agents for referral
                                                                                 consumer complaints, the FTc targets its enforcement




40                    Federal Trade Commission
                      Performance and Accountability Report
                                                                                                                       performance section
and education efforts to the top areas of consumer         year in a row, identity theft topped the annual list of
complaints. not only does the csn help identify            top-10 complaint categories gathered by the agency.
the most serious and commonly reported consumer            The FTc continues to focus law enforcement and
protection problems, but the real-time analysis quickly    education resources on this area of continuing concern
informs the agency of emerging scams so it can move        to consumers and businesses, as well as the other areas
rapidly to stop ongoing consumer injury. For the ninth     identified as priorities.




    ¡OJO! Mantente alerta contra el fraude. Infórmate con la FTC
    (Be on the alert against fraud. Stay informed with the FTC.)




     The FTc’s Hispanic initiative includes a significant outreach component that includes
     disseminating consumer information in spanish, providing consumer news to the
     spanish-language media, and building partnerships with organizations, businesses,
     and leaders in the Hispanic community. The FTc’s spanish-language fraud awareness
     campaign, “Mantente alerta contra el fraude. infórmate con la FTc,” aims to
     encourage spanish speakers to identify fraudulent and deceptive business practices and
     to tell the FTc about them when they occur. To learn more, visit www.ftc.gov/ojo.

     in addition to the ¡OJO! website, the FTc has a number of spanish-language “micro
     sites” on topics such as credit, business opportunities and work-at-home scams, identity
     theft, information security, and diet and fitness. additionally, the FTc has more than
     100 publications in spanish. consumers can find them at www.ftc.gov/espanol.
                                                                                                         Fiscal Year
                                                                                                           2009        41
performance section

                      Performance Measure 1.1.1
                      collect and enter complaints and inquiries into the consumer database. (numbers shown in millions.)

                                 2005                         2006                       2007                         2008                        2009
                         Target        actual        Target        actual        Target        actual        Target          actual      Target         actual
                           0.7            1.0           1.0          1.0           1.0           1.1            1.8           3.1           1.8            3.3
                      Data source: The FTc’s consumer sentinel network.
                      Target exceeded. To aid in assessing its effectiveness in identifying fraudulent, deceptive, and unfair practices, the FTc measures the
                      number of consumer complaints and inquiries added to its csn each fiscal year. in FY 2009, the FTc added more than 3.3 million entries
                      into its database, 183 percent of the target of 1.8 million.

                      since FY 2008, the total has included consumer complaints alleging Dnc violations. Due to the extent by which the FTc exceeded this
                      target in FYs 2008 and 2009, the agency has re-evaluated the target in the latest update of the FTc strategic Plan, significantly increasing
                      the target for FY 2010 and further increasing it for each of the following four years.




                                 Key Measure: Performance Measure 1.1.2
                      The percentage of the agency’s consumer protection law enforcement actions that are responsive to consumer complaint information
                      gathered by the agency.

                                 2005                         2006                       2007                         2008                        2009
                         Target        actual        Target        actual        Target        actual        Target          actual       Target         actual
                           n/a           n/a           n/a           n/a           50%           76%           65%            71%           65%            79%
                       Data source: case managers report on e-questionnaires whether csn complaints were used to identify the practices that resulted in
                       a law enforcement action.
                       Target exceeded. in FY 2009, 79 percent, or 70 out of 89, of the agency’s actions were responsive to consumer complaint information.
                       Because other sources of information such as letters from consumers or businesses, congressional inquiries, and articles
                       on consumer or economic subjects also may trigger FTc action, the agency has determined that 65 percent is the optimal target for
                       this measure.




42                    Federal Trade Commission
                      Performance and Accountability Report
Objective 1.2 Stop fraud, deception,                        With advances in technology, spammers, spyware




                                                                                                                          performance section
unfairness, and other unlawful practices                    operators, fraudulent telemarketers, and other scam
through law enforcement.                                    artists can strike quickly on a global scale. an increasing
once fraud, deception, and unfair business practices        number of complaints the FTc receives involve
are identified in the marketplace, the FTc focuses its      international transactions, and an increasing number
law enforcement efforts on areas where it can have the      of law enforcement investigations the FTc undertakes
greatest impact for consumers.                              involve some international component. as a result, the
                                                            FTc has implemented a comprehensive program to
Our Strategy                                                combat cross-border consumer protection law violations.
Through its law enforcement efforts, the FTc stops          The FTc continues to develop new bilateral and
fraudulent, deceptive, and unfair practices by obtaining    multilateral enforcement partnerships and to strengthen
court-ordered injunctions against defendants. The           existing ones. Given its broad jurisdiction and limited
agency enforces section 5 of the FTc act, which             resources, the agency focuses on the most serious
prohibits unfair or deceptive acts or practices in or       identified problems, using varied enforcement tools.
affecting commerce, as well as an increasing number
of statutes and rules proscribing specific unlawful         Performance Results
practices. enforcement efforts in FY 2009 included          This objective has one performance measure. This key
cases covering a range of topics, with priority given to    performance measure (Performance Measure 1.2.1) is
addressing prohibited practices in the financial services   to save consumers more than $400 million annually
marketplace, privacy and data security concerns, Dnc        through law enforcement. The measure of the dollars
violations, technology abuses, deceptive marketing of       saved is an important one. The FTc’s experience in
health products, deceptive “green” marketing claims,        most cases is that once it files a complaint and obtains
and issues related to marketing to children.




    National Do Not Call Registry



                                                 The FTc manages the national
                                                 Do not call (Dnc) registry, which
                                                 gives consumers the opportunity to limit
                                                 telemarketing calls. as of september 30,
                                                 2009, there were more than 191 million
                                                 active registrations on the Dnc registry.
                                                 The federal government created the
                                                 national registry to make it easier and more
                                                 efficient for consumers to stop getting
                                                 unwanted telemarketing calls.
                                                 The Do-not-call improvement act of
                                                 2007, which became law in February 2008,
                                                 ensures that telephone numbers placed on
     the Dnc registry will remain on it permanently. consumers can register online
     at www.donotcall.gov or call toll-free 888-382-1222 (TTY 866-290-4236)
     from the number they wish to register. registration is free. To learn more, visit
     www.donotcall.gov.
                                                                                                           Fiscal Year
                                                                                                              2009        43
                      a court or administrative order, the defendants stop                      alerts consumers to fraudulent and deceptive practices,
performance section


                      their practices. if they fail to comply with an order, they               educates them to avoid such practices in the future,
                      are subject to contempt or civil penalty proceedings.                     and, ultimately, seeks to increase consumer confidence
                      By stopping these practices, the agency directly prevents                 in the marketplace, while deterring similar behavior
                      further consumer losses caused by these defendants.                       by would-be violators. The agency estimates consumer
                      also, by publicizing these law enforcement actions and                    savings by totaling the estimated annual sales of
                      distributing consumer education materials, the FTc                        defendants in the 12 months prior to the FTc’s
                                                                                                contacting the defendants or filing a complaint.

                                 Key Measure: Performance Measure 1.2.1
                      save consumers money each year through law enforcement. (Dollars shown in millions.) Due to the potential of great variance of savings
                      on an annual basis, this measure has a five-year target of $2 billion. For FY 2009, the measure was changed to include only fraudulent sales
                      from defendants, and not other economic injury.

                                 2005                         2006                       2007                        2008                        2009
                        Target         actual        Target       actual        Target        actual        Target          actual      Target         actual
                          $400           $366          $400          $293         $400          $519          $400           $474         $400           $505
                      Data source: To make dollar value assessments, staff uses company sales and other records, as well as information from employees and
                      customers, where applicable.
                      Target exceeded. in FY 2009, the FTc saved consumers nearly $505 million, 126 percent of its annual target. Based on the results in
                      FYs 2007 to 2009, the agency would be on track to meet its five-year target of $2 billion by FY 2011. Because of the great variance of
                      savings on an annual basis, and the exclusion of non-monetary economic harm caused by defendants’ actions, this measure was replaced
                      with new measures in the latest update of the FTc strategic Plan.




                      Objective 1.3 Prevent consumer injury through                           reaches out to tens of millions of consumers and
                      education.                                                              businesses every year on issues that directly affect their
                      an educated consumer and business community is a                        daily activities.
                      first line of defense against fraud and deception.                      The csn helps the FTc tailor its education efforts to
                      Our Strategy                                                            topical areas where fraud, deception, unfair practices,
                                                                                              and information gaps are causing the greatest injury.
                      The FTc is committed to using education and outreach
                                                                                              Through the FTc’s education efforts, consumers are
                      as cost-effective methods to prevent consumer injury,
                                                                                              given the tools they need to spot potentially fraudulent
                      increase business compliance, and leverage its law
                                                                                              and other illegal promotions, and businesses are
                      enforcement program. virtually every consumer
                                                                                              advised of how they can comply with the law. as
                      protection effort, from compliance efforts including
                                                                                              with the agency’s law enforcement activities, many of
                      internet surfs (monitoring the internet for potentially
                                                                                              its educational efforts now involve the internet. The
                      false or deceptive advertising for a targeted product
                                                                                              internet plays an integral role in the FTc’s education,
                      or service) and law enforcement sweeps to the
                                                                                              deterrence, and enforcement efforts by permitting
                      announcement of new rules and regulations, contains
                                                                                              the agency to reach vast numbers of consumers and
                      an educational component. Through print publications,
                                                                                              businesses quickly, efficiently, and inexpensively.
                      websites, electronic media, videos, interactive quizzes,
                                                                                              Through the internet, our education efforts have not
                      tutorials, special events, and partnerships, the agency
                                                                                              only a national impact, but also a global effect.




44                    Federal Trade Commission
                      Performance and Accountability Report
The FTc coordinates with hundreds of private and                Detect, Defend: avoid identity Theft; and Money




                                                                                                                            performance section
public partners to provide information about specific           Matters. in addition to the Hispanic outreach program,
education campaigns, products, and services.                    a growing component of the agency’s consumer and
                                                                business education efforts involve strategic partnerships
The FTc’s Hispanic outreach program forms
                                                                to reach african americans.
partnerships by providing national and community
groups with spanish-language consumer and business              Going forward, the FTc will continue to focus
education materials, and conducting countless media             consumer and business education efforts on emerging
interviews with spanish-language media. The agency              consumer protection issues as well as those subjects
also distributes a quarterly, bilingual newsletter to more      identified by its consumer complaint databases where
than 1,500 local and national Hispanic organizations,           information gaps cause the greatest injury. The FTc will
maintains a spanish-language version of the FTc’s               continue to use technology creatively, including new
website at www.ftc.gov/espanol, and translates signature        interactive media, to extend the reach of its consumer
FTc “microwebsites” like onGuardonline; Deter,                  and business education.


    “Who Cares?”


    With so many sources of health information at consumers’ fingertips—many of them online—it can
    be tough to tell fact from fiction, or useful health products and services from those that don’t work or
    aren’t safe.

    The FTc has created a website to help consumers find reliable sources of information on important health
    topics, whether you are an older consumer or a family member, caregiver, or friend. consumers can:
      • Find links to agencies and organizations that care about topics like generic drugs, hormone therapy, caregiving,
        surgery to improve vision, alternative medicine, hearing aids, Medicare fraud, and medical identity theft;
      • learn how to spot misleading and deceptive claims; and
      • Find out who to contact to ask questions, enlist help, or speak up if you think a health product or
        service isn’t living up to its promises.

    To learn more, visit www.ftc.gov/whocares.




                                                                                                                            45
                      Performance Results
performance section


                      The FTc’s key performance measure under this             consumer and business education publications it
                      objective gauges the agency’s impact by tracking the     distributes in response to requests from the public.
                      number of times print media publish articles that        These performance measures help ensure that the
                      refer to FTc consumer protection activities and          agency is engaging in a sufficient amount of educational
                      the circulation of media that publish those articles     activity and that the educational materials are aimed at
                      (Performance Measure 1.3.4). This measure takes a        particularly vulnerable populations.
                      step beyond counting the number of hits on the FTc’s     The FTc seeks to alert as many consumers as possible
                      consumer protection web pages.                           to the telltale signs of fraud, deception, unfair business
                      The remaining three measures (Performance Measures       practices, and other critical consumer protection issues
                      1.3.1, 1.3.2, and 1.3.3) help the FTc gauge the impact   through dissemination of its education messages.
                      of its education efforts by tracking the number of




                          Money Matters: www.ftc.gov/moneymatters


                                                                                    The Federal Trade commission has
                                                                                    created a website to help consumers
                                                                                    tackle some money issues head-on:
                                                                                    www.ftc.gov/moneymatters.

                                                                                    it’s become an all-too-familiar headline—
                                                                                    lay-offs and furloughs, falling housing prices
                                                                                    and rising consumer debt, declining retail
                                                                                    sales and increasing costs of living. Money—
                                                                                    and the lack of it—is a source of stress and
                                                                                    frustration. and while people the world
                                                                                    over are working to stem the global financial
                                                                                    situation we’re in, folks at home are trying to
                                                                                    gain some control over their own financial
                                                                                    situations, too.

                                                                                    Practicing positive, tried and true money
                                                                                    management techniques—and learning
                                                                                    how to recognize and avoid some “ripped
                                                                                    from the headlines” consumer scams and
                                                                                    rip-offs—can help you weather tough
46                                                                                  economic times.
                                                                                                                                            performance section
ideally, the agency would like to measure the extent                   distributed by the FTc indicates its impact in
to which its educational materials improve consumer                    educating consumers, although it does not fully
understanding and help consumers get better value for                  capture the millions of FTc publications that are
their money. This effect would be extremely difficult to               distributed to consumers through the FTc’s partners.
measure, but traaking the distribution of publications
provides a rough idea of how many consumers the FTc
is reaching. The measure of the number of publications




 Performance Measure 1.3.1
 Track consumer protection messages accessed online or in print. (numbers shown in millions.)

            2005                        2006                      2007                         2008                         2009
   Target          actual      Target       actual       Target        actual         Target          actual       Target          actual
     20.0           35.3         25.0          53.0        45.0          47.0           50.0           49.2          55.0           43.1
 Data source: The FTc tracks its publication inventory to determine the number of print messages accessed, and uses a computer
 software program to compile the number of FTc website accesses.
 Target not Met. in FY 2009, the FTc accomplished 78 percent of its target of 55 million publications. of the more than 43 million
 consumer protection messages accessed, nearly 30.3 million were accessed online and nearly 12.8 million were print publications
 distributed by the FTc.




 Performance Measure 1.3.2
 Track consumer protection messages related to identity theft, accessed online or in print. (numbers shown in millions.)

            2005                        2006                      2007                         2008                         2009
   Target          actual      Target       actual       Target        actual         Target          actual       Target          actual
     3.0            3.7          3.3           9.4          8.0           9.6            9.0           11.4          10.0           10.1
 Data source: as a subset of the totals tracked in Performance Measure 1.3.1, the FTc tracks the number of consumer
 protection messages related to the high-profile and emerging issues of data security and identity theft. The FTc tracks
 its publication inventory to determine the number of print messages accessed, and uses a computer software program
 to compile the number of FTc website accesses.
 Target exceeded. in FY 2009, the FTc accomplished 101 percent of its target of 10 million. The 10.1 million result includes more
 than 6.5 million messages accessed online, and more than 3.6 million print publications distributed, including more than 61,000
 comprehensive toolkits to help organizations combat identity theft by raising awareness and educating people by hosting a Protect
 Your identity Day. Because this is a subset of measure 1.3.1, this performance measure was removed in the latest update of the FTc
 strategic Plan.




                                                                                                                              Fiscal Year
                                                                                                                                   2009     47
                      Performance Measure 1.3.3
performance section


                      Track consumer protection messages in spanish, accessed online or in print.

                      (numbers shown in millions.)

                              2005                        2006                       2007                        2008                         2009
                         Target    actual            Target   actual            Target   actual             Target    actual             Target    actual
                           0.5            1.1           0.6          2.4          2.2           2.2            3.0           2.0            3.0           1.8
                      Data source: as a subset of the totals tracked in Performance Measure 1.3.1, the FTc tracks the number of consumer protection
                      messages, in spanish, accessed online or in print. The FTc tracks its publication inventory to determine the number of print messages
                      accessed, and uses a computer software program to compile the number of FTc website accesses.
                      Target not Met. in FY 2009, the FTc accomplished 60 percent of its target of three million. The 1.8 million result includes more than
                      1 million messages accessed online, and more than 800,000 print publications distributed. While the number of print publications
                      distributed remained relatively static over the last decade, as more consumers and businesses went online, the number of publications
                      accessed through the internet soared before leveling off within the past few years. The agency’s partners are increasingly opting to
                      post the FTc’s information on their own websites, and the agency has also increasingly taken advantage of the outreach potential of
                      the “blogosphere.” The FTc is unable to measure the number of its consumer protection messages accessed on partner websites or
                      blogs. although the FY 2009 target, based on past growth, was not met, the agency’s media outreach continues to be active, its list of
                      partnerships is growing, and community outreach efforts through its newsletter and conference participation continue to be strong.
                      Because this is a subset of measure 1.3.1, this performance measure was removed in the latest update of the FTc strategic Plan.




                                 Key Measure: Performance Measure 1.3.4
                      Track (a) the number of times print media publish articles that refer to the FTc consumer protection activities and (B) the circulation
                      of media that publish those articles.

                                 2005                         2006                      2007                         2008                         2009
                         Target        actual        Target       actual        Target        actual        Target          actual       Target          actual
                           n/a           n/a           n/a           n/a      establish      (a) 3,066    (a) 2,500       (a) 3,100    (a) 2,750       (a) 2,484
                                                                              Baseline       (B) 863      (B) 675         (B) 791      (B) 750         (B) 702
                                                                                             million      million         million      million         million


                      Data source: To determine the number of articles, the agency performs a lexisnexis search of the “U.s. newspapers and Magazines”
                      database. This includes national newspapers, local newspapers, hundreds of magazines, and industry sources. Data on average
                      circulation are drawn from The standard Periodical Directory (28th edition, 2005), or directly from the publishers of the periodicals.
                      Target not Met. in FY 2009, the FTc accomplished 90 percent of its target of 2,750 articles, and 94 percent of its target of a circulation
                      of 750 million. as more people turn to television and the internet for news, print media circulation has continued to decline, and this
                      performance measure was removed in the latest update of the FTc strategic Plan.




48                    Federal Trade Commission
                      Performance and Accountability Report
Objective 1.4 Enhance consumer welfare through




                                                                                                                       performance section
research, reports, advocacy, and international
cooperation and exchange.
research, reports, advocacy, and international            the role of consumer and empirical research in their
cooperation and exchange complement law enforcement       decision making. The agency also testifies before the
and education to enhance the welfare of consumers.        congress on consumer protection issues.

Our Strategy                                              The FTc also engages in a variety of international
                                                          cooperation, exchange, and advocacy activities designed
This fourth objective and its related performance
                                                          to promote market-based consumer protection policies
measures capture the FTc’s increasing use of a variety
                                                          and effective cross-border coordination. Finally, the
of strategies in addition to law enforcement and
                                                          FTc files amicus briefs (friend of the court briefs)
education to enhance consumer welfare. notably,
                                                          to aid courts’ considerations of important consumer
the agency convenes conferences and workshops
                                                          protection issues.
through which experts and other experienced and
knowledgeable parties identify novel or challenging       in the latest update of the FTc strategic Plan, the FTc
consumer protection issues and discuss ways to address    added a new performance measure under this objective
those issues. The FTc also issues reports that the        to help determine the outcome of its advocacy efforts.
congress has mandated or that the agency has prepared     These activities will continue to enhance consumer
on its own initiative that analyze consumer protection    welfare by guiding the FTc’s consumer protection
problems and suggest public and private sector policies   policy decisions, as well as the decisions of other state,
to address them. Further, the FTc files comments with     federal, and international policymakers.
federal and state government bodies advocating policies
that promote the interests of consumers and highlight




    Cross-Border Fraud and the U.S. SAFE WEB Act of 2006


                                                           The U.s. saFe WeB act has
                                                           greatly enhanced the FTc’s
                                                           ability to tackle cross-border
                                                           fraud, including scams that
                                                           take advantage of the economic
                                                           downturn to bilk vulnerable
                                                           consumers. For example, in
                                                           FTc v. Mcs Programs, llc,
                                                           filed as part of operation short
                                                           change, the FTc used its saFe
     WeB authority to share information with canadian authorities. The FTc alleged that
     the defendants used telemarketing robocalls and the internet to convince U.s. and
     canadian consumers to pay them $690 to $899 for a phony “rapid debt reduction”
     program that would enable them to pay off their debt three to five times faster than
     they could under their current payment schedule. The FTc obtained an injunction
     halting the defendants’ scheme and continues to litigate this matter. To learn more,
     visit www.ftc.gov/oia/consumer.shtm.
                                                                                                         Fiscal Year
                                                                                                           2009        49
                      Performance Results
performance section


                      The key performance measure under this objective                        The FTc also gauges the impact of its efforts to
                      gauges the FTc’s efforts to enhance consumer                            enhance consumer welfare by tracking the number
                      welfare by tracking the number of workshops on                          of reports it issues on novel or challenging consumer
                      novel or challenging consumer protection problems                       protection issues (Performance Measure 1.4.2) and
                      or issues the FTc convenes or substantially participates                tracking the number of public and advocacy comments
                      in (Performance Measure 1.4.1). various industries                      it files with other federal and state government agencies
                      have given great weight to the FTc’s policy efforts                     (Performance Measure 1.4.3). The agency tracks its
                      that have resulted in part from what has been learned                   international consumer protection efforts to cooperate
                      through its workshops.                                                  with foreign government agencies on enforcement
                                                                                              matters with cross-border components (Performance
                                                                                              Measure 1.4.4), and to provide consumer protection
                                                                                              related policy or technical input related to foreign
                                                                                              government agencies or international organizations
                                                                                              (Performance Measure 1.4.5).




                                Key Measure: Performance Measure 1.4.1
                       convene or participate substantially in workshops and conferences on novel or challenging consumer protection problems or issues.
                       The five-year target is 30 workshops.

                                2005                          2006                     2007                       2008                        2009
                         Target        actual        Target       actual       Target        actual        Target        actual        Target        actual
                          n/a            n/a           n/a           n/a           6            10            6             16            6                9
                       Data source: The agency counts the number of workshops and conferences by examining various sources, such as agency reports,
                       FTc press releases, weekly Bureau planners, and responses to direct inquiries to divisions and regional offices.
                       Target exceeded. in FY 2009, the FTc exceeded its target and convened or participated substantially in nine workshops and conferences
                       on novel or challenging consumer protection problems or issues. The overage is attributable to the many challenging consumer protection
                       issues the FTc deemed it important to address in FY 2009. For example, the agency hosted the first two in a series of FTc roundtable
                       discussions examining consumer protection issues in debt collection proceedings against consumers. The agency also hosted two
                       workshops on how businesses can better secure personal information and protect the privacy of consumers and employees.




50                    Federal Trade Commission
                      Performance and Accountability Report
                                                                                                                                              performance section
Performance Measure 1.4.2
issue reports on novel or challenging consumer protection problems or issues. The five-year target is 40 reports.

          2005                        2006                        2007                         2008                        2009
  Target         actual       Target        actual        Target        actual         Target         actual        Target        actual
    n/a            na            na           n/a             8             8              8            12             8             14
Data source: various sources, such as FTc press releases, weekly Bureau reports, and responses to direct inquiries of divisions and
regional offices.
Target exceeded. in FY 2009, the FTc accomplished 175 percent of its target of eight reports. This target was significantly exceeded
because in addition to the reports issued by the agency annually, this fiscal year, there were many consumer protection problems or issues
in which the agency determined it important to issue reports. For example, the FTc has taken a leading role in addressing the privacy,
security, and other risks of consumer harm associated with new technologies, and issued reports on online behavioral advertising and
mobile marketing in FY 2009.




                                                                                                                                Fiscal Year
                                                                                                                                  2009        51
performance section


                       Performance Measure 1.4.3
                       File public and advocacy comments with other federal and state government agencies. The five-year target is 30 advocacy filings.

                                 2005                         2006                       2007                        2008                         2009
                         Target         actual       Target        actual        Target        actual        Target         actual        Target          actual
                           n/a           n/a           n/a           n/a             6             7             6             6              6              2
                       Data source: various sources, such as agency reports, FTc press releases, weekly Bureau planners, and responses to direct inquiries to
                       divisions and regional offices.
                       Target not Met. in FY 2009, the FTc accomplished 33 percent of its target of six public and advocacy comments. The performance
                       shortfall is explained in part because in order to respond more effectively to frauds stemming from the economic crisis, the agency diverted
                       more resources to enforcement, which led to fewer advocacies than the FTc usually achieves. This shift of resources was necessitated by
                       the need, for example, to bring 18 enforcement actions against entities engaged in mortgage foreclosure and loan modification fraud.




                       Performance Measure 1.4.4
                       cooperate with foreign government agencies on enforcement matters with cross-border components. The five-year target is 100
                       government agencies, or 20 per year.

                                 2005                         2006                       2007                        2008                         2009
                         Target         actual       Target        actual        Target        actual        Target         actual        Target          actual
                           n/a           n/a           n/a           n/a            20            23            20             46            20             39
                       Data source: internal weekly reports to the chairman, litigation assistance reports, trip and visitor logs, and other informal sources.
                       Target exceeded. in FY 2009, the FTc accomplished 195 percent of its target of 20 matters. The overage, in large part, is attributable to
                       the FTc’s information sharing and investigative assistance powers under the U.s. saFe WeB act of 2006 and to the increased capacity,
                       in the past five years, of the FTc’s international partners to engage in cross-border enforcement activities. The performance measure and
                       target have been re-evaluated for the latest update in the FTc strategic Plan.




52                    Federal Trade Commission
                      Performance and Accountability Report
                                                                                                                                              performance section
Performance Measure 1.4.5
Provide consumer protection related policy or technical input to foreign government agencies or international organizations. The five-year
target is 100 instances, or 20 per year.

          2005                        2006                        2007                        2008                         2009
  Target         actual       Target        actual        Target         actual       Target         actual         Target        actual
    n/a           n/a           n/a           n/a            20            34            20             88            20               81
Data source: internal weekly reports to the chairman, litigation assistance case logs, trip and visitor logs, and other informal sources.
Target exceeded. in FY 2009, the FTc accomplished 405 percent of its target of 20 instances. The overage is attributable, in large part, to
the FTc’s ability to fund its own technical assistance programs in the consumer protection area as a result additional funding provided by
congress and to the FTc’s increased activity on international policy and data security policy issues in the past five years The performance
measure and targets have been re-evaluated in the latest update of the FTc strategic Plan.




resources Utilized—strategic Goal 1
(Dollars shown in millions)
                                           2005                   2006               2007                    2008              2009
Full-Time equivalents                        546                  548                  570                   591                 597
obligations                                 $115                  $116                $126                   $140               $152
net cost                                     $94                  $98                 $105                   $124               $131
note: Differences between these obligations and net costs and the financial statements are due to rounding.




                                                                                                                               Fiscal Year
                                                                                                                                  2009        53
                      Strategic Goal 2:
performance section


                                                                                    effects. agency staff conducts thorough factual
                      Maintain                                                      investigations and apply economic analysis
                                                                                    to distinguish between actions that threaten the
                      Competition                                                   operation of free markets and those actions that are
                                                                                    benign or procompetitive.
                      Prevent anticompetitive Mergers and other
                                                                                    Objective 2.2 Stop anticompetitive mergers and
                      anticompetitive Business Practices in the Marketplace
                                                                                    business practices through law enforcement.
                      I. Strategic View                                             When the FTc identifies a harmful or potentially
                      a key function of the FTc is to protect and strengthen        harmful merger or business practice, it takes
                      the free and open markets that are the cornerstone of a       enforcement action under the antitrust laws to stop it,
                      vibrant economy. aggressive competition among sellers         either through an administrative challenge or in federal
                      in an open marketplace gives consumers the benefit            court. in many instances, the agency is able to reach an
                      of lower prices, higher quality products and services,        agreement with the parties that remedies its competitive
                      maximum choice, and innovation leading to beneficial          concerns and avoids litigation.
                      new products and services. The FTc seeks to promote           Objective 2.3 Prevent consumer injury
                      vigorous competition by using the antitrust laws to           through education.
                      prevent anticompetitive mergers and to stop business          The FTc seeks to prevent anticompetitive activity by
                      practices that diminish competition, such as agreements       educating businesses and consumers about the antitrust
                      among competitors about prices or other aspects of            laws and FTc efforts to ensure competitive markets.
                      competition (referred to as nonmerger enforcement).
                                                                                    Objective 2.4 Enhance consumer welfare through
                      The agency applies four related objectives to achieve this
                                                                                    research, reports, advocacy, and international
                      broad-reaching goal.
                                                                                    cooperation and exchange.
                      Objective 2.1 Identify anticompetitive                        The FTc seeks to advance its mission to maintain
                      mergers and practices that cause the                          competition and enhance consumer welfare by
                      greatest consumer injury.                                     gathering, analyzing, and making public certain
                      The FTc identifies mergers and business practices that        information concerning the nature of competition
                      have resulted in or are likely to result in anticompetitive   as it affects U.s. commerce.



                          Competition Counts


                                                                                 competition in america is about price, selection
                                                                                 and service. it benefits consumers by keeping
                                                                                 prices low and the quality and choice of goods
                                                                                 and services high. The FTc promotes healthy
                                                                                 competition and challenges anticompetitive
                                                                                 business practices to make sure that consumers
                                                                                 have access to quality goods and services, and
                                                                                 that businesses can compete on the merits of
                                                                                 their work. The FTc has developed a variety
                                                                                 of resources to explain its competition work.
                                                                                 competition counts explains how consumers win
54                          when businesses compete and provides an overview of the types of matters investigated by the bureau.
                            To learn more, visit http://www.ftc.gov/bc/edu/pubs/consumer/general/zgen01.pdf.
II. Strategic Analysis




                                                                                                                        performance section
Objective 2.1 Identify anticompetitive
mergers and practices that cause the                         or inconvenience to businesses, while still enabling the
greatest consumer injury.                                    agency to gather sufficient information to support each
identifying anticompetitive mergers and                      enforcement decision.
anticompetitive business conduct is the first                Merger Activities. The premerger notification
step in effective antitrust enforcement.                     requirements of the Hart-scott-rodino (Hsr) act
Our Strategy                                                 provide the FTc with an effective starting point
                                                             for identifying potentially anticompetitive mergers,
The FTc seeks to identify anticompetitive mergers
                                                             acquisitions, and joint ventures (collectively referred
and practices with as much accuracy as possible. While
                                                             to as mergers) before they are consummated. The Hsr
certain business conduct (such as price fixing among
                                                             act requires companies to report certain proposed
competitors) is clearly anticompetitive, mergers and
                                                             mergers to the FTc and the Department of Justice
many other forms of business conduct can benefit,
                                                             (DoJ), which jointly enforce the Hsr act, and wait
harm, or have no effect on consumers. consequently,
                                                             for a specified period (usually 30 days) to allow for
both under- and over-enforcement can harm consumers’
                                                             antitrust review.
interests. The agency seeks to take enforcement action
against transactions or conduct that harms, or is likely     FTc staff examine each transaction to determine
to harm, consumers. at the same time, the agency seeks       whether it poses a threat to competition. in most cases,
to avoid taking actions that prevent businesses from         a reasonable judgment can be made about whether the
completing transactions or engaging in practices that        merger has the potential to be anticompetitive based on
fundamentally benefit consumers or have no competitive       the materials filed with the Hsr act notification. in
effect. The FTc also tries to identify enforcement           other cases, a formal request for additional information
targets as efficiently as possible so that it can devote     may be issued by the FTc. This is referred to as a
the bulk of its resources to further investigation of, and   “second request.” Because the parties may consummate
possible challenge to, the most problematic mergers and      a transaction after substantially complying with the
practices. a related, but important, consideration is to     second request and waiting for a short time period
conduct each inquiry in a way that minimizes the cost        (usually 30 days), a second request investigation




    The Hart-Scott-Rodino (HSR) Act



                                               The Hart-scott-rodino act established the federal premerger
                                               notification program, which provides the FTc and the
                                               Department of Justice (DoJ) with information about large
                                               mergers and acquisitions before they occur. The parties
                                               to certain proposed transactions must submit premerger
                                               notification to the FTc and DoJ. Premerger notification
                                               involves completing an Hsr Form, also called a “notification
                                               and report Form for certain Mergers and acquisitions,” with
                                               information about each company’s business. The parties may
     not close their deal until the waiting period outlined in the Hsr act has passed, or the government has
     granted early termination of the waiting period. To learn more, visit www.ftc.gov/bc/hsr.
                                                                                                                        55
                      typically requires a significant investment of resources    Nonmerger Activities. in the nonmerger area, agency
performance section


                      by the FTc. The agency must act quickly to gather           staff review complaints received from consumers,
                      and review information to make a decision on whether        businesses, congressional offices, and elsewhere to
                      or not to pursue enforcement action to block a merger       identify potentially anticompetitive nonmerger business
                      within the timeframe set out by the Hsr act and rules.      practices. in addition, the FTc has pursued a “positive
                                                                                  agenda” of planned initiatives; that is, the agency has
                      in FY 2009, the FTc continued to face a demanding
                                                                                  taken a systematic and proactive approach
                      merger review workload. indeed, an analysis of
                                                                                  to identifying specific conduct likely to pose
                      enforcement data shows that the number of second
                                                                                  the greatest threat to consumer welfare. The focus
                      requests issued as a percentage of reported transactions
                                                                                  continues to be on the types of practices, such as
                      has increased from 1.3 percent in FY 2008 to 2.2
                                                                                  agreements among competitors, which are most likely
                      percent in FY 2009. additionally in FY 2009, the
                                                                                  to harm consumers.
                      agency filed a number of merger complaints in federal
                      court. overall, notwithstanding a decline in merger         in deploying its scarce enforcement resources, the
                      activity in FY 2009 due to current economic conditions,     agency focuses on sectors of the economy, such as health
                      the number of enforcement actions decreased by only         care, energy, real estate, or high technology, that have
                      9.5 percent this year. looking forward, the FTc will        a significant impact on consumers’ daily lives. also,
                      continue to devote considerable resources to the merger     the agency considers the deterrent effects of antitrust
                      review process. The agency expects the number of            enforcement on businesses and whether the FTc has
                      reported merger transactions to increase as the economy     enforcement experience in an area that will enable
                      recovers from recession.                                    the agency to make an impact quickly and efficiently.
                                                                                  Finally, consideration is given to whether the matter
                      While the major Hsr act amendments in 2001
                                                                                  presents an opportunity to contribute positively to the
                      reduced the number of mergers subject to the advance
                                                                                  development of antitrust law.
                      reporting requirement, they did not change the
                      standard of legality for mergers. Whereas the vast
                      majority of potentially problematic mergers continue
                      to be subject to the revised Hsr filing requirements,
                      smaller merger transactions may still be anticompetitive.
                      consequently, the FTc continues to devote attention to
                      the identification of unreported, usually consummated,
                      mergers that could harm consumers. in FY 2009 the
                      agency successfully challenged three such transactions.
                      This effort involves monitoring trade press, industry
                      sources, and the internet to stay informed of industry
                      developments; following up on case leads from
                      congressional offices, other executive Branch agencies,
                      and state and local governments; and encouraging
                      consumers, businesses, and the bar to notify the FTc
                      of possible anticompetitive mergers.




56                    Federal Trade Commission
                      Performance and Accountability Report
Performance Results                                                     warrant further investigation and possible




                                                                                                                                               performance section
                                                                        enforcement action, while at the same time
There are two key performance measures under this
                                                                        permitting deals or conduct that are neutral or
objective: obtaining a positive outcome in at least 90
                                                                        beneficial to consumers to proceed unimpeded.
percent of Hsr requests for additional information
                                                                        The three remaining measures (Performance
(Performance Measure 2.1.1); and concluding at least 90
                                                                        Measures 2.1.3, 2.1.4, and 2.1.5) under this objective
percent of significant nonmerger investigations (those
                                                                        require that the FTc report detailed supplemental
with at least 150 hours of investigative effort) with a
                                                                        information on its merger and nonmerger activities.
positive outcome (Performance Measure 2.1.2).
                                                                        These measures are directly related to Performance
success on these two key outcome measures indicates                     Measures 2.1.1 and 2.1.2, and their purpose is to
that the FTc is effectively screening Hsr reported                      provide an informative backdrop against which the
mergers and nonmerger investigations to identify those                  key performance measures can be contextualized.
that raise significant antitrust issues and



          Key Measure: Performance Measure 2.1.1
 achieve positive outcomes in matters in which Hsr requests for additional information are issued (note: final outcomes of cases are
 reported in Performance Measure 2.2.1).

          2005                        2006                         2007                        2008                         2009
   Target        actual        Target        actual        Target        actual        Target         actual        Target         actual
  60–80%           52%         60–80%          59%           90%          100%           90%           100%           90%           100%
 Data source: information on the outcome of second request investigations is obtained from FTc press releases, agency databases, and
 internal communications from staff attorneys. Press releases are the source of information for public actions, such as consent orders,
 preliminary injunctions, and the results of judicial review, while internal communications are used to identify those investigations
 that were closed because parties abandoned a transaction or because staff did not find that the transaction might be likely to harm
 competition. internal communications are also used to identify those matters that were originally closed, but where subsequent
 events indicated that the transaction injured competition. These data are then cross referenced with the list of known second request
 investigations as recorded in the official agency database to calculate the performance measure.
 Target exceeded. The FTc obtained a positive outcome in 16 out of 16 second request investigations that were concluded in FY 2009,
 or 100 percent. The FTc obtained seven consent orders, authorized staff to file five preliminary injunction complaints in federal court
 seeking to block a merger, raised anticompetitive concerns causing the parties to withdraw one transaction, and finally, closed three
 investigations without subsequent events indicating that the transaction injured competition. in the cases where staff was authorized to
 file a preliminary injunction complaint, the commission also issued an administrative complaint; however, for measurement purposes
 this investigation is counted only once. For mergers, a positive outcome includes:

   • commission authorization of a complaint for preliminary injunction in federal court
   • issuance of an administrative complaint
   • acceptance of a consent agreement
   • The parties’ voluntary abandonment or restructuring of a proposed transaction based on FTc antitrust concerns
   • closing of an investigation in which possible antitrust issues were raised where no subsequent events indicated that the transaction
     injured competition
   • negative outcomes would include closing investigations that are later determined to raise significant antitrust issues. This measure
     has been removed in the latest strategic Plan.




                                                                                                                                 Fiscal Year
                                                                                                                                   2009        57
performance section


                                Key Measure: Performance Measure 2.1.2
                       Percentage of significant nonmerger investigations that result in a positive outcome.

                                2005                          2006                       2007                         2008                      2009
                         Target        actual        Target        actual        Target        actual          Target        actual     Target         actual
                         60–80%          50%         60–80%          40%           90%           100%           90%          100%         90%           100%

                       Data source: information on the outcome of significant nonmerger investigations is obtained from press releases, various agency
                       and Bureau databases, and internal communications. Press releases are the source of information for public actions, such as consent
                       orders, permanent injunctions, and the results of judicial review, while internal communications are used to identify those matters
                       that were originally closed, but where subsequent events indicated that the business practice injured competition. These data are then
                       cross referenced with information on the number of hours logged to each investigation to identify those investigations that meet the
                       significance threshold of more than 150 hours.
                       Target exceeded. The FTc achieved a positive outcome in 34 out of 34 significant nonmerger investigations, or 100 percent.
                       specifically, the FTc obtained six consent orders, filed one permanent injunction complaint in federal court, and closed 27
                       significant nonmerger investigations without subsequent events indicating that the business practice injured competition.
                       For nonmergers, a positive outcome includes:

                         • commission authorization to file a complaint in federal court
                         • issuance of an administrative complaint
                         • acceptance of a consent agreement
                         • resolution of antitrust concerns without enforcement action
                         • closing of an investigation in which possible antitrust issues were raised where no subsequent events indicated that the business
                           practice injured competition
                         • as with Performance Measure 2.1.1, a negative outcome would include closing an investigation of conduct that is later determined
                           to raise significant antitrust issues. This measure has been removed in the latest strategic Plan.




58                    Federal Trade Commission
                      Performance and Accountability Report
                                                                                                                                            performance section
Performance Measure 2.1.3
Track the number of enforcement actions for the total mission, for the (a) merger and (B) nonmerger actions.

         2005                        2006                       2007                          2008                         2009
  Target        actual       Target        actual       Target        actual        Target           actual      Target           actual
   n/a           n/a           n/a           n/a       establish     (a) 22       establish      (a) 21        establish      (a) 19
                                                       Baseline      (B) 11       Baseline       (B) 4         Baseline       (B) 7
Data source: information on merger and nonmerger enforcement actions is taken from the FTc’s press releases and internal
communications from staff attorneys. Press releases are the source of information for public actions, such as consent orders and
preliminary and permanent injunctions, while internal communications are used to identify those merger enforcement matters where
the parties voluntarily abandoned or restructured a proposed transaction based on FTc antitrust concerns.
as mentioned above, this measure is intended to provide the supporting information needed to place the two key Performance Measures
2.1.1 and 2.1.2 in the appropriate context and is not intended to be evaluated as a stand-alone measure. Thus, where the result under
Performance Measure 2.1.1 states that the agency obtained a positive outcome in 100 percent of second request investigations, this
measure tells how many (output) of those positive outcomes are enforcement actions. enforcement actions include commission
authorization of a complaint for preliminary injunction or permanent relief in federal court, issuance of an administrative complaint,
acceptance of a consent agreement, and, for mergers, the parties’ voluntary abandonment or restructuring of a proposed transaction
based on FTc antitrust concerns. in FY 2009, the FTc took 19 merger enforcement actions and seven nonmerger enforcement actions.
in addition to the seven merger consent agreements accepted for comment and the one withdrawn transaction that are cited under
Performance Measure 2.1.1 (which tracks the positive outcomes of second request Hsr investigations), in other non-Hsr merger
investigations or Hsr investigations where no second request was issued, the FTc obtained two consent agreements and two additional
transactions were abandoned by the parties based on FTc concerns.




Performance Measure 2.1.4
report the number of (a) second requests, (B) reportable transactions for which premerger notifications were received, (c) Hsr
investigations that resulted in enforcement action, (D) transactions in which antitrust issues were resolved through voluntary
abandonment or restructuring because of FTc concerns, and (e) investigations closed because the evidence indicated that a competitive
problem was unlikely.

         2005                        2006                       2007                          2008                         2009
  Target        actual       Target        actual       Target        actual        Target           actual      Target           actual
   n/a           n/a           n/a           n/a       establish     (a) 31       establish      (a) 21        establish      (a) 15
                                                       Baseline      (B) 2,108    Baseline       (B) 1,656     Baseline       (B) 684
                                                                     (c) 20                      (c) 12                       (c) 13
                                                                     (D) 5                       (D) 2                        (D) 1
                                                                     (e) 11                      (e) 7                        (e) 3

Data source: information on the number of second requests and the number of reportable transactions is obtained from the FTc’s
Premerger office and cross-referenced with data from the agency matter management database, while information on the number
of enforcement actions and on the investigations closed without enforcement action is obtained from press releases and internal
communications.
This measure reports detailed supplemental information on the FTc’s merger activities and is intended to provide the context against
which to assess the results obtained under key Performance Measure 2.1.1. This measure tells us how many transactions were reported that
could have been subject to a second request, how many second requests were actually issued, and the outcome of these investigations.




                                                                                                                              Fiscal Year
                                                                                                                                  2009      59
performance section


                       Performance Measure 2.1.5
                       Track the number of significant nonmerger investigations closed each year, (a) with enforcement action and (B) without
                       enforcement action.

                                2005                          2006                     2007                          2008                         2009
                         Target        actual        Target       actual        Target       actual         Target          actual      Target           actual
                       n/a             n/a          n/a          n/a          establish      (a) 11      establish       (a) 4        establish      (a) 7
                                                                              Baseline       (B) 17      Baseline        (B) 14       Baseline       (B) 27
                       Data source: information on significant nonmerger investigations is obtained from press releases, various agency and Bureau databases,
                       and internal communications. Press releases are the source of information for public actions, such as consent orders and permanent
                       injunctions, while the internal matter management database is used to identify those nonmerger matters that were closed without an
                       enforcement action. These data are then cross referenced with information on the number of hours logged to each investigation to
                       identify the ones that meet the significance threshold with more than 150 hours.
                       as in the case of the two previous measures, this measure reports detailed supplemental information on the FTc’s nonmerger activities
                       (Key Performance Measure 2.1.2), and is intended to facilitate evaluation of the results of that measure.




                      Objective 2.2 Stop anticompetitive mergers and                         To stop potentially anticompetitive mergers and
                      business practices through law enforcement.                            practices through law enforcement, the FTc seeks
                      law enforcement represents the most direct method                      legal remedies under the antitrust laws through federal
                      by which the FTc pursues its goal of stopping mergers                  court action, administrative proceedings, or negotiated
                      and business practices that significantly threaten                     settlements. For mergers, the most effective and cost-
                      competition and harm consumers.                                        efficient strategy has been to prevent anticompetitive
                                                                                             mergers before they occur. The agency has implemented
                      Our Strategy                                                           this strategy primarily through its authority to seek
                      in both merger and nonmerger enforcement, the FTc                      federal court injunctions preventing these transactions.
                      focuses primarily on transactions or practices most likely             in many cases, the merging parties elect not to defend a
                      to harm consumers, that is, mergers of firms competing                 court challenge and instead agree to resolve competitive
                      in the same market or markets, and agreements among                    concerns through a consent agreement. This approach
                      direct competitors. other activities, such as unilateral               is suitable when the competitive problem relates to only
                      action by a single firm, or a merger or agreement                      a portion of the transaction, such that a divestiture of
                      involving a supplier and customers or between a firm                   assets will be sufficient to preserve or restore competition
                      and a potential competitor, may threaten competition                   while allowing other competitively neutral or beneficial
                      and therefore are also subject to FTc scrutiny. Given                  aspects of the merger to go forward. in other instances,
                      the agency’s limited resources and because the FTc                     the parties may abandon a transaction after assessing
                      and DoJ jointly enforce the antitrust laws, the FTc                    the likely outcome of an FTc court challenge. When
                      directs much of its attention and resources to certain                 a merger already has been consummated, the FTc
                      segments of the economy that are particularly important                generally relies on administrative litigation to restore
                      to consumers and in which it has particular expertise.                 competition lost as a result of the merger.
                      These include health care, pharmaceuticals, energy, real
                      estate, and technology.




60                    Federal Trade Commission
                      Performance and Accountability Report
                                                                                                                             performance section
in nonmerger matters, the FTc seeks to stop ongoing           The commission issues complaints when, based on the
activity that harms competition. The commission               findings of staff investigations, it has “reason to believe”
may initiate administrative proceedings before an             a merger or conduct is anticompetitive. some cases
administrative law Judge to adjudicate the issues and         involve very close issues, on which reasonable minds can
establish a basis for an order that the parties “cease and    and do differ. other cases may be very difficult from a
desist” from anticompetitive conduct. The FTc also has        litigation standpoint, but are still worth pursuing. all of
the authority to seek relief in federal courts, although it   the FTc’s antitrust challenges are defended by highly
historically has used this option sparingly in nonmerger      competent and well-financed counsel. in addition,
matters. again, the agency is often able to negotiate a       the FTc’s responsibilities include taking action to
consent agreement with the parties that remedies the          help shape the development of the antitrust laws. To
problem without need for litigation.                          fulfill this duty, the agency inevitably must bring cases
in both merger and nonmerger matters, thorough                that pose litigation risks, especially where there is no
investigation and sophisticated legal and economic            clear precedent and the FTc is seeking to establish
analysis are of critical importance to ensure accurate        a new legal principle. The FTc also helps consumers
assessment of the potential for competitive harm              by bringing cases to clarify, or improve upon, existing
resulting from the transaction or conduct in question         precedent. The target for the key Performance Measure
and, if necessary, demonstrate the likelihood of harm         2.2.1 reflects the reality that, even when the agency
before an adjudicative body. When the FTc concludes           brings a meritorious case and litigates it well, success
that the likelihood of such harm indicates a law              is not ensured. in addition, setting the standard too
violation, and no settlement is possible, the commission      high could be detrimental if the effect were to deter the
authorizes its staff to litigate the matter. The frequency    agency from bringing important, but risky, cases.
with which the agency prevails in litigation or secures
a consent order to restore competition is an important
indicator of its success in producing tangible benefits for
consumers. This is not to say that the FTc, or any law
enforcement agency, should win every case.


    What is Antitrust?


                                                          The word “antitrust” dates from
                                                          the late 1800s, when powerful
                                                          companies dominated industries,
                                                          working together as “trusts” to
                                                          stifle competition. Thus, laws
                                                          aimed at protecting competition
                                                          have long been labeled “antitrust
                                                          laws.” Fast forward to the 21st
                                                          century: You hear “antitrust” in
                                                          news stories about competitors
                                                          merging or companies conspiring
                                                          to reduce competition. The
                                                          FTc enforces antitrust laws by
     challenging business practices that could hurt consumers by resulting in higher prices,
     lower quality, or fewer goods or services.
                                                                                                              Fiscal Year
                                                                                                                 2009        61
                      Performance Results
performance section


                      The key performance measure (Performance Measure                          savings targets (Performance Measures 2.2.5 and 2.2.6)
                      2.2.1) under this objective tracks how many times                         are each expressed in terms of an aggregate target for
                      the FTc obtained a positive result in matters where                       the five-year strategic Plan period, using annual targets
                      the agency had reason to believe that a merger or a                       as gauges of progress toward the five-year target. This
                      course of conduct was anticompetitive. additionally,                      is also a result of the fact that duration of nonmerger
                      for both merger and nonmerger enforcement, the                            investigations is often measured in years.
                      FTc measures the volume of commerce and estimates
                                                                                                in addition to measuring consumer savings in
                      consumer savings in markets in which it takes successful
                                                                                                absolute terms, the agency uses efficiency measures
                      enforcement action as an indicator of the scope of the
                                                                                                that state the FTc will try to save consumers more
                      FTc’s antitrust enforcement activities. external factors,
                                                                                                than the amount of agency resources allocated to
                      such as level of merger activity, may cause the results to
                                                                                                the merger and nonmerger programs (Performance
                      fluctuate significantly from year to year. consequently,
                                                                                                Measures 2.2.6 and 2.2.7).
                      the two volume-of-commerce targets (Performance
                      Measures 2.2.2 and 2.2.3) and the two consumer




                                Key Measure: Performance Measure 2.2.1
                       Positive result of cases brought by the FTc due to alleged violations.

                                 2005                         2006                        2007                       2008                         2009
                         Target         actual        Target       actual         Target        actual       Target         actual        Target         actual
                           80%           95%          60–80%         100%           80%          100%          80%            96%           80%            96%
                       Data source: information on the result of cases brought by the FTc due to alleged violations is obtained from FTc press releases,
                       agency databases, and internal communications from staff attorneys. Press releases are the source of information for public actions,
                       such as consent orders and preliminary and permanent injunctions and the results of judicial review, while internal communications are
                       used to identify those investigations that were closed because parties abandoned or restructured a transaction.
                       Target exceeded. The agency exceeded its target, achieving relief through litigation, reaching a successful settlement agreement, or
                       persuading parties not to proceed with an anticompetitive acquisition in 25 out of 26, or 96 percent, of enforcement matters brought to
                       conclusion during the fiscal year. The FY 2009 actual results do not include cases that were not final as of september 30, 2009, or are on
                       appeal. at the end of FY 2009, litigation was pending for six significant matters. The outcome of these matters will be reflected in the
                       actual results reported in appropriate future fiscal years. Positive results include:

                         • The parties’ abandonment of an anticompetitive transaction after antitrust concerns are identified
                         • an administrative consent agreement to resolve antitrust concerns
                         • a successful challenge in court




62                    Federal Trade Commission
                      Performance and Accountability Report
                                                                                                                                                  performance section
Performance Measure 2.2.2
achieve savings for consumers through merger enforcement. The five-year target for consumer savings in markets in which the agency took
successful action to stop anticompetitive mergers is $2.5 billion, or $500 million per year. (Dollars shown in millions)

           2005                         2006                         2007                         2008                         2009
  Target        actual         Target        actual        Target        actual         Target           actual       Target          actual
    n/a            n/a           n/a           n/a           $500           $805          $500            $360         $500            $791
Data source: estimates of consumer savings associated with merger positive results are prepared by the lead attorney responsible for
an individual investigation, and subsequently subject to review by staff economists. in the absence of case specific information (such as
price and sales data), the estimate is generated using the volume of commerce in the affected markets as a basis for the calculation.
Target exceeded. in FY 2009, the FTc surpassed the annual objective, saving consumers an estimated $791 million. Furthermore,
considering the results obtained in the previous two years of the five-years covered by this measure, it appears that the agency is on track to
exceed the overall, long term, target.




Performance Measure 2.2.3
Take action against mergers likely to harm competition in markets with a total of at least $125 billion in sales over a five-year period;
$25 billion in sales each year. (Dollars shown in billions)

           2005                         2006                         2007                         2008                         2009
  Target          actual       Target        actual        Target        actual         Target           actual       Target          actual
   $40.0          $61.8         $40.0          $13.4         $25.0          $42.6         $25.0           $14.9        $25.0          $22.3
Data source: estimates of the volume of commerce associated with merger positive results are prepared by the lead attorney
responsible for an individual investigation, and subsequently subject to review by staff economists. The estimate is generated
using the volume of commerce for the affected markets using public sources and confidential data submitted by the parties
during the course of the investigations.
Target not Met. The FTc’s positive merger results affected markets in which the total estimated volume of commerce was more than
$22 billion, 11 percent shy of the annual target. However, after the first three of the five years covered by this performance measure, the
agency has taken action against anticompetitive mergers in markets with a total of around $80 billion, and is thus currently on pace to
exceed its five-year target. During FY 2009, the FTc obtained positive results in 17 merger matters, resulting in nine consent agreements,
three transactions that were abandoned based on the antitrust concerns raised by staff during the course of the investigation, and five
transactions that were abandoned after staff was authorized by the commission to file a preliminary injunction complaint. in the case
of consent agreements, the actions taken by the FTc consist primarily of structural remedies, accompanied in some cases by conditions
restricting the future conduct of the merged entity. in eight out of the nine consent agreements stipulated in FY 2009, the parties agreed
to divest certain crucial assets to resolve the competitive concerns raised by the commission.




                                                                                                                                   Fiscal Year
                                                                                                                                      2009        63
performance section


                      Performance Measure 2.2.4
                      achieve savings for consumers through nonmerger enforcement. The five-year target for consumer savings in markets in which the agency
                      took successful action to stop anticompetitive conduct is $400 million, or $80 million per year. (Dollars shown in millions)

                                  2005                         2006                         2007                         2008                          2009
                         Target        actual         Target        actual         Target        actual         Target          actual        Target          actual
                           n/a           n/a            n/a           n/a           $80          $75          $80            $28             $80          $188
                       Data source: estimates of consumer savings associated with nonmerger positive results are prepared by the lead attorney responsible for
                       an individual investigation, and subsequently subject to review by staff economists. in the absence of case specific information (such as
                       price and sales data), the estimate is generated using the volume of commerce in the affected markets as a basis for the calculation.
                       Target exceeded. During FY 2009, the FTc exceeded the annual target of $80 billion, obtaining approximately $188 million in estimated
                       consumer savings, and seems to be on target to reach the overall, five-year, goal. During the first three years covered by this five-year target,
                       the agency has obtained just over $291 million out of the overall goal of $400 million, or around 73 percent of the total.




                      Performance Measure 2.2.5
                      Take action against anticompetitive conduct in markets with a total of at least $40 billion in annual sales over a five-year period; $8 billion
                      each year. (Dollars shown in billions)

                                  2005                         2006                         2007                         2008                          2009
                         Target          actual       Target        actual         Target        actual         Target          actual        Target          actual
                          $20.0          $19.4         $20.0           $1.4          $8.0          $2.6           $8.0           $0.4           $8.0           $14.6
                      Data source: estimates of the volume of commerce associated with nonmerger positive results are prepared by the lead attorney
                      responsible for an individual investigation, and subsequently subject to review by staff economists. The estimate is generated using the
                      volume of commerce for the affected markets using public sources and confidential data submitted by the parties during the course of
                      the investigations.
                      Target exceeded. in FY 2009, the FTc obtained positive results in nonmerger matters in markets where the total volume of commerce
                      was $14.6 billion, almost twice the annual target of $8 billion. coupled with the results obtained in FYs 2007 and 2008, which were
                      under the yearly target, the results would seem to suggest that the agency may not be on track to reach the five-year goal. However,
                      given the degree to which this measure has fluctuated historically, it is not possible to predict with accuracy if the overall long-term goal
                      will be met. During FY 2009, the FTc obtained a positive result in seven nonmerger matters, resulting in an equal number of consent
                      agreements that imposed remedies that resolved the concerns raised by the agency. at a general level, the principal effect of the actions
                      taken by the FTc is to prevent the parties involved from persevering in their anticompetitive conduct, and to thus generate savings for
                      consumers.




64                    Federal Trade Commission
                      Performance and Accountability Report
                                                                                                                                                 performance section
Performance Measure 2.2.6
save consumers at least six times the amount of agency resources allocated to the merger program over a five-year period. (efficiency
Measure)

          2005                         2006                        2007                         2008                          2009
  Target         actual        Target         actual       Target        actual         Target          actual       Target         actual
    n/a           n/a            n/a           n/a          600%         2,500%           600%          1,121%         600%         2,132%
Data source: The ratio of consumer savings in merger enforcement actions to the amount of resources allocated to the merger program
is calculated using data on consumer savings obtained under Performance Measure 2.2.2, divided into the amount of monetary
resources expended on the merger program as reported by the FTc’s Financial Management office.
Target exceeded. During FY 2009, the agency saved consumers approximately 21 times the amount of resources devoted to the merger
program. This result is in large part determined by the presence of several pharmaceutical cases, which involved significantly sized relevant
product markets. We will continue to monitor and reassess the target moving forward




Performance Measure 2.2.7
save consumers at least four times the amount of agency resources allocated to the nonmerger enforcement program over a five-year
period. (efficiency Measure)

          2005                         2006                        2007                          2008                         2009
  Target         actual        Target        actual        Target        actual          Target         actual       Target         actual
    n/a             n/a          n/a           n/a          400%          424%            400%           164%          400%         1,035%
Data source: The ratio of consumer savings in nonmerger enforcement actions to the amount of resources allocated to the merger
program is calculated using data on consumer savings obtained under Performance Measure 2.2.4, divided into the amount of
monetary resources expended on the nonmerger program as reported by the FTc’s Financial Management office.
Target exceeded. During FY 2009, the FTc took enforcement action in seven nonmerger matters, saving consumers approximately 10
times the amount of monetary resources expended on the nonmerger program. in this case the agency’s result is in large part driven by the
presence of a single case involving a national trade association, with more than 9,000 members, that was investigated for having enabled
and encouraged the exchange of competitively sensitive price information among its members. Data from the first three years of the five-
year period suggest that the agency is likely to meet or exceed the overall target. This trend needs to be carefully monitored, however, given
the unpredictability of future nonmerger enforcement activity, specifically with regard to the size and scope of the relevant geographic and
product markets involved in each individual investigation, and thus to the amount of estimated consumer savings.




                                                                                                                                  Fiscal Year
                                                                                                                                     2009        65
                      Objective 2.3 Prevent consumer injury
performance section


                      through education.
                      in addition to its law enforcement activity,              in its complaints, “analyses to aid Public comment,”
                      the FTc provides substantial information to               and press releases, the agency explains the relevant
                      the business community and consumers a                    facts and issues of cases in which it files complaints or
                      bout the role of the antitrust laws and                   obtains consent orders, so the nature of the competitive
                      businesses’ obligations under those laws.                 problems is clear. each successful enforcement action
                                                                                not only promotes competition in one or more relevant
                      Our Strategy                                              markets, but also serves to communicate to the business
                      The FTc uses education and outreach to increase           and legal communities that the FTc can and will take
                      business compliance, which helps prevent consumer         action to challenge similar transactions or conduct in
                      injury, and augment its law enforcement efforts. The      the future. This information greatly facilitates antitrust
                      agency pursues this strategy through guidance to the      lawyers’ counseling of their clients and prevents many
                      business community; outreach efforts to federal, state,   anticompetitive mergers from being proposed or
                      and local agencies, business groups, and consumers;       anticompetitive practices from being implemented.
                      development and publication of antitrust guidelines,
                                                                                in addition, the FTc educates the public through
                      policy statements, and reports; and speeches and
                                                                                guidelines, congressional or other types of testimony,
                      testimony. By using these mechanisms to signal its
                                                                                conferences, hearings, and workshops (such as the
                      enforcement policies and priorities, the FTc seeks
                                                                                series of conferences on health care related issues or the
                      to deter would-be violators of the antitrust laws.




                          FTC Competition Enforcement Database



                                                                                             This new resource catalogs the
                                                                                             agency’s competition enforcement
                                                                                             actions from 1996 to the present
                                                                                             by the type of violation (merger
                                                                                             or nonmerger), action (consent
                                                                                             order, injunction, or administrative
                                                                                             complaint), industry, sector, and date.

                                                                                             Using these navigation categories,
                                                                                             consumers and businesses can
                                                                                             access individual reports containing
                                                                                             short descriptions of each action,
                                                                                             with click-through access to related
                                                                                             documents, such as press releases and
                                                                                             case filings. To learn more, visit
                                                                                             www.ftc.gov/bc/caselist/index.shtml.


66
                                                                                                                          performance section
workshop on unilateral effects analysis and intellectual    The agency also participates as an amicus curiae (friend
property rights); advisory opinions (addressing, for        of the court) in judicial proceedings when substantial
example, the proposed clinical integration program          questions of antitrust law or competition policy are
between a physician-hospital organization and health        involved, especially when the FTc may add a different
plans and self-insured employers); and reports (such        perspective to the deliberations because of its specialized
as the reports on activities in the oil and natural gas     knowledge or experience.
industries, the development of markets for follow-
                                                            Finally, in an effort to continue educating consumers
on biologic drugs, and the short-term and long-term
                                                            and businesses on the important role of competition
effects of “authorized generics” on competition in the
                                                            in providing the most valuable and efficient mix of
prescription drug marketplace).
                                                            price, choice, and innovation, in Fiscal Year 2009, the
as a complement to FTc enforcement activity, the            FTc implemented substantial changes to the agency’s
agency also advises, when asked, other federal and          maintaining competition web pages and continued
state government officials about the possible effects       to publish and disseminate reference and case-related
that various regulatory proposals may have in creating,     documents. The goal was to improve how topical
maintaining, or forestalling competitive markets. The       information, case materials, and reference documents
FTc has a long and distinguished history in this area.      are organized—in an effort to aid visitors in searching
The FTc advocates market-based solutions through the        and finding relevant information—and to continuously
publication of studies and reports, and participation in    update the growing body of reference material.
state and federal legislative and regulatory fora.




    You Are Here: Learning About The Economy



     This website takes kids to the virtual shopping mall where they find games and
     activities that let them experience advertising, competition, and the mission of the
     FTc. animated guides help kids navigate through fun activities with embedded
     lessons. To learn more, visit www.ftc.gov/youarehere.




                                                                                                            Fiscal Year
                                                                                                              2009        67
                      in FY 2009, the FTc published an updated version             and legal communities, and the public at large. These
performance section


                      of the Bureau of competition User’s Guide to provide         performance measures are good indicators of the flow of
                      the general public and practitioners with a roadmap of       information provided to the public.
                      how the Bureau of competition is organized and which
                                                                                   successful outreach and education efforts, as reflected
                      employees deal with individual sectors or specific issues.
                                                                                   by the above measures, will help consumers, because
                      The FTc continues to develop educational materials to
                                                                                   increased knowledge and understanding of the antitrust
                      help explain its work.
                                                                                   laws will help businesses stay in compliance. These
                      Performance Results                                          measures also will help ensure that the agency engages
                                                                                   in consumer, business, and international education that
                      The FTc uses two performance measures to assess its
                                                                                   advances the culture of competition, which enhances
                      performance in preventing consumer injury through
                                                                                   consumer welfare.
                      education. The key measure (Performance Measure
                      2.3.2) tracks the number of external print media, such       The results of these two measures indicate a significant
                      as newspapers, magazines, business and trade journals,       continued public interest in the FTc and its Maintain
                      and professional journals that publish articles that refer   competition strategic goal. in addition, the broad
                      to FTc competition activities, and the circulation           and increasing distribution of educational and policy
                      of the media that publish those articles. The second         materials through electronic channels represents
                      measure (Performance Measure 2.3.1) tracks the volume        important leveraging of the agency’s resources.
                      of traffic on the FTc website on antitrust-related
                      pages that are relevant to policymakers, the business




68                    Federal Trade Commission
                      Performance and Accountability Report
Performance Measure 2.3.1




                                                                                                                                                performance section
Quantify the number of “hits” on antitrust information on the FTc’s website. (numbers shown in millions.)

           2005                         2006                        2007                         2008                          2009
  Target          actual       Target        actual        Target        actual         Target          actual       Target         actual
    10.0           9.8           10.0          10.6          15.0           15.7          15.0           12.5          15.0           11.9
Data source: The number of hits on antitrust related pages on the FTc’s internet website is calculated using data generated by the
agency’s web tracker software. The raw data are run through a computer program that uses a logical algorithm to classify the majority
of the pages as pertaining to competition or not.
Target not Met. in FY 2007, the FTc identified a target of at least 15 million hits by extrapolating from information acquired in the
previous three fiscal years using web tracking software. in FY 2009 the FTc replaced that web tracking software with software that more
accurately monitors web traffic by, for example, filtering out hits generated by web crawlers. as a result, a comparison of the target, which
relied on over-inclusive hit numbers, with FY 2009 data gathered using the more accurate replacement software, suggests that the target
was not met, but the comparison is unsound to an unknown degree. The FTc has established a new target for this performance measure
in the updated strategic Plan, taking into account the improved tracking software, to better assess whether it is meeting its consumer and
business education objective.




        Key Measure: Performance Measure 2.3.2
Track (a) the number of times print media publish articles that refer to FTc competition activities and (B) the circulation of the media
that publish those articles.

           2005                         2006                         2007                        2008                          2009
  Target          actual       Target        actual        Target        actual          Target         actual      Target         actual
    n/a            n/a           n/a           n/a       establish      (a)2,982      (a)2,500        (a)1,858     (a)2,500      (a)1,569
                                                         Baseline       articles      articles        articles     articles      articles
                                                                        (B) 635       (B)establish    (B)397       (B)           (B)360
                                                                        million       Baseline        million      establish     million
                                                                                                                   Baseline



Data source: The data used to generate the results for this measure are extracted from the lexis/nexis “U.s. newspapers and
Magazines” database and are cross-referenced with circulation data obtained from public sources or directly from the publishers.
Target not Met. This performance measure tracks the number of external print media, such as newspapers, magazines, business and
trade journals, and professional journals that publish articles that refer to FTc competition activities, and the circulation of the media
that publish those articles. The print media that published articles covering the competition-related activities of the FTc encompasses
publications with varying degrees of territorial distribution (from local to national) and with circulations ranging from less than fifty
thousand to more than one million copies. it is difficult to assess the performance of the agency under this measure in light of the severe
decline experienced in the newspaper industry over the last year. This measure has been removed from the latest strategic Plan.




                                                                                                                                  Fiscal Year
                                                                                                                                      2009      69
                      Objective 2.4 Enhance consumer welfare through
performance section


                      research, reports, advocacy, and international
                      cooperation and exchange.                                      response to changing marketplace conditions. The
                      as a complement to its activities aimed at preventing          information gained through this authority, combined
                      consumer injury through education, the FTc provides            with the agency’s professional expertise on competition
                      substantial information to the business community,             issues, also contributes to a better understanding of
                      policymakers, and consumers about the role of the              business practices and their competitive and economic
                      antitrust laws and businesses’ obligations under those laws.   implications by various entities, including the business
                      Our Strategy                                                   sector, the legal community, other enforcement
                                                                                     authorities, the judiciary, foreign competition agencies,
                      The FTc has unique jurisdiction to gather, analyze, and
                                                                                     and governmental decision makers and policymakers at
                      make public certain information concerning the nature
                                                                                     the federal, state, and local levels.
                      of competition as it affects U.s. commerce. The FTc
                      uses that authority to hold public hearings, convene           The FTc pursues its objective of enhancing consumer
                      conferences and workshops, conduct economic studies            welfare by actively developing its international
                      on competition issues of significant public importance,        cooperation and exchange program. staff members
                      and issue reports of its findings. This authority              regularly participate in dialogue with competition
                      advances the competition mission in numerous                   authorities of other countries and through international
                      ways and is a fundamental component in the FTc’s               organizations on transnational competition issues that
                      strategy to enhance consumer welfare. The agency               affect american consumers and businesses and that
                      uses the information it develops internally to refine          promote sound consumer welfare-based competition
                      the theoretical framework for analyzing competition            policy. Part of this program includes participating in
                      issues and the empirical understanding of industry             technical assistance missions to countries with new
                      practices, which contributes substantially to an effective     competition regimes.



                           The Competitive Significance of Healthcare Provider Quality Information




                                                                                     Follow-on Biologic Drugs: Framework for
                                                                                     competition and continued innovation

                                                                                The Federal Trade commission hosted two
                                                                                roundtables this year on emerging health care
                                                                                competition and consumer issues focusing on
                                                                                two distinct areas in which competition and
                                                                                consumer protection policies are implicated:
                                                                                competition among health care providers based on
                                                                                quality information; and competition provided by
                            developing an abbreviated regulatory approval pathway for follow-on biologic drugs. To learn more, visit
                            www.ftc.gov/bc/workshops/hcbio/index.shtml.




70                    Fe
                                                                                                                                                   performance section
Performance Results
The key measures used to gauge the FTc’s success under                     These measures, in conjunction with Performance
this objective are the ones relating to the publication of                 Measures 2.4.1, 2.4.4, 2.4.5, and 2.4.6, help to ensure
reports and studies on competition issues (Performance                     that the agency is engaging in appropriate types and
Measure 2.4.2), making advocacy filings (Performance                       sufficient levels of research, reports, advocacy, and
Measure 2.4.3), and international cooperation and                          international cooperation and exchange and that they
exchange (Performance Measure 2.4.7).                                      are relevant to consumers, policymakers, businesses, and
                                                                           the legal community. The target for these measures sets
                                                                           a minimum level of activity that the agency is expected
                                                                           to achieve.


 Performance Measure 2.4.1
 convene or participate substantially in workshops, conferences, seminars, and hearings involving significant competition-related issues.
 The target is for the FTc to convene or participate substantially in at least 20 conferences, workshops, or hearings that are related to
 significant competition issues over a five-year period, or at least four per year.

            2005                         2006                       2007                          2008                          2009
    Target         actual        Target       actual         Target        actual         Target         actual         Target         actual
     n/a             n/a           n/a           n/a            4              7              4              5             4               8
 Data source: information on conferences involving significant competition related issues is taken from the FTc website
 (www.ftc.gov/ftc/workshops.shtm).
 Target exceeded. During FY 2009, the FTc held eight conferences on competition-related topics, including health care, premerger
 notification, unilateral effects, and intellectual property.




          Key Measure: Performance Measure 2.4.2
 issue studies, reports, and working or issues papers on significant competition-related issues. The target is for the FTc to issue at least 40
 studies, reports, and working papers or issues papers on significant competition-related issues over a five-year period, or at least eight such
 reports per year.

            2005                         2006                        2007                         2008                          2009
    Target         actual        Target        actual        Target        actual         Target         actual         Target         actual
      n/a            n/a           n/a           n/a            8             18              8              7              8             20
 Data source: information on studies and reports on significant competition-related issues is taken from the FTc website
 (www.ftc.gov/be/research.shtm and www.ftc.gov/reports/index.shtm).
 Target exceeded. in FY 2009, the FTc issued a total of 20 reports on competition-related matters, thus exceeding the annual target.




                                                                                                                                     Fiscal Year
                                                                                                                                       2009        71
performance section


                                 Key Measure: Performance Measure 2.4.3
                       Make advocacy filings with other federal and state government agencies urging them to assess the competitive ramifications and costs
                       and benefits to consumers of their policies. The target is for the FTc to make at least 30 advocacy filings with other state and federal
                       government agencies urging them to assess the competitive impact of their policies over a five-year period, or six per year.

                                 2005                         2006                         2007                         2008                          2009
                         Target         actual        Target        actual         Target        actual          Target         actual         Target        actual
                           n/a            n/a           n/a            n/a             6            11              6              12             6              10
                       Data source: information on competition-related advocacy filings is drawn from the FTc website
                       (www.ftc.gov/opp/advocacy_date.shtm).
                       Target exceeded. in FY 2009, the FTc made 10 advocacy filings, thus exceeding the annual target of six filings.




                       Performance Measure 2.4.4
                       issue advisory opinions to persons seeking agency review of proposed business actions. The target is for the FTc to issue 12 advisory
                       opinions over the five-year period, or at least two or three per year.

                                 2005                         2006                         2007                         2008                          2009
                         Target        actual         Target        actual         Target        actual         Target         actual         Target         actual
                           n/a           n/a            n/a           n/a            2–3             2            2–3              1            2–3              1
                       Data source: information on competition-related advisory opinions is drawn from the FTc website
                       (www.ftc.gov/ftc/opinions.shtm).
                       Target not Met. The FTc responded to only one request for an advisory opinion, which was from a physician hospital organization, and
                       thus did not meet its annual target. The FTc’s performance under this goal is necessarily constrained by the fact that requests for advisory
                       opinions are generated by private parties. changes in the regulatory framework of specific industries or even developments in the business
                       models adopted by private parties—events over which the FTc has relatively little control—could generate unexpected spikes in requests
                       for advisory opinions. as a result, the agency will not continue this measure in the latest strategic Plan.




                       Performance Measure 2.4.5
                       File amicus briefs with courts addressing competition-related issues. The target is for the FTc to file at least 12 amicus briefs with courts
                       addressing competition-related issues in the five-year period, or at least two to three per year.

                                 2005                         2006                         2007                         2008                          2009
                         Target        actual         Target        actual         Target        actual         Target         actual         Target         actual
                           n/a           n/a            n/a           n/a           2–3              4            2–3              1            2–3              2
                       Data source: information on amicus briefs addressing competition-related issues is drawn from the FTc website
                       (www.ftc.gov/ogc/briefs.shtm).
                       Target Met. in FY 2009, the FTc met the annual target set by the strategic Plan, filing two amicus briefs.




72                    Federal Trade Commission
                      Performance and Accountability Report
                                                                                                                                               performance section
Performance Measure 2.4.6
Track the volume of traffic on www.ftc.gov relating to competition research, reports, advocacy, and international cooperation and
exchange. (numbers shown in millions.)

          2005                        2006                          2007                       2008                         2009
  Target         actual       Target        actual       Target        actual          Target         actual        Target         actual
    n/a           n/a           n/a           n/a           1.1            1.1           1.1            1.2           1.1            1.6
 Data source: The number of hits on the FTc website relating to competition research, reports, and advocacy is calculated using data
 generated by the agency’s web tracker software.
 Target exceeded. This performance measure relates to the volume of traffic on FTc web pages that relate to competition research,
 reports, advocacy, and international cooperation. in FY 2009, there were approximately 1.6 million visits that met the criteria set by
 this measure, and the target was exceeded.




          Key Measure: Performance Measure 2.4.7
Track the number of (a) cases on which the FTc cooperated with foreign competition authorities, (B) consultations with or comments
to foreign competition authorities, (c) written submissions to international fora, (D) international events attended, and (e) leadership
positions held by FTc staff in international competition organizations.

          2005                        2006                          2007                       2008                         2009
  Target         actual       Target        actual       Target        actual          Target         actual        Target         actual
                                                                      (a) 61         (a) 30         (a) 79        (a) 30         (a) 87
                                                                      (B) 70         (B) 25         (B) 89        (B) 25         (B) 56
                                                        establish
    n/a           n/a           n/a           n/a                     (c) 19         (c) 7          (c) 30        (c) 7          (c) 19
                                                        Baseline
                                                                      (D) 48         (D) 8          (D) 68        (D) 8          (D) 125
                                                                      (e) 8          (e) 5          (e) 9         (e) 5          (e) 10
Data source: information on the international activities of the FTc is produced by the agency’s office of international affairs.
Target exceeded. The third key performance measure under this objective relates to international cooperation and convergence in the field
of competition enforcement and policy development. Based on the experience accumulated over recent years in the area of international
cooperation, the agency set preliminary targets for this measure; however, recent trends in the level of activity suggest that these targets
should be revised upwards. The FTc continues to receive more requests to participate in these productive international consultations and
more and more FTc cases have international components benefiting from international cooperation. indeed, during FY 2009, the FTc
substantially exceeded the targets. agency staff cooperated with foreign competition authorities in 87 instances, provided 56 consultations
or comments to foreign competition authorities, presented 19 submissions to international fora, attended 125 international events, and
held 10 leadership positions in international organizations. This measure was modified in the latest strategic Plan.




                                                                                                                                 Fiscal Year
                                                                                                                                    2009       73
performance section


                          International Fellows Program



                                                                                              The U.s. saFe WeB act of 2006 provides for
                                                                                              foreign staff exchanges between the FTc and
                                                                                              foreign government agencies. Using this authority,
                                                                                              the FTc has established an international Fellows
                                                                                              Program for mid-career attorneys, investigators,
                                                                                              and economists to work with FTc staff as special
                                                                                              FTc employees for three to six months. Fellows
                                                                                              work on FTc matters alongside agency staff. They
                                                                                              learn first-hand about the FTc’s enforcement
                                                                                              practices and approaches and share their own
                                                                                              insights. so far, sixteen Fellows have come to the
                                                                                              FTc from agencies in argentina, australia, Brazil,
                                                                                              canada, the european commission, Hungary,
                                                                                              israel, Mexico, Poland, singapore, switzerland,
                                                                                              and Turkey. additionally the FTc has hosted five
                                                                                              colleagues from austria, egypt, israel, and Turkey
                                                                                              for shorter internships. To learn more, visit
                                                                                              www.ftc.gov/oia/safeweb.shtm.




                       resources Utilized—strategic Goal 2
                       (Dollars shown in millions)
                                                                 2005                2006                 2007                2008        2009
                       Full-Time equivalents                      470                  457                 489                 502          509
                       obligations                                $86                  $86                 $94                 $103        $113
                       net cost                                   ($16)               ($23)               ($47)                $     2     $ 68
                       note: Differences between these obligations and net costs and the financial statements are due to rounding.




74                    Federal Trade Commission
                      Performance and Accountability Report
Financial Section




                           financial section




                     FY
                    2009   75
                                                                                                                   steven a. Fisher
                    Message from the
financial section


                                                                                                                   chief Financial officer

                    Chief Financial
                    Officer

                    i
                         am pleased to report that in Fiscal Year (FY) 2009,    We achieved these successes during a year characterized
                         the Federal Trade commission (FTc) maintained          by change across the federal government and at
                         its record of strong fiscal stewardship on behalf of   the FTc. The new White House administration
                    the american people. For the 13th consecutive year,         and leadership transition at the FTc brought new
                    independent auditors gave us an unqualified (clean)         government-wide mandates and shifts in programmatic
                    opinion on our financial statements. our auditors           priorities. However, as our agency continues to
                    also stated for the controls they tested, they found no     demonstrate, we stand prepared to face change with
                    material weaknesses, significant control deficiencies, or   flexibility and innovation, but our commitment to
                    nonconformances with the Federal Managers’ Financial        good financial management and effective oversight
                    integrity act and other applicable laws and regulations.    holds steadfast. The Financial section of this report
                    in addition to this key accomplishment, other notable       tangibly captures an aspect of this oversight by showing
                    successes over the past fiscal year include:                how financial resources were expended to achieve
                                                                                performance results and explaining our financial
                     • returning $69 million in redress funds to victims
                                                                                position as of september 30, 2009.
                       of fraud and scams following successful prosecution
                       of defendants that resulted in court-ordered             i am proud of the outstanding work the FTc
                       judgments or settlements.                                accomplishes every day for the benefit of american
                                                                                consumers. agency leadership and staff are committed
                     • adding an objective, in support of the agency’s
                                                                                to the agency mission, and, together we will continue
                       update to its strategic Plan, dedicated to financial
                                                                                fulfilling our commitments to the american people
                       and acquisition management, signaling the agency’s
                                                                                while successfully meeting future challenges.
                       dedication to being good trusted stewards of
                       taxpayer dollars.
                     • Paying 98 percent of all invoices received from
                       vendors on time.
                                                                                steven a. Fisher
                     • Maintaining an internal control environment              chief Financial officer
                       through developing and maintaining appropriate           november 13, 2009
                       guidance and training for all staff.
                     • sustaining a green rating from the Department
                       of the Treasury on the accuracy and timeliness of
                       financial reporting practices involving Fund Balance
                       with Treasury transactions.
                     • exceeding the government-wide goal to allocate
                       three percent of total contract dollars to companies
                       owned by service-disabled veterans.




76                  Federal Trade Commission
                    Performance and Accountability Report
              financial section




Fiscal Year
  2009        77
financial section




78                  Federal Trade Commission
                    Performance and Accountability Report
              financial section




Fiscal Year
  2009        79
financial section




80                  Federal Trade Commission
                    Performance and Accountability Report
              financial section




Fiscal Year
  2009        81
                    Principal Financial Statements
financial section




                    Federal trade commission
                    BALANCE SHEET
                    As of September 30, 2009 and 2008
                    (Dollars shown in thousands)
                                                                            2009         2008
                    assets (note 2):
                       intragovernmental:
                          Fund balance with Treasury (note 3)           $ 81,307     $ 86,792
                          investments (note 5)                              94,848       117,514
                          accounts receivable, net (note 6)                   141            48
                       Total intragovernmental                          176,296      204,354


                       cash and other monetary assets (note 4)              18,141       10,485
                       accounts receivable, net (note 6)                    55,564       87,982
                       General property and equipment, net (note 7)         15,473       15,098
                    total assets                                        $265,474     $317,919


                    liabilities:
                       intragovernmental:
                          accounts payable                              $     371    $       21
                          other (note 9)                                     2,265       17,028
                       Total intragovernmental                               2,636       17,049


                       accounts payable                                     12,879       15,591
                       accrued redress receivables due to claimants         55,496       87,800
                       redress collected but not yet disbursed              69,746       85,021
                       Divestiture fund due                                 45,542       45,485
                       other (note 9)                                       18,784       16,897
                    total liabilities (notes 8 and 9)                   205,083      267,843


                    net Position (note 1(r)):
                       cumulative results of operations - other funds       60,391       50,076
                    total net Position                                      60,391       50,076
                    total liabilities and net Position                  $265,474     $317,919




82                  Federal Trade Commission
                    Performance and Accountability Report
Federal trade commission




                                                                            financial section
STATEMENT OF NET COST
For the years ended September 30, 2009 and 2008
(Dollars shown in thousands)
                                                    2009         2008
costs by strategic goal:
  Protect consumers (Pc) strategic Goal:
    Gross costs (note 12)                         $147,232     $140,705
    less: earned revenue (note 13)                 (15,947)     (16,202)
    net Pc strategic goal costs                    131,285      124,503


  Maintain competition (Mc) strategic Goal:
    Gross costs (note 12)                          109,718      104,853
    less: earned revenue (note 13)                 (42,309)    (103,192)
    net Mc strategic goal costs                     67,409        1,661
net cost of operations                            $198,694     $126,164




                                                              Fiscal Year
                                                                2009        83
                    Federal trade commission
financial section


                    STATEMENT OF CHANGES IN NET POSITION
                    For the years ended September 30, 2009 and 2008
                    (Dollars shown in thousands)
                                                                          2009         2008
                    cumulative results of operations:
                       Beginning balance, adjusted                    $50,076      $72,603
                       Budgetary financing sources:
                          appropriations used                         201,359       96,226
                       other financing sources (non-exchange):
                          imputed financing                                7,650       7,411
                       total financing sources                        209,009      103,637
                       less: net cost of operations                   198,694      126,164
                       net change                                         10,315   (22,527)
                    total cumulative results of operations            $60,391      $50,076


                    unexpended appropriations:
                       Beginning balance, adjusted                    $        -   $       -
                       Budgetary Financing sources:
                          appropriations received                     201,359       96,226
                          less: appropriations used                   201,359       96,226
                          Total Budgetary Financing sources                    -           -
                    total unexpended appropriations                   $        -   $       -
                    net Position (note 1 (r))                         $60,391      $50,076




84                  Federal Trade Commission
                    Performance and Accountability Report
Federal trade commission




                                                                                       financial section
STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2009 and 2008
(Dollars shown in thousands)
                                                             2009          2008
Budgetary resources (note 15):
 Unobligated balance, brought forward, october 1:          $ 13,063      $ 11,068
 recoveries of prior year unpaid obligations                  3,067         1,322
 Budget authority:
    appropriation                                            201,359       96,226
    spending authority from offsetting collections
       earned
          collected                                           58,162      134,728
          change in receivables from Federal sources              94           25
    change in unfilled customer orders
       Without advance from Federal sources                     (24)           (53)
    Previously unavailable (note 1(h))                       15,357        28,561
 subtotal                                                   274,948       259,487

  Temporarily not available pursuant to public law                -        (15,357)
total Budgetary resources                                  $291,078      $256,520

status of Budgetary resources:
  obligations incurred (notes 1(h) and 14)
     Direct                                                $280,905      $243,186
     reimbursable                                               390           271
     subtotal                                               281,295       243,457
  Unobligated balance
     apportioned                                              8,126        13,063
     not available                                            1,657             -
total status of Budgetary resources                        $291,078      $256,520
change in obligated Balance:
 obligated balance, net
    Unpaid obligations, brought forward, october 1         $ 56,088      $ 44,815
    less: Uncollected customer payments from
       Federal sources, brought forward, october 1             (224)         (252)
    Total unpaid obligated balance, net                      55,864        44,563

  obligations incurred, net (notes 1(h) and 14)             281,295       243,457
  less: Gross outlays                                      (265,229)     (230,862)
  less: recoveries of prior year unpaid obligations          (3,067)        (1,322)
  change in uncollected customer payments from
     Federal sources (+/-)                                       (70)           28
  obligated balance, net, end of period
     Unpaid obligations                                      69,086        56,088
     Uncollected customer payments from Federal sources        (293)         (224)
     Total, unpaid obligated balance, net, end of period   $ 68,793      $ 55,864

net outlays:
 Gross outlays (notes 1(h) and 14)                         $265,229      $230,862
 less: offsetting collections                                (58,162)     (134,728)
 less: Distributed offsetting receipts                       (14,869)       (55,014)
net outlays                                                $ 192,198     $ 41,120




                                                                        Fiscal Year
                                                                          2009         85
                    Federal trade commission
financial section


                    STATEMENT OF CUSTODIAL ACTIVITY
                    For the years ended September 30, 2009 and 2008
                    (Dollars shown in thousands)
                                                                            Pc           mc      2009            2008
                    revenue activity (note 17):
                      sources of collections
                          Premerger filing fees (net of refunds)      $        -    $42,148      $42,148     $102,916
                          civil penalties and fines                       10,656         2,100    12,756         13,475
                          redress (note 18)                               14,698             -    14,698      101,859
                          other miscellaneous receipts                      172              -       172          4,586
                      Total cash collections                              25,526        44,248    69,774     222,836


                      accrual adjustments                                   (123)            -       (123)       (37,212)
                    total custodial revenue                           $25,403       $44,248      $69,651     $185,624


                    disposition of collections (note 17):
                      Transferred to others:
                          Treasury general fund                       $25,526       $ 2,100      $27,626     $ 68,674
                          Department of Justice                                -        57,072    57,072         87,559
                          other miscellaneous dispositions                     -             -          -        45,705
                      (increase) in amounts yet to be transferred           (123)   (14,924)     (15,047)        (16,314)
                    total disposition of collections                  $25,403       $44,248      $69,651     $185,624
                    net custodial activity (note 1 (f))               $        -    $        -   $      -    $         -




86                  Federal Trade Commission
                    Performance and Accountability Report
Notes to the Financial Statements




                                                                                                                         financial section
Note 1—Summary of Significant                               distribution to approved claimants. These funds are
Accounting Policies                                         considered non-entity and are reported as such on the
(a) Basis of Accounting                                     Balance sheet.
The Federal Trade commission (FTc) is an                    (b) Fund Accounting Structure
independent United states Government agency,                The FTc’s financial activities are accounted for
established by the Federal Trade commission act of          using various funds (i.e., Treasury account symbols
1914. The FTc enforces a variety of federal antitrust       (Tas)). They include the following for which the FTc
and consumer protection laws. The agency is headed          maintains financial records:
by five commissioners, nominated by the President
                                                            GENERAL FUND Tas 29X0100 consists of a
and confirmed by the senate, each serving a seven-year
                                                            salaries and expense appropriation used to fund
term. The President chooses one commissioner to act as
                                                            agency operations and capital expenditures. offsetting
chairman. no more than three commissioners can be
                                                            collections received during the year are also recorded in
of the same political party.
                                                            the general fund. (see note 13 exchange revenues.)
The FTc has three major bureaus: The Bureau of
                                                            DEPOSIT FUND Tas 29X6013 consists of monies
consumer Protection (BcP), which supports the
                                                            held temporarily by the FTc as an agent for others
strategic goal of protecting consumers, the Bureau of
                                                            (e.g. redress funds) prior to distribution through the
competition (Bc), which supports the strategic goal of
                                                            consumer redress program.
maintaining competition, and the Bureau of economics
(Be), which supports both bureaus and strategic goals.      SUSPENSE FUND Tas 29F3875 consists of
additionally, various offices provide mission support       premerger filing fees collected by the FTc under the
functions and services.                                     Hart-scott-rodino antitrust improvement act of 1976
                                                            (Hsr) that are distributed equally to the FTc as a
The majority of FTc staff is located in Washington
                                                            funding source and to the Department of Justice (DoJ).
Dc; however, the FTc’s regions cover seven geographic
                                                            (see note 1(s) revenue and other Financing sources.)
areas. The regional offices work with the BcP and Bc to
conduct investigations and litigation; provide advice to    MISCELLANEOUS RECEIPT ACCOUNTS
state and local officials on the competitive implications   Tas 29 1040 and Tas 29 3220 consist of civil
of proposed actions; recommend cases; provide local         penalties, redress disgorgements to the Treasury and
outreach services to consumers and business persons;        other miscellaneous receipts that by law are not retained
and coordinate activities with local, state, and regional   by the FTc. cash balances are automatically transferred
authorities. The regional offices frequently sponsor        to the general fund of the Treasury at the end of each
conferences for small businesses, local authorities, and    fiscal year.
consumer groups.
                                                            (c) Basis of Accounting
The financial statements and notes include the              The accompanying financial statements present the
accounts of all funds under the FTc’s control. as           financial position, net cost of operations, changes in net
further described throughout these notes, in addition       position, budgetary resources, and custodial activities of
to appropriations received for salaries and necessary       the FTc. as noted above, the FTc maintains a single
expenses, the FTc maintains control over funds that         fund to account for salaries and all necessary expenses.
are primarily comprised of proceeds derived from court      Further, there are no intra-entity transactions with
ordered judgments and settlements held for subsequent       any other fund (e.g. deposit fund) that would require



                                                                                                           Fiscal Year
                                                                                                              2009       87
                    eliminating entries to present consolidated statements.    The FTc changed its method of presentation for the
financial section


                    accordingly, the statements are not labeled consolidated   receipt, accounting, and disposition of collections
                    nor is the statement of Budgetary resources presented      received relative to redress and divestiture activities.
                    as combined. The financial statements have been            Previously, the FTc presented all consumer redress
                    prepared from the accounting records of the FTc on         and divestiture activity in the statement of custodial
                    an accrual basis, in conformity with generally accepted    activity (sca), in addition to the amount of Hsr
                    accounting principles (GaaP) of the United states of       premerger filing fees which the FTc collected on
                    america and with the form and content of financial         behalf of the DoJ. Beginning with FY 2009, relative to
                    statements specified by the office of Management and       redress and divestiture activities (see note 18 redress
                    Budget (oMB) circular a-136, Financial reporting           and Divestiture activities), the sca includes only the
                    requirements (as revised June 2009). GaaP for federal      amounts transferred to the Treasury’s general fund (i.e.,
                    entities incorporate the standards prescribed by the       disgorged). all other collection and redress activities are
                    Federal accounting standards advisory Board (FasaB).       disclosed in note 18 redress and Divestiture activities.
                                                                               The reporting of the undisbursed funds and receivable
                    (d) Use of Estimates
                                                                               balances as non-entity assets on the Balance sheet, with
                    The preparation of financial statements in conformity
                                                                               an offsetting non-entity liability, remains the same.
                    with GaaP requires management to make estimates
                                                                               as the current presentation reflects a change from
                    and assumptions that affect the reported amounts
                                                                               one that was acceptable to another that is a preferred
                    of assets and liabilities at the date of the financial
                                                                               presentation, the FY 2008 sca has not been restated.
                    statements and the reported amounts of revenues and
                                                                               However, FY 2008 amounts have been reclassified to
                    expenses during the reporting period. actual results
                                                                               align with the change in line item descriptions and
                    could differ from those estimates.
                                                                               revised presentation.
                    (e) Fiduciary Activities
                                                                               (g) Budget Authority
                    in FY 2009, the FasaB statement of Federal Financial
                                                                               congress passes appropriations annually that provide
                    accounting standard (sFFas) 31 Fiduciary activities
                                                                               the FTc with authority to obligate funds for necessary
                    became effective. The FTc evaluated its activities and
                                                                               expenses to carry out mandated program activities.
                    determined that none of them met the criteria in sFFas
                                                                               These funds are available until expended, subject to
                    31 to be classified as fiduciary activity.
                                                                               oMB apportionment and to congressional restrictions
                    (f) Changes in Presentation                                on the expenditure of funds. also, the FTc places
                    The FTc receives collections for consumer redress (i.e.,   internal restrictions on fund expenditures to ensure
                    redress) in connection with the settlement or litigation   the efficient and proper use of all funds. appropriated
                    of both its administrative proceedings and federal         funding is derived from various revenues and financing
                    court cases. The FTc attempts to distribute funds to       sources. The statement of Budgetary resources (sBr)
                    consumers whenever possible. if consumer redress is not    reflects the single general fund (i.e. Tas 29X0100) for
                    practical or the judgment does not require the assessed    which the FTc has budget authority.
                    penalty to be directed to consumers, the funds are
                                                                               (h) Premerger Fee Collections Reporting
                    paid (disgorged) to the general fund of the Treasury.
                                                                               During FY 2008, the FTc processed and recorded
                    The FTc also maintains one judgment (obtained by
                                                                               premerger fee collections in its salaries and expense
                    the FTc in support of its strategic goal to maintain
                                                                               (s&e) fund 29X0100. This business practice was a
                    competition) which stipulated the divestiture of assets
                                                                               deviation from FY 2007 and years prior. Previously
                    by the defendants into an interest-bearing account to
                                                                               the FTc would record premerger fee collections in
                    be monitored by the agency (hereafter referred to as
                                                                               its 29F3875 suspense account fund and then transfer
                    divestiture activity).




88                  Federal Trade Commission
                    Performance and Accountability Report
the FTc’s half of the collections to its s&e fund and      (k) Cash and Other Monetary Assets




                                                                                                                        financial section
transfer the other half to the DoJ.                        The FTc’s consumer redress agents process claims and
The Treasury’s Financial Management service                disburse redress proceeds to approved claimants. Upon
issued Bulletin no. 2007-07, suspense “F” account          approval of the redress office, amounts necessary to
Discontinuance and Waiver Policy, effective in FY          cover current disbursement schedules are held as cash
2008, which indicated that the F3875 and F3885             in interest bearing accounts. These funds are considered
suspense accounts be discontinued unless a waiver          non-entity assets and are reported on the Balance sheet
was approved. The FTc did not obtain a waiver, but         along with an offsetting non-entity liability.
processed the premerger fee collections during the         (l) Investments
year through its s&e fund. However, $15.3 million of       in protecting consumers, the FTc collects proceeds
undisbursed premerger collections due the DoJ that         from defendants in accordance with court ordered
resided in the FTc’s s&e fund at year-end gave the         judgments and settlement agreements for consumer
appearance of providing a budgetary resource. For FY       redress and holds these proceeds in the deposit fund
2008, this $15.3 million was reported as a budgetary       (Tas 29X6013) established with the Department of
resource, but was offset (restricted) by reporting an      the Treasury. The FTc also holds monies in its deposit
equal amount as temporarily not available pursuant to      fund in connection with a judgment that stipulates
public law, since the funds were not available for the     the divestiture of assets by the defendant. Under an
FTc’s use.                                                 agreement with the Department of the Treasury, the
in FY 2009, the $15.3 million was disbursed to the         portion of such judgments and settlements that are not
DoJ from the FTc’s s&e fund, thereby creating an           immediately needed for cash disbursements are invested
outlay. This outlay is included in the sBr, along with     in Treasury securities. These investments are considered
an offsetting previously unavailable budgetary resource.   non-entity assets and are reported on the Balance sheet
The FTc has since obtained a waiver to grant use of its    along with an offsetting non-entity liability.
29F3875 suspense fund and will incorporate it into the     (m) Accounts Receivable
business process that it previously used.                  entity accounts receivable consist of amounts due
(i) Entity/Non-entity Assets                               from other federal entities and from current and
assets that an agency is authorized to use in its          former employees and vendors. non-entity accounts
operations are entity assets. assets that an agency        receivable include uncollected civil monetary penalties
holds on behalf of another federal agency or a third       imposed as a result of the FTc’s enforcement activities
party and are not available for the agency’s use are       and uncollected redress judgments. These non-entity
non-entity assets.                                         accounts receivable are reported on the Balance sheet
                                                           along with an offsetting non-entity liability. Gross
(j) Fund Balance with Treasury                             receivables are reduced to net realizable value by an
The FTc’s Fund Balance with Treasury includes              allowance for uncollectible accounts. (see note 6
appropriated funds, deposit funds for subsequent           accounts receivable.)
disbursement to claimants, and premerger filing fees
awaiting disbursement to the DoJ. Funds are carried        (n) Accrued Liabilities and Accounts Payable
forward until such time as good or services are received   accrued liabilities and accounts payable represent a
and payment is made. all cash receipts are deposited       probable future outflow or other sacrifices of resources
with the Treasury and all disbursements for payroll        as a result of past transactions or events. liabilities
and vendor invoices are disbursed by the Department        are recognized when they are incurred, regardless
of the Treasury.                                           of whether they are covered by budgetary resources.
                                                           liabilities can not be liquidated without legislation that




                                                                                                          Fiscal Year
                                                                                                             2009       89
                    Pension expenses in FYs 2009 and 2008 consisted of the following (in thousands):
financial section



                                                                                                             2009                        2008
                                                                                             Total Pension expense       Total Pension expense
                       civil service retirement system                                                        $ 3,114                      $ 3,474
                       Federal employees retirement system                                                     11,802                       10,949
                       Thrift savings Plan                                                                      4,586                         4,276
                       total                                                                                  $19,502                      $18,699



                    provides the resources to do so. also, the government,                investment plan for employees covered by either csrs
                    acting in its sovereign capacity, can abrogate FTc                    or Fers. Participating employees may contribute any
                    liabilities (other than contracts). (see note 8 liabilities           dollar amount or percentage of basic salary to TsP,
                    not covered by Budgetary resources and note 9 other                   not to exceed an annual dollar amount of $16,500 for
                    liabilities.)                                                         2009. csrs participating employees do not receive a
                                                                                          matching contribution from the FTc. Fers employees
                    (o) Employee Health Benefits and Life Insurance
                                                                                          receive an agency automatic one percent contribution
                    FTc employees are eligible to participate in the
                                                                                          of gross pay to the TsP. The FTc also matches 100
                    contributory Federal employees Health Benefit Program
                                                                                          percent of the first three percent contributed and 50
                    (FeHBP) and the Federal employees Group life
                                                                                          percent of the next two percent contributed. such
                    insurance Program (FeGliP). The FTc contributes a
                                                                                          FTc contributions are recognized as current operating
                    percentage to each program to pay for current benefits.
                                                                                          expenses. although the FTc contributes a portion
                    (p) Employee Retirement Benefits                                      for pension benefits and makes the necessary payroll
                    FTc employees participate in either the civil service                 withholdings, it is not responsible for managing
                    retirement system (csrs) or the Federal employees                     contribution refunds, employee’s retirement benefits, or
                    retirement system (Fers). employees hired after                       the retirement plan assets. Therefore, the FTc financial
                    December 31, 1983, are covered by Fers and social                     statements do not report csrs and Fers assets,
                    security, while employees hired prior to January 1,                   accumulated plan benefits, or unfunded liabilities,
                    1984, may elect to either join Fers or remain in                      if any, which may be applicable to employees. such
                    csrs. approximately 15.6 percent of FTc employees                     reporting is the responsibility of the office of Personnel
                    participate in csrs. For employees participating                      Management (oPM). However, the FTc recognizes the
                    in csrs, the FTc contributes seven percent of the                     full cost of providing future pension benefits to covered
                    employee’s gross earnings to the csrs retirement                      employees at the time the employees’ services are
                    and Disability Fund. For employees participating                      rendered. oPM has provided the FTc with certain cost
                    in Fers, the FTc contributes 11.2 percent to the                      factors that estimate the true service cost of providing
                    Federal employees’ retirement Fund. employees                         the pension benefits to covered employees. During FYs
                    participating in Fers are covered under the Federal                   2009 and 2008, the cost factors used to arrive at the
                    insurance contributions act (Fica) for which the FTc                  service cost for csrs covered employees were 25.8
                    contributes a matching amount to the social security                  percent and 25.2 percent of basic pay, respectively.
                    administration. FTc contributions are recognized as                   During FYs 2009 and 2008, the cost factors for Fers
                    current operating expenses. The Thrift savings Plan                   covered employees were 12.3 and 12.0 percent of basic
                    (TsP) is a defined contribution retirement savings and                pay, respectively. The pension expense recognized in the




90                  Federal Trade Commission
                    Performance and Accountability Report
financial statements equals this service cost to covered     related to the Do-not-call (Dnc) implementation




                                                                                                                          financial section
employees less amounts contributed by these employees.       act. revenue is also recognized for services performed
if the pension expense exceeds the amount contributed        for other agencies through reimbursable agreements.
by the FTc as employer, the excess is recognized as          revenues from premerger and Dnc fees are recognized
an imputed financing cost. The excess total pension          when collected. all of the FTc’s offsetting collections
expense over the amount contributed by the agency            are exchange revenues. (see note 13 exchange
must be financed by oPM and is recognized as an              revenues.)
imputed financing source, non-exchange revenue.
                                                             in addition to exchange revenue, the FTc receives
(q) Other Post-Employment Benefits                           financing sources through direct appropriation from the
FTc employees eligible to participate in the FeHBP           general fund of the Treasury to support its operations.
and the FeGliP may continue to participate in these          a financing source, appropriations used, is recognized
programs after their retirement. The oPM has provided        to the extent these appropriated funds have been
the FTc with certain cost factors that estimate the true     consumed. The FTc received a financing source in
cost of providing the post-retirement benefit to current     the form of a direct appropriation that represented
employees. The FTc recognizes a current cost for these       approximately 69 percent of total revenues and
and other retirement Benefits (orB) at the time the          financing sources realized in FY 2009 and 40 percent
employee’s services are rendered. The orB expense is         in FY 2008.
financed by oPM, and offset by the FTc through the
                                                             (t) Methodology for Assigning Cost
recognition of an imputed financing source. During
                                                             Total costs are allocated to each strategic goal based
FYs ended 2009 and 2008, the cost factors relating
                                                             on two components: the direct costs charged to each
to FeHBP were $5,756 and $5,220, respectively, per
                                                             strategic goal and the indirect costs attributed to each
employee enrolled. During FYs 2009 and 2008, the cost
                                                             strategic goal, based on the percentage of direct full-
factor relating to FeGliP was 0.02 percent of basic pay
                                                             time equivalent (FTe) used by each strategic goal.
per employee enrolled.
(r) Net Position                                             Note 2—Non-entity Assets
cumulative results of operations represent the net results   non-entity Fund Balance with Treasury is comprised
of operations since inception, the cumulative amount of      of undisbursed premerger filing fees and deposits
prior period adjustments, the remaining book value of        held for the consumer redress program. investments
capitalized assets, and future funding requirements.         represent funds not required for current distribution
                                                             for consumer redress. cash and other Monetary assets
The portion of FTc’s budget authority that is funded by
                                                             consist of amounts on deposit with FTc distribution
a direct appropriation is fully expended during the year.
                                                             agents. accounts receivable represent amounts due from
Therefore, there is no unexpended appropriation balance
                                                             consumer redress judgments and civil penalties.
in net position at the end of the year. (see statement of
changes to net Position.)
(s) Revenues and Other Financing Sources
The FTc’s revenues are derived from spending
authority from offsetting collections and from direct
appropriation. spending authority from offsetting
collections is comprised of amounts received for services
performed under reimbursable agreements with other
federal agencies, collections of premerger fees under
the authority of the Hsr act, and collection of fees



                                                                                                            Fiscal Year
                                                                                                               2009       91
                    The following summarizes non-entity assets as of september 30, 2009 and 2008 (in thousands):
financial section



                                                                                                                     2009                 2008
                     intragovernmental
                       Fund balance with Treasury                                                                  $ 2,731              $ 2,507
                       investments                                                                                  94,848               117,514
                       Total intragovernmental                                                                       97,579              120,021


                       cash and other monetary assets                                                                18,141               10,485
                       accounts receivable, net                                                                     55,546                87,982
                     total non-entity assets                                                                       171,266               218,488
                     total entity assets                                                                            94,208                99,431
                     total assets                                                                                  $265,474             $317,919




                    Note 3—Fund Balance with Treasury
                    Fund balance includes appropriated funds, which are                   also includes non-entity funds arising from undisbursed
                    either unobligated, or obligated as an account payable or             Hsr filing fees due to the DoJ and collections of
                    undelivered order and not yet disbursed. Fund balance                 redress judgments not yet disbursed to claimants.

                    Fund Balance with Treasury consisted of the following as of september 30, 2009 and 2008 (in thousands):


                                                                                                                     2009                 2008
                     Fund Balances:
                       appropriated funds                                                                          $78,576               $84,285
                       suspense fund - undisbursed Hsr filing fees                                                     433                     -
                       Deposit funds - redress                                                                       2,298                 2,507
                     total                                                                                         $81,307               $86,792


                     status of Fund Balance with treasury
                       Unobligated balance
                          apportioned                                                                               $ 8,126              $13,063
                          Unavailable                                                                                 1,657                    -
                       Temporarily not available                                                                          -               15,357
                       obligated balance not yet disbursed                                                          68,793                55,865
                       non-Budgetary fund balance with Treasury
                          suspense fund - undisbursed Hsr filing fees                                                  433                     -
                          Deposit funds - redress                                                                    2,298                 2,507
                     total                                                                                         $81,307               $86,792




92                  Federal Trade Commission
                    Performance and Accountability Report
Note 4—Cash and Other                                                  Note 5—Investments




                                                                                                                                      financial section
Monetary Assets                                                        Funds not needed to cover immediate disbursements
in connection with the consumer redress program,                       for consumer redress are invested in Government
cash amounts necessary to cover current disbursement                   account series (Gas) securities under an agreement
schedules are held at financial institutions in interest               with the Bureau of Public Debt. Gas securities are
bearing accounts pursuant to court orders and are                      non-marketable, market-based Treasury securities that
reported as non-entity assets. a corresponding liability               are not traded on any securities exchange but mirror the
is recorded for these assets. The FTc’s consumer redress               prices of particular Treasury securities trading in the
agents process claims and disburse redress proceeds to                 government securities market. additionally, funds from
claimants upon approval of the redress office. (see note               one judgment where divesting of assets was required
18 redress and Divestiture activities.)                                to maintain competition have also been invested. (see
                                                                       note 18 redress and Divestiture activities.)
cash and other monetary assets consisted of the following as of
september 30, 2009 and 2008 (in thousands):


                                               2009         2008
 other monetary assets
   redress contractors                        $18,141     $10,485
   total other monetary assets                $18,141     $10,485

as of september 30, 2009, investments consisted of the following (in thousands):

                                                           Amortized                                                     Market
                                         Amortization      (Premium)        Interest        Investment       Other        Value
                             Cost          Method           Discount       Receivable          Net        Adjustments   Disclosure
 intragovernmental
 securities:
 non-Marketable:
    Market-Based             $94,848                                   -                -      $94,848              -      $94,848
 total                       $94,848                n/a                -                -     $94,848               -     $94,848



as of september 30, 2009, investments consisted of the following (in thousands):

                                                           Amortized                                                     Market
                                         Amortization      (Premium)        Interest        Investment       Other        Value
                             Cost          Method           Discount       Receivable          Net        Adjustments   Disclosure
 intragovernmental
 securities:
 non-Marketable:
    Market-Based             $117,514                                  -                -      $117,514             -     $117,514
 total                      $117,514                n/a                -                -     $117,514              -     $117,514




                                                                                                                        Fiscal Year
                                                                                                                           2009       93
                    Note 6—Accounts Receivable                                             from regulatory violations. in these circumstances,
financial section


                                                                                           historical experience and economic realities indicate that
                    opening accounts receivable balances reflect the
                                                                                           these types of claims are frequently not fully collectible.
                    Federal accounting standards advisory Board
                    (FasaB) standard for the recognition of losses using                   The method used to estimate the allowance for
                    the collection criterion of “more likely than not.” This               uncollectible receivables consists of individual case
                    criterion results in receivable balances that are more                 analysis by the attorney case manager with respect to the
                    conservatively stated than those valued by the private                 debtor’s ability and willingness to pay, the defendant’s
                    sector under generally accepted accounting principles.                 payment record, and the probable recovery amount
                    FasaB states that it is appropriate to recognize the                   including the value of the sale of assets. Based on the
                    nature of federal receivables, which, unlike trade                     aforementioned, cases are referred to the Treasury offset
                    accounts of private firms or loans made by banks, are                  Program for collection activities after the receivable
                    not created through credit screening procedures. rather,               becomes six months delinquent in payment.
                    these receivables arise because of the assessment of fines



                    accounts receivable consisted of the following as of september 30, 2009 and 2008 (in thousands):

                                                                                    Uncollectible
                                                            Receivables              Accounts                   2009 Net             2008 Net
                     entity accounts receivable:
                        intragovernmental                          $      141                $         -               $   141                $     48
                        With the Public                                    18                          -                    18                       -
                     total entity accounts
                     receivable                                    $      159                $         -               $   159                $     48


                     non-entity accounts
                     receivable:
                        accounts receivable
                           consumer redress                        $365,223                  $309,727                  $55,496                $87,800
                           civil penalties                             1,596                     1,546                     50                      173
                           other                                             -                         -                     -                       9
                     total non-entity
                     accounts receivable                           $366,819                  $311,273                  $55,546                $87,982




94                  Federal Trade Commission
                    Performance and Accountability Report
Note 7—General Property and                                            amounts reported as equipment are comprised mostly




                                                                                                                                      financial section
                                                                       of computer hardware and other building equipment.
Equipment, Net                                                         The FTc does not own buildings, but rather, in
FTc capitalizes property and equipment with an                         partnership with General services administration
initial cost of $100 thousand or greater and a useful                  (Gsa) leases both federally owned (by Gsa) and
life over two years. such assets are depreciated using                 commercial space. (see note 10 leases.) The leasehold
the straight-line method of depreciation with service                  improvements above consist of improvements made to
lives range from five to twenty years. leasehold                       the FTc headquarters building located in Washington
improvements that cost $100 thousand or greater are                    Dc (which is owned by the Gsa), and to FTc
capitalized and amortized over the remaining life of the               commercially leased space also located in
lease. additionally, internal use software development                 Washington Dc.
and acquisition costs of $100 thousand or greater are
capitalized as software development-in-progress until the              Depreciation expense was $2,416 and $4,786
development stage has been completed and the software                  thousand for FYs ending september 30, 2009 and
successfully tested. Upon completion and testing,                      2008, respectively, and is contained in the
software development-in-progress costs are reclassified                accumulated depreciation.
as internal use software costs and amortized using the
straight-line method over the estimated useful life of
three to five years. Purchased commercial software that
does not meet the capitalization criteria is expensed.




as of september 30, 2009, general property and equipment, net consisted of the following (in thousands):

             asset                         service                acquisition              accumulated                net
             class                          life                    Value                  depreciation            Book Value
 equipment                                       5–20 yrs.                  $ 8,089                   $ 7,026            $ 1,063
 leasehold improvements                         lease term                    13,419                       2,872          10,547
 software                                         3–5 yrs.                    10,683                       6,820              3,863
 total                                                                      $32,191                   $16,718            $15,473



as of september 30, 2008, general property and equipment, net consisted of the following (in thousands):

             asset                         service                acquisition              accumulated                net
             class                          life                    Value                  depreciation            Book Value
 equipment                                       5–20 yrs.                   $ 7,491                  $ 6,497             $     994
 leasehold improvements                         lease term                    11,297                       2,334              8,963
 software                                         3–5 yrs.                    10,612                       5,471              5,141
 total                                                                      $29,400                   $14,302            $15,098




                                                                                                                       Fiscal Year
                                                                                                                         2009         95
                    Note 8—Liabilities Not Covered by Budgetary Resources
financial section


                    intragovernmental liabilities and liabilities with the public not covered by budgetary resources
                    as of september 30, 2009 and 2008 are shown below (in thousands):


                                                                                                                           2009                  2008
                     intragovernmental:
                       Undisbursed premerger fees liability                                                            $     433              $ 15,357
                       civil penalty collections due to Treasury                                                              50                    173
                       Feca liability                                                                                        436                    361
                       other Unfunded employment related liability                                                            12                       -
                       Total intragovernmental liabilities not covered
                       by budgetary resources                                                                                931                 15,891


                     With the public:
                       Unfunded leave                                                                                       9,787                 9,058
                       actuarial Feca                                                                                       2,173                 1,925
                       redress collected not yet disbursed                                                                 69,746                85,021
                       Divestiture fund due                                                                                45,542                45,485
                       accrued redress receivables due to claimants                                                        55,496                87,800
                     total liabilities not covered by budgetary resources                                              $183,675                $245,180
                     total liabilities covered by budgetary resources                                                      21,408                22,663
                     total liabilities                                                                                 $205,083               $267,843




                    UNDISBURSED PREMERGER FEES LIABILITY                                      provided by Dol multiplied by the average of benefits
                    represents undisbursed filing fees collected under                        paid over three years.
                    the Hsr act of 1976, which are due to the DoJ in a
                                                                                              UNFUNDED LEAVE represents a liability for earned
                    subsequent period.
                                                                                              leave and is reduced when leave is taken. The balance in
                    CIVIL PENALTY COLLECTIONS DUE TO                                          the accrued annual leave account is reviewed quarterly
                    TREASURY represents the corresponding liability                           and adjusted as needed to accurately reflect the liability
                    relative to accounts receivable due for civil monetary                    at current pay rates and leave balances. accrued
                    penalties, which will be transferred to the general fund                  annual leave is paid from future funding sources and,
                    of the Treasury upon receipt.                                             accordingly, is reflected as a liability not covered by
                                                                                              budgetary resources. sick and other leave is expensed
                    FEDERAL EMPLOYEE’S COMPENSATION
                                                                                              as taken.
                    ACT (FECA) LIABILITY represents the unfunded
                    liability for workers compensation claims payable to the                  ACTUARIAL FECA represents the present value of
                    Department of labor (Dol) and an actuarial liability                      future workers compensation claims.
                    for future workers’ compensation claims. The actuarial
                                                                                              REDRESS COLLECTED NOT YET DISBURSED
                    liability is based on the liability to benefits paid ratio
                                                                                              represents a non-entity liability corresponding to




96                  Federal Trade Commission
                    Performance and Accountability Report
amounts reported as non-entity assets (including Fund                 pending divesture of assets pursuant to a court ordered




                                                                                                                                   financial section
Balance with Treasury, cash and other Monetary                        judgment. These funds are currently invested in
assets and investments for Tas 29X6013). These funds                  Treasury securities. (see note 5 investments.)
are held until distributed to consumers or returned to
                                                                      ACCRUED REDRESS RECEIVABLES DUE TO
Treasury through disgorgement.
                                                                      CLAIMANTS represents the contra account for
DIVESTITURE FUND DUE represents the                                   accounts receivable due from judgments obtained as a
corresponding liability offsetting the amount reported                result of the agency’s consumer redress litigation.
as non-entity assets (investments) held by the FTc

Note 9—Other Liabilities
The following summarizes other liabilities as of september 30, 2009 and 2008 (in thousands):

                                                                   2009                         2009             2009
                                                                non-current                    current           total
 intragovernmental:
    Feca liability                                                         $     436                $        -       $      436
    civil penalty collections due to Treasury                                       -                      50                50
    accrued benefits                                                                -                    1,346            1,346
    Undisbursed premerger fee liability                                             -                     433               433
    Total intragovernmental                                                      436                     1,829            2,265


 accrued leave                                                                      -                    9,787            9,787
 actuarial Feca                                                                 2,173                        -             2,173
 accrued salary                                                                     -                    6,824            6,824
 total other liabilities                                                    $2,609                  $18,440          $21,049



                                                                   2008                         2008             2008
                                                                non-current                    current           total
 intragovernmental:
    Feca liability                                                          $    361                $        -        $     361
    civil penalty collections due to Treasury                                     35                      138               173
    accrued benefits                                                                -                    1,137             1,137
    Undisbursed premerger fee liability                                             -                   15,357            15,357
    Total intragovernmental                                                      396                    16,632            17,028


 accrued leave                                                                      -                    9,058            9,058
 actuarial Feca                                                                 1,925                        -            1,925
 accrued salary                                                                     -                    5,914             5,914
 total other liabilities                                                    $2,321                  $31,604          $33,925




                                                                                                                   Fiscal Year
                                                                                                                      2009         97
                    Note 10—Leases                                                   Future minimum lease payments under leases of commercial
financial section


                                                                                     property due as of september 30, 2009 are as follows (in thousands):
                    leases of commercial property are made through and
                    managed by Gsa. The commission has leases on three
                    government-owned properties and eight commercial                  Fiscal year                           commercial leases
                    properties. The FTc’s current leases expire at various            2010                                                     $12,709
                    dates through 2019. Four leases provide for tenant                2011                                                      12,796
                    improvement allowances totaling approximately $3,811              2012                                                      10,844
                    thousand and provide that these costs be amortized                2013                                                        1,359
                    over the length of the leases. Under the terms of the             2014                                                       1,286
                    leases, the FTc agrees to reimburse the landlord for              Thereafter                                                  3,652
                    the principal balance of the unamortized portion of the
                                                                                      total Future minimum lease Payments                     $42,646
                    tenant improvement allowance in the event the agency
                    vacates the space before lease expiration. The FTc
                    rents approximately 582,000 square feet of space in
                    both commercial and government-owned properties for
                    use as offices, storage and parking. all FTc leases are
                    operating leases. rent expenditures for the years ended          Note 11—Commitments and
                    september 30, 2009 and 2008, were approximately                  Contingencies
                    $19,126 and $19,143 thousand, respectively.
                                                                                     The FTc is a party in various administrative
                    Future minimum lease payments due under leases of                proceedings, legal actions, and claims brought by or
                    government-owned property as of september 30, 2009,              against it. in the opinion of FTc management and
                    are as follows (in thousands):                                   legal counsel, the ultimate resolution of these
                                                                                     proceedings, actions, and claims, will not materially
                     Fiscal year                             government-owned        affect the financial position or the results of operations
                                                                Property leases      of the FTc.

                     2010                                                  $6,923    Note 12—Intragovernmental Costs
                     2011                                                   6,920    and Exchange Revenues
                     2012                                                    6,857   For ‘exchange revenue with the public,’ the buyer
                     2013                                                   6,809    of the goods or services is a non-federal entity. For
                     2014                                                    6,523   ‘intragovernmental costs’ the buyer and seller are both
                     Thereafter                                              1,105   federal entities. if a federal entity purchases goods or
                     total Future minimum lease Payments                  $ 35,137   services from another federal entity and sells them to the
                                                                                     public, the exchange revenue would be classified as ‘with
                                                                                     the public,’ but the related costs would be classified as
                                                                                     ‘intragovernmental.’ The purpose of this classification is
                                                                                     to enable the federal government to provide consolidated
                                                                                     financial statements, and not to match public and
                                                                                     intragovernmental revenue with costs that are incurred
                                                                                     to produce public and intragovernmental revenue.




98                   Federal Trade Commission
                     Performance and Accountability Report
For the FYs ended september 30, intragovernmental and public costs and exchange revenues are as follows (in thousands):




                                                                                                                                        financial section
                                                                                                      2009                   2008
 Protect consumers (Pc) strategic goal:
   intragovernmental gross costs                                                                  $ 36,121                $ 33,140
   Public costs                                                                                     111,111                107,565
   total Pc strategic goal costs                                                                    147,232                140,705


   intragovernmental earned revenue                                                                     (253)                   (42)
   Public earned revenue                                                                            (15,694)                (16,160)
   total Pc strategic goal earned revenue                                                           (15,947)                (16,202)
   total Pc strategic goal net costs                                                               131,285                 124,503


 maintain competition (mc) strategic goal:
   intragovernmental gross costs                                                                     26,917                 24,696
   Public costs                                                                                      82,801                 80,157
   total mc strategic goal costs                                                                    109,718                104,853


   intragovernmental earned revenue                                                                     (161)                 (276)
   Public earned revenue                                                                            (42,148)               (102,916)
   total mc strategic goal earned revenue                                                           (42,309)               (103,192)
   total mc strategic goal net costs                                                                 67,409                  1,661
   net cost of operations                                                                         $198,694                $126,164




Note 13—Exchange Revenues                                             upon collection of the appropriate fee and verification
                                                                      of proper documentation.
exchange revenues are earned through the collection of
fees under the Hsr act. This act, in part, requires the               exchange revenues are also earned through the
filing of premerger notifications with the FTc and the                collection of fees for the national Dnc registry. This
antitrust Division of the DoJ and establishes a waiting               registry operates under section 5 of the FTc act, which
period before certain acquisitions may be consummated.                enforces the Telemarketing sales rule. The Do-not-
Mergers with transaction valuation above $65.2 million                call implementation act, Public law no. 108-010,
require the acquiring party to pay a filing fee. The filing           gives the FTc authority to establish fees sufficient to
fees are based on the transaction amount and follow a                 offset enforcement of the provisions related to the Dnc
three-tiered structure: $45, $125 and $280 thousand.                  registry. Telemarketers are required to pay an annual
The FTc collects all Hsr premerger fees, retains                      subscription fee and download from the Dnc registry
one-half, and remits 50 percent to the DoJ antitrust                  database a list of telephone numbers of consumers
Division pursuant to public law. revenue is recognized                who do not wish to receive calls. Fees are based on the




                                                                                                                          Fiscal Year
                                                                                                                            2009        99
                    number of area codes downloaded. effective october                  Note 14—Apportionment
financial section


                    1, 2008, the minimum charge decreased from $62 to
                    $54 to download one area code. The maximum charge
                                                                                        Categories of Obligations Incurred:
                    decreased from $17,050 to $14,850 for all area codes                Direct vs. Reimbursable Obligations
                    within the United states. revenue is recognized when                Apportionment Categories of
                    collected and the telemarketer is given access to the               Obligations Incurred
                    requested data.
                                                                                        obligations incurred reported on the statement of Budgetary
                    exchange revenue is also earned for services provided               resources in FY 2009 and FY 2008 consisted of the following
                                                                                        (in thousands):
                    to other government agencies through reimbursable
                    agreements. The FTc recovers the full cost of services,
                    primarily salaries and related expenses. revenue is                                                             2009         2008
                    earned at the time the expenditures are incurred against             direct obligations:
                    the reimbursable order. all exchange revenues are                     category a                             $265,548     $243,186
                    deducted from the full cost of the FTc’s programs to                  expenditure transfer to
                    arrive at net program cost.                                              DoJ of Hsr fees                       15,357             -
                                                                                                                                  280,905       243,186
                                                                                         reimbursable obligations:
                                                                                          category B                                  390          271
                    For the FYs ended september 30, exchange revenue consisted of the     total                                  $281,295     $243,457
                    following (in thousands):


                                                               2009          2008
                                                                                        Note 15—Explanation of Differences
                                                                                        between the Statement of Budgetary
                       Hsr premerger filing fees             $42,148       $102,917
                       Do not call registry fees               15,694         16,159
                                                                                        Resources and the Budget of the
                       reimbursable agreements                    414            318
                                                                                        United States Government
                       total                                 $58,256       $119,394     There are no material differences between amounts
                                                                                        reported in the FY 2008 statement of Budgetary
                                                                                        resources and the FY 2008 actual amounts as
                                                                                        reported in the FY 2010 Budget of the United states
                                                                                        Government. The FY 2011 Budget of the United states
                                                                                        is not available to compare FY 2009 actual amounts to
                                                                                        the FY 2009 statement of Budgetary resources.

                                                                                        Note 16—Undelivered Orders at the
                                                                                        End of the Period
                                                                                        The amount of budgetary resources obligated for
                                                                                        undelivered orders as of september 30, 2009 and 2008
                                                                                        is $47,677 and $33,427 thousand, respectively.

                                                                                        Note 17—Custodial Activities
                                                                                        as discussed in note 1(h), there was a change of
                                                                                        presentation for the sca for FY 2009. no changes were
                                                                                        made to the amounts reported for FY 2008. additional




100                 Federal Trade Commission
                    Performance and Accountability Report
disclosures and comparative analysis related to all          balances for civil penalties and redress combined.




                                                                                                                         financial section
redress and divestiture activities are made in note 18
                                                             (Increase) in amounts yet to be transferred
redress and Divestiture activities.
                                                             an offsetting liability is established for undisbursed
The primary custodial activities of the FTc are:             custodial funds and funds due to be collected
                                                             (receivable). in FY 2009, the change in the liability
Premerger Filing Fees
                                                             represented the corresponding change in the opening
all Hsr premerger filing fees are collected by the
                                                             and closing corresponding accounts receivable balances
FTc pursuant to 15 U.s.c. 18a note, as amended, and
                                                             for civil penalties and undisbursed premerger fund
are divided evenly between the FTc and the DoJ.
                                                             balances. For FY 2008, the change in the liability
During FY 2009 and FY 2008, the FTc collected
                                                             additionally represented the change in the redress
$84,295 and $205,833 thousand, respectively, in Hsr
                                                             receivables and fund balances.
premerger filing fees. The amounts designated for the
DoJ as reported on the sca were $42,148 thousand             Note 18—Redress and
for FY 2009 and $102,916 thousand for FY 2008.
                                                             Divestiture Activities
Undistributed fees to the DoJ at september 30, 2009
and 2008 were $433 and $15,357 thousand, respectively.       Redress
                                                             The FTc obtains consumer redress in connection with
Civil Penalties and Fines                                    the settlement or litigation of both its administrative
civil penalties collected in connection with the             proceedings and its federal court cases. The FTc
settlement or litigation of the FTc’s administrative or      attempts to distribute funds thus obtained to consumers
federal court cases are collected by either the FTc or       whenever possible. if consumer redress is not practical,
the DoJ as provided for by law. The FTc deposits these       the funds are paid (disgorged) to the Treasury, or
collections into the Treasury. civil penalties collected     on occasion, other alternatives, such as consumer
also include amounts collected for undecided civil           education, are permitted. Major components of the
penalty cases that are held until final disposition of the   program include eligibility determination, disbursing
case. all civil penalties collected are disgorged to the     redress to claimants, and accounting for the disposition
general fund of the Treasury at the end of the year.         of these funds. collections made against court-ordered
Redress                                                      judgments totaled $75,301 and $101,859 thousand
collections for redress reported on the sca for FY           during FYs 2009 and 2008, respectively. FY 2008 total
2009 are limited to those collections that have been         included $590 thousand that were collected by receivers
disgorged to the Treasury. collections reported on the       and agents.
sca in FY 2008 included both collections disgorged           Divestiture Fund
to the Treasury and collections held for distribution to     one judgment (obtained by the FTc in support of
claimants. collections disgorged to the Treasury were        its strategic goal to maintain competition) stipulates
$14,698 thousand for FY 2009 and $54,797 thousand            the divestiture of assets by the defendants into an
for FY 2008.                                                 interest-bearing account to be monitored by the agency.
other line items on the sca include:                         The account balance represents principal and related
                                                             interest held in the Treasury’s Bureau of Public Debt. a
Accrual Adjustments                                          corresponding liability is recorded.
The accrual adjustment for FY 2009 represents the
difference between the FTc’s opening and closing
accounts receivable balances for civil penalties. For FY
2008, the adjustment represents the difference between
the FTc’s opening and closing accounts receivable



                                                                                                           Fiscal Year
                                                                                                             2009        101
                    redress and divestiture fund activities consisted of (in thousands):
financial section



                                                                                            2009          2008
                     redress
                       Fund Balance with treasury
                           Beginning balance                                               $ 2,507    $ 1,441
                           collections                                                      75,301     101,269
                           Disbursements to claimants                                         (261)            (8)
                           Disgorgements to Treasury                                       (14,698)    (54,797)
                           Transfers, expenses, refunds                                    (60,551)       (45,398)
                       ending balance                                                      $ 2,298    $ 2,507


                       cash and other monetary assets
                           Beginning balance                                               $10,485    $ 78,739
                           Disbursements to claimants                                      (68,910)       (29,752)
                           Transfers, expenses, interest income                             76,566     (38,502)
                       ending balance                                                      $ 18,141   $ 10,485


                       investments
                           Beginning balance                                                72,028    $         -
                           Transfers, expenses, interest income                            (22,722)       72,029
                       ending balance                                                      $49,306    $ 72,029


                       accounts receivable, net
                           Beginning balance                                                87,800    $123,974
                           net activity                                                    (32,304)       (36,174)
                       ending balance                                                      $55,496    $ 87,800



                     divestiture Fund:
                       investments
                           Beginning balance                                               $45,485    $ 44,570
                           interest, net of expenses                                            57            915
                       ending Balance                                                      $45,542    $ 45,485




102                 Federal Trade Commission
                    Performance and Accountability Report
Note 19—Reconciliation of Net Cost of Operations to Budget (in thousands)




                                                                                                     financial section
                                                                            2009         2008
resources used to Finance activities:
 Budgetary resources obligated
    obligations incurred                                                  $281,295      $243,457
    less: spending authority from offsetting collections and recoveries    (76,656)     (120,693)
    obligations net of offsetting collections and recoveries               204,639       122,764

  other resources
    imputed financing from costs absorbed by others                          7,650         7,411
    net other resources used to finance activities                           7,650         7,411
    total resources used to finance activities                             212,289       130,175

  resources Used to Finance items not Part of the net
  cost of operations:
    change in budgetary resources obligated for goods, services and
    benefits ordered but not yet provided                                   (14,274)      (1,491)
    resources that finance the acquisition of assets                         (2,791)      (8,512)
    total resources used to finance items not part of the net
    cost of operations                                                      (17,065)     (10,003)
  total resources used to finance the net cost of operations               195,224       120,172

components of the net cost of operations
that will not require or generate resources
in the current Period:
     components requiring or Generating
       resources in Future Periods:
     increase in annual leave liability                                        729          852
     other                                                                     325           70
     total components of net cost of operations that will
     require or generate resources in future periods                         1,054          922

     components not requiring or Generating resources:
     Depreciation and amortization                                           2,416        4,786
     losses on Disposition of assets - other                                     -          284
     Budgetary offsetting collections and receipts that
     do not affect net cost of operations                                        -             -
     total components of net cost of operations
     that will not require or generate resources                             2,416        5,070
  total components of net cost of operations that will not
  require or generate resources in the current period                        3,470        5,992
  net cost of operations                                                  $198,694     $126,164




                                                                                       Fiscal Year
                                                                                         2009        103
other accompanying information




104                              Federal Trade Commission
                                 Performance and Accountability Report
Other Accompanying
Information




                     Fiscal Year
                       2009        105
                                 Inspector General-Identified Management
                                 and Performance Challenges
other accompanying information




106                              Federal Trade Commission
                                 Performance and Accountability Report
Inspector General-Identified Management and Performance Challenges (continued)




                                                                                               other accompanying information




                                                                                 Fiscal Year
                                                                                   2009        107
                                 Inspector General-Identified Management and Performance Challenges (continued)
other accompanying information




108                              Federal Trade Commission
                                 Performance and Accountability Report
Inspector General-Identified Management and Performance Challenges (continued)




                                                                                               other accompanying information




                                                                                 Fiscal Year
                                                                                   2009        109
                                 Inspector General-Identified Management and Performance Challenges (continued)
other accompanying information




110                              Federal Trade Commission
                                 Performance and Accountability Report
Chairman’s Response To IG Challenges




                                                     other accompanying information




                                       Fiscal Year
                                         2009        111
                                 Chairman’s Response To OIG Challenges (continued)
other accompanying information




112                              Federal Trade Commission
                                 Performance and Accountability Report
Summary of Financial Statement Audit and Management Assurances




                                                                                                                        other accompanying information
 TaBle 1: sUMMarY oF Financial sTaTeMenT aUDiT
 audit opinion        Unqualified

 restatement          no

                        Beginning                                                                       ending
 Material                                       new                resolved           consolidated
                         Balance                                                                        Balance
 Weaknesses
                                 0                 0                   0                   0               0
 Total Material                  0                 0                   0                   0               0
 Weaknesses
TaBle 2: sUMMarY oF ManaGeMenT assUrances

 effectiveness of internal control over Financial reporting (FMFia Para. 2)

 statement of        Unqualified
 assurance
                       Beginning                                                                         ending
 Material                                 new          resolved        consolidated        reassessed
                        Balance                                                                          Balance
 Weaknesses
                             0              0               0                     0            0               0
 Total Material              0              0               0                     0            0               0
 Weaknesses

 effectiveness of internal control over operations (FMFia Para. 2)

 statement of       Unqualified
 assurance
                      Beginning                                                                          ending
 Material                                 new          resolved        consolidated        reassessed
                       Balance                                                                           Balance
 Weaknesses
                            0               0              0                  0                0               0
 Total Material             0               0              0                  0                0               0
 Weaknesses

 conformance with Financial Management system requirements (FMFia Para. 4)

 statement of       systems conform to financial management system requirements
 assurance
                      Beginning                                                                           ending
 non-                                    new           resolved        consolidated        reassessed
                       Balance                                                                            Balance
 conformances
                            0              0               0                  0                 0              0
 Total non-                 0              0               0                  0                 0              0
 conformances



                                                                                                          Fiscal Year
                                                                                                            2009        113
                                 Improper Payments Information Act
other accompanying information



                                 The improper Payments information act (Public law no. 107-300) defined requirements to reduce improper and
                                 erroneous payments made by the federal government. The oMB also has established specific reporting requirements
                                 for agencies with programs that have a significant risk of erroneous payments and for reporting on the results of
                                 recovery auditing activities. a significant erroneous payment as defined by oMB guidance is an annual erroneous
                                 program payment that exceeds both 2.5 percent of the program payments and $10 million. The agency reviews its
                                 controls and systems under the FMFia to ensure that the agency can rely on them. in this review, the agency has
                                 not identified any programs where significant erroneous payments have occurred within the FTc. The agency will
                                 continue to review its programs annually to determine if any significant erroneous payments exist.




114                              Federal Trade Commission
                                 Performance and Accountability Report
Appendices




             Fiscal Year
               2009        115
             Appendix A: Acronyms
appendices



             BC                Bureau of competition
             BCP               Bureau of consumer Protection
             BE                Bureau of economics
             BI                Business intelligence
             CDC               centers for Disease control
             CFO               chief Financial officer
             CFS               core Financial system
             CON               certificate of need
             COPPA             children’s online Privacy Protection act
             CSN               consumer sentinel network
             CSRS              civil service retirement system
             DNC               Do not call
             DOJ               Department of Justice
             DOL               Department of labor
             DRM               Digital rights Management
             EFT               electronic Funds Transfer
             FASAB             Federal accounting standards advisory Board
             FDA               Food and Drug administration
             FECA              Federal employee’s compensation act
             FEGLIP            Federal employees Group life insurance Program
             FEHBP             Federal employees Health Benefit Program
             FERS              Federal employees retirement system
             FICA              Federal insurance contributions act
             FISMA             Federal information security Management act
             FMFIA             Federal Managers’ Financial integrity act
             FTC               Federal Trade commission
             FTE               Full-Time equivalent
             FY                Fiscal Year
             GAAP              Generally accepted accounting Principles
             GAO               Government accountability office
             GAS               Government account series
             GSA               General services administration
             HRMO              Human resources Management office
             HSR Act           Hart-scott-rodino act
             ICN               international competition network
             IG                inspector General




116          Federal Trade Commission
             Performance and Accountability Report
Appendix A: Acronyms (continued)




                                                                               appendices
ITMO        information and Technology Management office
MC          Maintain competition
MD&A        Management’s Discussion and analysis
N/A         not applicable
            not available
MLS         Multiple listing service
OIG         office of inspector General
OMB         office of Management and Budget
OPM         office of Personnel Management
ORB         other retirement Benefits
PAR         Performance and accountability report
PC          Protect consumer
PII         Personally identifiable information
PSC         Privacy steering committee
SAS         statement on auditing standard
SAT         senior assessment Team
SCA         statement of custodial activity
SFFAS       statement of Federal Financial accounting standard
TAS         Treasury account symbol
TSP         Thrift savings Plan
TTY         Text Telephone
            Telephone Typewriter
U.S.        United states
U.S. SAFE   Undertaking spam, spyware, and Fraud enforcement
WEB Act     With enforcers Beyond Borders act
USDA        United states Department of agriculture




                                                                 Fiscal Year
                                                                   2009        117
             Appendix B:
appendices


             Contact Information and Acknowledgements
             Federal Trade Commission                   600 Pennsylvania avenue, nW
                                                        Washington, Dc 20580
             General information number                 202-326-2222
             internet Home Page                         www.ftc.gov
             FTc spanish Home Page                      www.ftc.gov/espanol
             strategic Plan internet site               www.ftc.gov/strategicplan
             FTc Press releases                         www.ftc.gov/opa/pressold.shtm


             Performance and Accountability Report (PAR) Specific
             The FTc welcomes comments or suggestions for improvement of its Par.
             Please contact the agency to provide feedback or to request additional copies.
             Par internet site                          www.ftc.gov/par
             Par contact                                Darlene cossette
             Par Telephone                              202-326-3255
             Par e-mail address                         gpra@ftc.gov
             Par Fax number                             202-326-2329
             Par Mailing address                        Federal Trade commission
                                                        atten Par, M/D H-774
                                                        600 Pennsylvania avenue, nW
                                                        Washington, Dc 20580
             Regions
             east central (cleveland, oH)               216-263-3455
             Midwest (chicago, il)                      312-960-5634
             northeast (new York, nY)                   212-607-2829
             northwest (seattle, Wa)                    206-220-6350
             southeast (atlanta, Ga)                    404-656-1390
             southwest (Dallas, TX)                     214-979-9350
             Western (san Francisco, ca)                415-848-5100
             Western (los angeles, ca)                  310-824-4343


             Consumer Response Center
             General complaints                         877-FTc-HelP (877-382-4357)
             identity Theft complaints                  877-iD-THeFT (877-438-4338)
             online General complaints                  www.ftc.gov/complaint
             identity Theft education
                and complaints                          www.ftc.gov/idtheft
             national Do not call registry              www.donotcall.gov




118          Federal Trade Commission
             Performance and Accountability Report
             Appendix B:
                                                                                              Acknowledgements
appendices


             Contact Information and Acknowledgements
                                                                                              The FTC gratefully acknowledges the work of James Baker, donna Brenyo, darlene Cossette, nancy lux,
                                                                                              diane reinertson, Jon schroeder, and lori Walsh-Van Wey of the Financial management office; Jeanine Balbach,
             Federal Trade Commission 		                600 Pennsylvania Avenue, NW
                                                                                              nathan Hawthorne, and stefano sciolli of the Bureau of Competition; and Beth arvan Wiggins, daniel Kaufman,
             					                                      Washington, DC 20580
                                                                                              and Jonathan soileau of the Bureau of Consumer Protection for contributing to the development of this report.
             General Information Number 	    	          202-326-2222                          editorial and design work supported by aoC solutions, inc., and Fathom Creative.
             Internet Home Page 			                     www.ftc.gov
             FTC Spanish Home Page 		                   www.ftc.gov/espanol
             Strategic Plan Internet Site 		            www.ftc.gov/strategicplan
             FTC Press Releases 			                     www.ftc.gov/opa/pressold.shtm


             Performance and Accountability Report (PAR) Specific
             The FTC welcomes comments or suggestions for improvement of its PAR.
             Please contact the agency to provide feedback or to request additional copies.
             PAR Internet Site 		 www.ftc.gov/par
             PAR Contact 		Darlene Cossette
             PAR Telephone 		 202-326-3255
             PAR E-mail Address 		 gpra@ftc.gov
             PAR Fax Number 		 202-326-2329
             PAR Mailing Address 		 Federal Trade Commission
             		Atten PAR, M/D H-774
             		 600 Pennsylvania Avenue, NW
             		 Washington, DC 20580
             Regions
             East Central (Cleveland, OH) 		            216-263-3455
             Midwest (Chicago, IL) 		                   312-960-5634
             Northeast (New York, NY) 		                212-607-2829
             Northwest (Seattle, WA) 		                 206-220-6350
             Southeast (Atlanta, GA) 		                 404-656-1390
             Southwest (Dallas, TX) 		                  214-979-9350
             Western (San Francisco, CA) 		             415-848-5100
             Western (Los Angeles, CA) 		               310-824-4343


             Consumer Response Center
             General Complaints 		                      877-FTC-HELP (877-382-4357)
             Identity Theft Complaints 		               877-ID-THEFT (877-438-4338)
             Online General Complaints 		               www.ftc.gov/complaint
             Identity Theft Education
                and Complaints 		                       www.ftc.gov/idtheft
             National Do Not Call Registry 		           www.donotcall.gov




118          Federal Trade Commission
             Performance and Accountability Report
                                                                                                                                                                                                 Fiscal Year
                                                                                                                                                                                                   2009
Federal Trade Commission
For the Consumer
877-FTC-helP
www.ftc.gov
